<html>
<title> - INQUIRY INTO THE DEEPWATER HORIZON GULF COAST OIL SPILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      INQUIRY INTO THE DEEPWATER HORIZON 
                             GULF COAST OIL SPILL 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              MAY 12, 2010

                               ----------                              

                           Serial No. 111-122


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

76-577 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















        INQUIRY INTO THE DEEPWATER HORIZON GULF COAST OIL SPILL

















                   INQUIRY INTO THE DEEPWATER HORIZON
                          GULF COAST OIL SPILL

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2010

                               __________

                           Serial No. 111-122


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
BRUCE L. BRALEY, Iowa                GREG WALDEN, Oregon
  Vice Chairman                        Ranking Member
EDWARD J. MARKEY, Massachusetts      ED WHITFIELD, Kentucky
DIANA DeGETTE, Colorado              MIKE FERGUSON, New Jersey
MIKE DOYLE, Pennsylvania             TIM MURPHY, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas
DONNA M. CHRISTENSEN, Virgin 
    Islands
PETER WELCH, Vermont
GENE GREEN, Texas
BETTY SUTTON, Ohio
JOHN D. DINGELL, Michigan (ex 
    officio)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     2
    Prepared statement...........................................     6
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    10
    Prepared statement...........................................    12
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................    17
    Prepared statement...........................................    21
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    25
    Prepared statement...........................................    29
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    34
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    34
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    35
    Prepared statement...........................................    38
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    40
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................    41
    Prepared statement...........................................    42
Hon. Parker Griffith, a Representative in Congress from the State 
  of Alabama, opening statement..................................    45
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    45
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................    46
    Prepared statement...........................................    48
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    50
    Prepared statement...........................................    52
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    54
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    54
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont, opening statement.....................................    55
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    56
Hon. Mike Ross, a Representative in Congress from the State of 
  Arkansas, opening statement....................................    57
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    58
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, prepared statement..........................   165

                               Witnesses

Steve Newman, President and CEO, Transocean Limited..............    60
    Prepared statement...........................................    63
    Answers to submitted questions...............................   335
Lamar McKay, Chairman and President, BP America, Inc.............    76
    Prepared statement...........................................    79
Tim Probert, President, Global Business Lines, Chief Health, 
  Safety, and Environmental Officer, Halliburton.................    91
    Prepared statement...........................................    93
    Answers to submitted questions...............................   340
Jack B. Moore, Director, President and CEO, Cameron International    97
    Prepared statement...........................................    98
    Answers to submitted questions...............................   344

                           Submitted Material

Document binder..................................................   167


        INQUIRY INTO THE DEEPWATER HORIZON GULF COAST OIL SPILL

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in Room 
2123, Rayburn House Office Building, Hon. Bart Stupak [chairman 
of the subcommittee] presiding.
    Present: Representatives Stupak, Braley, Markey, DeGette, 
Doyle, Schakowsky, Ross, Christensen, Welch, Green, Sutton, 
Dingell, Waxman (Ex Officio), Burgess, Sullivan, Blackburn, 
Gingrey, Griffith, Latta, and Barton (Ex Officio).
    Also Present: Representatives Engel, Capps, Inslee, 
Melancon, Castor, Stearns, Myrick, Scalise, and Jackson Lee.
    Staff Present: Phil Barnett, Staff Director; Kristin 
Amerling, Chief Counsel; Bruce Wolpe, Senior Advisor; Brian 
Cohen, Senior Investigator and Policy Advisor; Greg Dotson, 
Chief Counsel, Energy and Environment; Robb Cobbs, Policy 
Analyst; Caitlin Haberman, Special Assistant; Dave Leviss, 
Chief Oversight Counsel; Meredith Fuchs, Chief Investigative 
Counsel; Stacia Cardille, Counsel; Alison Cassady, Professional 
Staff Member; Al Golden, Professional Staff Member; Jennifer 
Owens, Investigator; Ali Neubauer; Karen Lightfoot; 
Communications Director, Senior Policy Advisor; Elizabeth 
Letter, Special Assistant; Lindsay Vidal, Special Assistant; 
Earley Green, Chief Clerk; Mitchell Smiley, Special Assistant; 
Alan Slobodin, Minority Chief Counsel; Mary Neumayr, Minority 
Counsel; Peter Spencer, Minority Professional Staff Member; 
Andrea Spring, Minority Professional Staff Member; and Garrett 
Golding, Minority Legislative Analyst.
    Mr. Stupak. This meeting will come to order.
    Today, we have a hearing titled, ``Inquiry Into Deepwater 
Horizon Gulf Coast Oil Spill.''
    We have a number of Members present for this hearing who 
are not members of the subcommittee but are members of the full 
committee. We welcome them, and I note that they will be 
allowed to submit written statements for the record, but they 
will not be allowed to deliver verbal opening statements. In 
addition, after all subcommittee members complete their 
questioning, full committee members will be allowed to ask 
questions. Members who are not on the subcommittee or full 
committee are welcome to observe, but they will not be 
permitted to give a verbal opening statement or ask questions 
due to time constraints.
    The chairman, ranking members and chairman emeritus will 
now be recognized for a 10-minute opening statement. Other 
members of the subcommittee will be recognized for 3-minute 
opening statements.
    I yield to the chairman of the full committee, Mr. Waxman, 
for an opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Last month, the blowout occurred on an oil rig 
drilling in deep water off the Gulf of Mexico. Eleven people 
lost their lives and an environmental calamity is now unfolding 
in the Gulf as oil gushes from the well and threatens the 
coast.
    We are here today to begin the process of understanding 
what went wrong and what we need to do to prevent future 
catastrophes. The investigation is at its early stage, but 
already we have learned some key facts. BP, one of the world's 
largest oil companies, assured Congress and the public that it 
could operate safely in deep water, and that a major oil spill 
was next to impossible. We now know those assurances were 
wrong. Halliburton, one of the world's largest oil service 
companies, says that it had secured the well through a 
procedure called cementing, and that the well had passed a key 
pressure test, but we now know this is an incomplete account. 
The well did pass positive pressure tests, but there is 
evidence that it may not have passed crucial negative pressure 
tests. According to a senior BP official, significant 
discrepancies were observed in at least two of these tests 
which were conducted just hours before the explosion.
    Transocean, one of the world's largest operators of 
drilling rigs, says it has no reason to believe that the rig's 
failsafe device, called a blowout preventer, was not fully 
operational, but we have learned from Cameron, the manufacturer 
of the blowout preventer, that the device had a leak in a 
crucial hydraulic system and a defectively configured ram. And 
we know there our major questions about the effectiveness of 
BP's response to the spill. The company said it could manage a 
spill of 250,000 barrels a day, yet it is struggling to cope 
with this blowout, which is releasing only 5,000 to 25,000 
barrels a day.
    The more I learn about this accident, the more concerned I 
become. This catastrophe appears to have been caused by a 
calamitous series of equipment and operational failures. If the 
largest oil and oil service companies in the world had been 
more careful, 11 lives might have been saved and our coastlines 
protected.
    It is dangerous to drill for oil a mile below the ocean 
surface. An accident can wreak environmental havoc that 
destroys livelihoods and imperils fish and wildlife. The oil 
companies make billions of dollars from taking these risks, but 
they don't bear the full costs when something goes drastically 
wrong.
    In the course of our investigation, we have received over 
100,000 pages of documents. The story that these documents and 
our interviews tell us is a complicated one. At this early 
stage in the investigation, we have far more questions than 
answers, but we have learned some important facts which 
Chairman Stupak, Chairman Markey, and I will describe in our 
statements.
    There are four principal areas of inquiry that our 
committee is pursuing. The first involves questions related to 
well integrity. We know there was a failure of the well because 
gas surged up the riser and exploded on the rig. We will be 
investigating what caused the breach in well integrity and who 
was responsible.
    The second area of inquiry involves what happened on the 
Transocean drill rig. There are pressure monitors on the rig 
that feed information constantly to the drill operators, and 
there are panels on the rig that control the operations of the 
blowout preventer and the drill string. We will be examining 
what the drill operators knew and what decisions they made. In 
the rest of my statement I will discuss what we have learned 
about these two areas of the inquiry.
    Our third area of inquiry involves the blowout preventer, 
which is also called the BOP. This is supposed to be the last 
line of defense against the blowout of the well, but it failed. 
We have learned a lot about the blowout preventer, and Chairman 
Stupak will summarize this part of our investigation.
    The final area of inquiry involves the response of BP and 
other companies to the spill. They promised to contain any 
spill, but they are not succeeding. Chairman Markey, who chairs 
our Energy subcommittee and the Select Committee on Energy 
Independence, will cover this area of our inquiry in his 
opening statement.
    We recently received a document from BP called, ``What We 
Know.'' It was prepared on May 6, and it summarizes what BP 
knew about the spill at that time. I want to focus on the first 
four bullets. I also ask unanimous consent, Mr. Chairman, that 
this document and other documents cited during this hearing be 
made part of the official hearing record.
    Mr. Stupak. Without objection, so be it.
    Mr. Waxman. The first bullet says, ``Before, during or 
after the cement job, an undetected influx of hydrocarbons 
entered the well bore.'' What this means is that there was a 
breach somewhere in the well integrity that allowed methane gas 
and possibly other hydrocarbons to enter the well.
    The second bullet says, ``The 97H inch casing was tested. 
The 97H casing hanger packoff was sent and tested, and the 
entire system was tested.'' BP explained to us that this refers 
to a positive pressure test in the well. What this means is 
that fluids were injected in the well to increase the pressure 
and to monitor whether the well would retain its integrity. The 
well passed this test.
    Rigs like Deepwater Horizon keep a daily drilling report, 
and Transocean has given us the report for April 20, the day of 
the explosion. It is an incomplete log because it ends at 3 
o'clock in the afternoon, about 7 hours before the explosion, 
but it confirms that the three positive pressure tests were 
conducted in the morning to the early afternoon.
    The next bullet says, ``After 16\1/2\ hours waiting on 
cement, a test was performed on the well bore below the blowout 
preventer.'' BP explained to us what this means. Halliburton 
completed cementing the well at 12:35 a.m. On April 20, and 
after giving the cement time to set, a negative pressure test 
was conducted around 5 p.m. This is an important test. During a 
negative pressure test, the fluid pressure inside the well is 
reduced, and the well is observed to see whether any gas leaks 
into the well through the cement or casings.
    According to James Dupree, the BP Senior Vice President for 
the Gulf of Mexico, the well did not pass this test. Mr. Dupree 
told committee staff on Monday that since test results were not 
satisfactory and inconclusive, significant pressure 
discrepancies were recorded. As a result, another negative 
pressure test was conducted. This is described in the fourth 
bullet.
    During this test, 1,400 PSI was observed on the drill pipe 
while zero PSI was observed on the kill and the choke lines. 
According to Mr. Dupree, this is also an unsatisfactory test 
result. The kill and choke lines run from the drill rig 5,000 
feet to the blowout preventer at the sea floor. The drill pipe 
runs from the drill rig through the blowout preventer deep into 
the well. In the test, the pressures measured at any point from 
the drill rig to the blowout preventer should be the same in 
all three lines, but what the test showed was that the 
pressures in the drill pipe were significantly higher. Mr. 
Dupree explained that the results could signal that an influx 
of gas was causing pressure to mount inside the well bore.
    Another document provided by BP to the committee is 
labeled, ``What could have happened?'' It was prepared by BP on 
April 26, 10 days before the first document. And according to 
BP, their understanding of the cause of the spill has evolved 
considerably since April 26, so this document should not be 
considered definitive. But it also describes the two negative 
pressure tests and the pressure discrepancies that were 
recorded.
    What happened next is murky. Mr. Dupree told the committee 
staff that he believed the well blew moments after the second 
pressure test, but lawyers for BP contacted the committee 
yesterday and provided a different account. According to BP's 
counsel, further investigation has revealed that additional 
pressure tests were taken, and at 8 p.m. Company officials 
determined that the additional results justified ending the 
test and proceeding with well operations.
    This confusion among BP officials appears to echo confusion 
on the rig. Information reviewed by the committee describes an 
internal debate between Transocean and BP personnel about how 
to proceed. What we do know is that shortly before 10 p.m., 
just 2 hours after well operations apparently resumed, gas 
surged from the well, up the riser, and the rig exploded in a 
fireball. This hearing and future hearings the committee will 
conduct in the coming weeks will explore these questions. Our 
goal is to learn what caused the fatal explosion so that 
Congress and the executive branch can act to prevent future 
disasters.
    But as we focus on these narrow questions of what happened 
and why, we also need to keep the broader perspective in mind. 
Our national energy policy is broken, and nothing illustrates 
this better than this massive spill. Our dependence on oil and 
other fossil fuels is fouling our beaches, polluting our 
atmosphere, and undermining our national security.
    One lesson is already apparent from the catastrophe in the 
Gulf; we need an energy policy that emphasizes clean, renewable 
sources of energy. Now we can't snap our fingers and transform 
our energy economy overnight. If we do not have the courage to 
take on the oil companies and take decisive steps to reduce our 
overreliance on oil, when the consequences of doing nothing are 
so clear, we may never start down the path toward a clean 
energy economy.
    Mr. Chairman, I look forward to today's hearing, and I 
thank the witnesses for appearing and for their cooperation in 
the investigation.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Chairman.
    Next I will go to Mr. Barton, ranking member of the full 
committee, for an opening statement. Your opening statement, 
please.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman Stupak. I am going to 
submit my written statement for the record and speak 
extemporaneously because I think, based on what Chairman Waxman 
just said, we need to kind of set the parameters.
    There is nobody on either side of the aisle in this 
subcommittee or the full committee that doesn't want to get the 
facts on the table about what happened down in the Gulf of 
Mexico approximately 1 month ago, why it happened, what can be 
done to prevent it happening in the future, and remediate any 
damages, both human and environmental. The 11 people that lost 
their lives is a primary tragedy. The fact that 5,000 barrels a 
day of oil is spilling out of the well and coming to the 
surface and beginning to wash up on some of the beaches in 
Louisiana and Alabama is a problem, but it is a problem that 
can be remediated.
    I want to focus on some of the things that Chairman Waxman 
said right at the end of his statement when he made the comment 
that if we can't take on the oil industry, as if this was some 
sort of an adversarial situation between the people in the 
industry. Nothing could be further from the truth. The United 
States of America is the greatest nation in the world because 
we are based on the premise of freedom for every individual in 
this country. That freedom is enunciated in the Declaration of 
Independence.
    Our Founding Fathers had the foresight and the wisdom--and 
so far political leadership for the last 200 years--and said 
the best way to protect our freedoms is to provide maximum 
economic opportunity through a free market, capitalistic 
system. We are one of the few nations in the world that have 
let the private sector develop our natural resource base. That 
has given us the most productive economy, the largest economy. 
Literally, the United States economy by itself is approximately 
one-third of the total world's gross product. That is not a 
consequence of government, it is a consequence of free men and 
women exercising free choices to maximize their opportunity, 
and in so doing, create economic opportunity for everybody in 
the world.
    We are in a situation now where if we are going to have 
additional domestic energy production in a way that maintains 
our existing lifestyle, it is going to be because we develop 
our natural resource base both onshore and offshore. I have 
absolutely no problem with the alternative energy sources, 
whether it be solar, wind, ethanol, hydro, you name it, but 
there is a reason that we are an oil-based economy, it is 
because that barrel of oil, refined into all the products that 
flow from it, have tremendous, tremendous productivity 
potential. You can take a gallon of gasoline and you can power 
a 4,000-pound car with four adults in it at 60 miles an hour in 
air-conditioned comfort down the highway all the way from New 
York City to Los Angeles, California.
    Now, we do not want, on either side of the aisle, to have 
people have to import more and more foreign oil. Whether we 
like it or not, the only real place to find significant 
additional oil deposits in meaningful quantities is in the 
Outer Continental Shelf. Now, we have had an accident. It is 
not an act of God. The amount of pressure, the amount of gas 
and oil that came up that bore hole is something that was 
foreseeable, it is something that could have been and should 
have been contained. The blowout prevention equipment that was 
on that rig had a design capacity that should have controlled 
that explosion, it didn't.
    The facts that we have uncovered in this investigation 
through the documents that have been provided show that there 
was, in all probability, shoddy maintenance; there were 
mislabeled components; the diagrams didn't depict the actual 
equipment, but that was not an act of God like a hurricane or 
an earthquake or a volcano that man can't control. Now, through 
the efforts of this subcommittee and the full committee and 
some of the other committees, we will get to the bottom of it; 
we will find out the facts and we will take corrective measures 
to prevent that from happening in the future, whether it is 
legislatively or regulatorily or through best practices changes 
by the industry. But what we should not do, Mr. Chairman, is 
make a decision to fence off the Outer Continental Shelf, to 
use this as the equivalent of the Three Mile Island accident 
for nuclear power and set back domestic oil and gas production 
in the Outer Continental Shelf for the next 20 or 30 years. 
That would not only be a mistake in my opinion, it would be a 
disservice to the American people.
    So I don't want to take on the industry. I want to work 
with the industry, I want to work with the Congress, I want to 
find out what the problem was, I want to solve that problem, 
and I want to move forward. I don't want the United States of 
America to continue to import 12 to 14 million barrels of oil a 
day. That one well in the Gulf, although British Petroleum has 
not been explicit, that one well probably has the potential to 
produce 50,000 barrels of oil a day. To put that in 
perspective, there are 200,000 oil wells onshore Texas 
producing 1 million barrels of oil, that is five barrels a day 
per well in Texas. This one well is the equivalent to 10,000 
oil wells in Texas. That one well in full production is 1 to 2 
percent of the production capacity existing in the Gulf of 
Mexico today. Mr. Chairman, we can't fence that off. We can 
correct the problem, we can prevent the problem, we can try to 
change the technology, but do not use this accident as an 
excuse to take away from the American people probably the 
biggest domestic energy resource we yet have to develop on the 
North American continent.
    With that, Mr. Chairman, I yield back the balance of my 
time and I look forward to hearing from the witnesses.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Barton. I will do my opening 
statement now.
    Three years ago almost to the day, this subcommittee held a 
hearing into British Petroleum disasters at Texas City and on 
the North Slope of Alaska. The 205 Texas City Refinery 
explosion resulted in the death of 15 workers and injured more 
than 170 people.
    As a result of that accident and BP's failure to correct 
potential hazards faced by employees at Texas City, OSHA has 
twice slapped BP with record-setting fines totaling more than 
$100 million. Several reports criticized management at the 
Texas City facility, including BP's own 207 report of the 
Management Accountability Project, which stated, ``A culture 
that evolved over the years seemed to ignore risk, tolerated 
noncompliance, and accepted incompetence.''
    In March of 2006, BP discovered their pipeline on Alaska's 
North Slope had spilled more than 200,000 gallons of oil on the 
tundra, making it the largest spill in North Slope history. Our 
hearings discovered that significant cost-cutting measures 
resulted in decreased maintenance and inspections of the 
pipeline, and BP's management culture deterred individuals from 
raising safety concerns.
    Since our last hearing, BP has experienced continual 
problems on the North Slope. September 29, 2008, an eight-inch 
high pressure gas line at the Y-Pad location separated, sending 
three pieces of pipe to the tundra. One segment of the pipe 
landed 900 feet from the pipeline. Roughly 30 minutes later, a 
second and unrelated incident occurred on the S-Pad where there 
was a gas release.
    January 15, 2009, a disk cleaning pig became lodged and 
lost in the 34-inch oil transit line during de-oiling, allowing 
gas to pass around the pig and travel through Skid 50 to Pump 
Station number one, causing a significant venting of gas into 
the atmosphere and a complete shutdown of the Trans-Alaska 
Pipeline.
    October 10, 2009, at the Centro Compressor Plant, low-
pressure flare staging valves were stuck closed, causing gas to 
travel to the back-up, low-pressure serve valves, which 
activated, caused the gas to vent to the atmosphere, which 
could have caused an explosion.
    November 28, 2009, an 18-inch, three-phase common line near 
Lisburne Production Center carrying a mixture of crude oil, 
produced water and natural gas ruptured, spraying its contents 
over an estimated 84,000 square feet.
    In addition to these pipeline incidents, there have been 
personal injury acts since where employees have been seriously 
injured or killed, as was the tragic case of Mike Fallinon 
November 18 when he was crushed between a pipeline and a truck.
    Today we are here to investigate the latest BP tragedy, one 
which has resulted in the loss of 11 lives and is well on its 
way to becoming one of the largest oil spills in our Nation's 
history. Let me take a moment on behalf of the entire committee 
to convey our deepest sympathies to the family, friends, and 
coworkers of those 11 individuals lost on that fateful day.
    On April 20, an explosion and fire occurred in the 
Deepwater Horizon drilling rig which BP was leasing to drill an 
exploratory well in the Gulf of Mexico. The rig was owned and 
operated by Transocean, the world's largest offshore drilling 
company, and was under contract from BP. On April 22, the rig 
capsized and sank to the floor of the ocean, resulting in oil 
leaks from three separate locations among the twisted wreckage.
    The world is wondering, what went wrong to allow explosive 
gas to shoot out of the drill pipe on the Deepwater Horizon 
causing the explosion? We heard Chairman Waxman discuss 
theories of what may have gone wrong in the well and what went 
wrong on the rig. I would like to take a few minutes to discuss 
issues related to the blowout preventer, the BOP, which was the 
fail-safe system that cut off the flow of oil and gas to the 
rig.
    In his testimony today, Mr. Lamar McKay, the President of 
BP America, says that blowout preventers are ``intended to be 
fail-safe.'' But that didn't happen. The blowout preventer used 
by Deepwater Horizon rig failed to stop the flow of gas and 
oil. The rig exploded, and an enormous oil spill is now 
threatening the Gulf Coast. We know that the blowout preventer, 
the BOP, did not properly engage. The BOP has multiple rams 
that are supposed to slam shut to pinch off any flow around the 
drill pipe and stop the flow of oil from the well. There are 
also shear rams in the BOP that are supposed to cut and seal 
the pipe to prevent oil and gas from flowing. The question we 
will ask is, why did these rams fail?
    Our investigation is at its early stages, but already we 
have uncovered at least four significant problems with the 
blowout preventer used on the Deepwater Horizon drill rig. 
First, the blowout preventer had a significant leak in the key 
hydraulic system. This leak was found in the hydraulic system 
that provides emergency power to the shear rams, which are the 
devices that are supposed to cut the drill pipe and seal the 
well.
    I would like to put on the screen a document that the 
committee received from BP. This document states, Leaks have 
been discovered in the BOP hydraulic system. The blowout 
preventer was manufactured by Cameron. We asked a senior 
official at Cameron what he knew about these leaks. He told us 
when the remote operating vehicles tried to operate the shear 
rams, they noticed a loss of pressure. They investigated this 
by injecting dye into the hydraulic fuel which showed a large 
leak coming from a loose fitting which was backed off several 
turns. The Cameron official told us he did not believe the leak 
was caused by a blowup because every other fitting on the 
system was tight. We also asked about the significance of the 
leak. The Cameron official said it was one of several possible 
failure modes. If the leak deprived the shear rams of 
sufficient power, they might not succeed in cutting through the 
drill pipe and sealing the well.
    Second, we learned that the blowout preventer had been 
modified in unexpected ways. One of these modifications was 
potentially significant. The blowout preventer has an 
underwater control panel. BP spent the day trying to use this 
control panel to activate a variable oil ram on the blowout 
preventer that is designed to seal tight around any pipe of the 
well; in other words, pinch off the flow of oil. When they 
investigated why their attempts failed to activate the bore 
ram, they learned that the device had been modified. A useless 
test ram, not the variable bore ram, had been connected to the 
socket that was supposed to activate the variable bore ram.
    An entire day's work of precious time had been spent 
engaging rams that closed the wrong way because it was wired 
wrong.
    BP told us the modifications on the BOP were extensive. 
After the accident, they asked Transocean for drawings of the 
blowout preventer because the modifications that drawings they 
received did not match the structure on the sea floor. BP said 
they wasted many hours trying to figure this out.
    Third, we learned that the blowout preventer is not 
powerful enough to cut through the joints in a drill pipe. We 
found a Transocean document that I would like to put on the 
screen, and it says, Most blind shear rams are designed to 
shear effectively only on the body of the drill pipe. 
Procedures for use of BSRs must therefore ensure that there is 
no tool joint opposite the ram prior to shearing. This seemed 
astounding to us because the threaded joints between the 
sections of drill pipe make up about 10 percent of the length 
of pipe. If the shear rams cannot cut through the joints, that 
would mean the so-called ``fail safe'' device would succeed in 
cutting the drill pipe only 90 percent of the time.
    We asked the Cameron official about the cutting capacity of 
the blowout preventer on the Deepwater Horizon. He confirmed 
that it is not powerful enough to cut through the joints and 
the drill pipe. He told us that this was another possible 
explanation for the failure of the blowout preventer to seal 
the well.
    And fourth, we learned that the emergency controls on the 
blowout preventer may have failed. The blowout preventer has 
two emergency controls, one is called the emergency disconnect 
system, or EDS. BP told us that the EDS was activated on the 
drill rig before the rig was evacuated, but the Cameron 
officials said they doubt that the signals ever reached the 
blowout preventer on the seabed. Cameron officials believe the 
explosion on the rig destroyed the communications link to the 
blowout preventer before the emergency sequence could be 
completed.
    In other words, the emergency controls may have failed 
because the explosion had caused the emergency off the disabled 
communications to the blowout preventer. Still, the blowout 
preventer has a dead man switch which is supposed to activate 
the blowout preventer when all else fails. But according to 
Cameron, there were multiple scenarios that could have caused 
the dead man switch not to activate. One is human oversight. 
The dead man switch may not have been enabled prior to 
installing the BOP on the ocean floor. One is a lack of 
maintenance. The dead man switch won't work if the batteries 
are dead. The dead man switch is connected to two separate 
control pods on the blowout preventer. Both rely on battery 
power to operate. When one of the control pods was removed and 
inspected after the spill began, the battery was found to be 
dead. The battery in the other pod has still not yet been 
inspected.
    There also appears to be a design problem. The dead man 
switch activates only when three separate lines that connect 
the rig to the blowout preventer are all severed, the 
communication, power and hydraulic lines. Cameron believes the 
power and communication lines were severed in the explosion, 
but it is possible that hydraulic lines remained intact, which 
would have stopped the dead man switch from activating.
    These are not the only failure scenarios that could impair 
the function of the blowout preventer. The Cameron official we 
met with described many other potential problems that could 
have prevented the blowout preventer from functioning properly. 
Steel casings or casing hanger could have been ejected from the 
well and blocked the operations of the rams, the drill pipe 
could have been severed successfully, but then dropped from the 
rig, breaking the seal. All operators on the rig could have 
tried to activate the shear rams by pushing the shear ram 
control button. This would initiated an attempt to close the 
rams, but it would not have been successful.
    The shear rams do not have enough power to cut drill pipes 
unless they are activated through the emergency switch or the 
dead man switch. In fact, we uncovered an astonishing document 
that Transocean prepared in 2001 when it bought the blowout 
preventer from Cameron. I would like to display the executive 
summary of this document. It says there are 260 separate 
failure modes that could require polling of the BOP. According 
to this report, the predominant failures included ram blocking 
mechanisms. How can a device that has 260 failure modes be 
considered fail-safe?
    The problems with the blowout preventer extend to the 
procedures for testing the device. CEO of Transocean, Steven 
Newman, says in his testimony, ``We have no reason to believe 
that they were not operational. They were jointly tested by BP 
and Transocean personnel as specified on April 10 and 17 and 
found to be functional.'' This assertion seems to be 
contradicted by a document prepared by BP on April 27, one week 
after the explosion. According to this document, ``The blowout 
preventer stack emergency systems are not typically tested once 
the BOP stack is on the seabed. What this means is that, while 
some functions of the BOP may have been tested in the weeks 
before the explosion, the emergency systems, including the dead 
man switch and the leaking emergency hydraulic system, were 
unlikely to have been tested.
    After the Alaska Pipeline and Texas refineries disasters, 
BP promised to make safety its number one priority. This 
hearing will raise questions about whether BP and its partners 
fulfilled this commitment. The safety of its entire operations 
rested on the performance of a leaking, modified, defective 
blowout preventer.
    This is the first of what will certainly be multiple 
hearings into this disaster. I look forward to a frank and 
spirited discussion with our witnesses today.
    I ask unanimous consent that the documents I referred to be 
entered into the record.
    [The information appears at the conslusion of the hearing.]
    [The prepared statement of Mr. Stupak follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. I next turn to Mr. Burgess, ranking member of 
the subcommittee, for an opening statement, please.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the chairman. And thank you for 
convening this important hearing.
    The Deepwater Horizon events obviously represent a shocking 
tragedy. Eleven lives were lost, and we all regret that, 
environmental and economic harm continues to the area, and we 
don't know what caused the disaster. But it is apparent that 
there was a failure, and now this committee and, indeed the 
American people, want answers and they want accountability.
    This hearing is preliminary. It is a necessary step in 
getting the answers and getting to that accountability, and 
that is why I support the efforts of the committee to move 
rapidly on this investigation. What caused the blowout and the 
explosion, the failure of the various emergency safeguards on 
the sea floor and the immediate response to stem the oil spill 
deserve our close and thorough scrutiny.
    Unfortunately, today's hearing and the committee's 
investigation is what one might call asymmetric oversight. The 
committee has demanded and obtained thousands and thousands and 
thousands of pages of documents and testimony from the four 
companies represented today, but we have obtained virtually 
nothing from those Federal agencies that were responsible for 
the licensing and oversight of these operations.
    Nothing from the Obama administration, who presumably has 
already had discussions with likely many of you as to what went 
wrong and what might be done to mitigate the problem, but no 
documents, no testimony from the administration or from any of 
the relevant Federal agencies.
    With the benefit of additional interviews and document 
review, we should have included an examination of other factors 
in the incident, including the role of inspections, including 
the role of Federal inspections and oversight of drilling 
operations, practices, and technology, and indeed the licensing 
of same. The Federal role would appear to be an integral part 
of our story. We should have heard from the Secretary of the 
Interior today. And as Ranking Member Barton and I have 
respectfully requested, Mr. Stupak, of you and Chairman Waxman, 
we would like for that hearing, since it is not occurring 
today, to occur in the near future.
    We will hear from others in the administration and other 
officials under oath in the near future, and I think it is 
mandatory that this committee do that. We should have 
representatives from the Department of Interior and from 
Minerals Management Services here to explain why in March of 
2009, in the initial exploration plan for the Deepwater 
Horizon, a blowout scenario was not contemplated by BP and why, 
therefore, the site-specific oil spill response plan was in 
fact not even required by these regulators.
    I would also emphasize the subcommittee should resist the 
temptation to push ahead on the facts and to lose their 
perspective. The drilling and production operations are not 
experimental forays into the deep ocean with untested 
technology. For over 50 years, these have been well engineered 
and well planned operations.
    Until this tragedy, there was a remarkably good record for 
overall Gulf oil production. The Gulf produces about 1.7 
million barrels of oil per day, 6.5 billion cubic feet of 
natural gas, about one-third of the total United States daily 
supply on 3,500 platforms, employing 35,000 workers.
    In recent years, the bulk of new production has come from 
deep sea operations, with scores of exploratory and production 
wells developed at depths equal to or substantially greater 
than the 5,000-foot depths of the Deepwater Horizon, all 
without serious incidence. In point of fact, this is the first 
spill of magnitude in the Gulf waters.
    This is not to minimize the disaster we confront today; 11 
lives were lost. Four million gallons of oil has been released 
into a very fragile ecosystem, an ecosystem that has likely 
over 7,000 miles of actual ocean frontage on the coast of 
Louisiana. This past Friday, I went to the Gulf with members of 
the subcommittee, Chairman Markey and Ranking Member Barton, to 
learn firsthand about the recovery operations that were going 
on. And the magnitude of the problems that the people in the 
Gulf face from what we saw flying over the spill really cannot 
be captured in news photos. The oil slick looks to be the size 
of Montana. It reinforces why it is absolutely critical that we 
ensure that the responders have what they need to control and 
mitigate the spill, and for the future's sake, we must identify 
what caused the spill.
    Our visit also reinforced how critical timing was in the 
incident in the immediate response to the blowout. We 
understand that the initial failure of the blowout preventer 
was critical to the lack of containment of the spill. Had it 
worked as designed or worked in a timely fashion in those 
initial hours or days after the blowout, we might be a having a 
hearing that was focused on entirely different problems today. 
But the blowout and subsequent failure of the blowout preventer 
tells us about the process and operations we actually don't yet 
know, but it may reveal issues in mechanical failure, systems 
failure, human error, or a combination of the three.
    What we hope we do not find is that corners were needlessly 
cut in order to save time and money because ultimately now time 
and money are what are at risk.
    Potential issues with material integrity or procedures in 
the construction of the well may provide a clue to how an 
apparently unexpected gas release occurred in the first place. 
All such issues may illuminate areas that better lead to 
operational oversight by the well's producers, the industry, 
and again, those charged with the regulation of same, which is 
why a hearing like this, which is asymmetric in its construct, 
it is why it is inadequate to really address the problems.
    I do look forward to hearing the testimony from our key 
witnesses in the incident, British Petroleum, the operator of 
the well, Transocean, the driller and rig owner, Halliburton, a 
provider of various services, including the critical cementing, 
and Cameron, which manufactured the blowout preventer at the 
center of the current efforts to stop the flow of oil. But the 
regulators have failed. A litany of questions need to be asked 
and must be asked of those inspectors at Department of Interior 
and Minerals Management Services.
    For what it is worth, I want to welcome the witnesses to 
our committee. I understand you've been going through a very 
difficult schedule amidst what is an enormous tragedy within 
your businesses. I appreciate your willingness to come forward 
and discuss what you know with the subcommittee.
    Time is going to be critical today. You have all been 
through a day of Senate hearings. And some of the testimony 
that has come forward has been predictable, but some of it has 
been contradictory and troubling in the testimony that we heard 
yesterday in the Senate. I am hopeful that maybe we can clear 
up some of these discrepancies and that you will, in fact, 
address them in your opening statements to us today.
    At the hearings yesterday, Mr. McKay, you testified that 
the modifications that were made to the blowout preventer and 
that the claims that your company, BP, was not aware of those. 
And Mr. Newman, you testified that Transocean made the 
modifications in 2005 at BP's request and at BP's expense.
    So Mr. McKay, in your opening, please tell us, is this 
true? Did BP, in fact, request and pay for these modifications? 
And if so, would BP not have some documentation of this? And if 
that is the case, why are we hearing from our staff that BP was 
shocked to hear about the modifications?
    And to Mr. Newman, tell us in your opening what 
modifications did you do? Did Transocean fully inform BP of 
everything it did to the blowout preventer? Do you have 
documents to back yourself up? Did you inform BP about any 
labeling discrepancy in the device itself? So we need to cut 
through some of those contradictions and become aware of the 
facts.
    And then finally, Mr. Chairman, let me just go back to the 
issue of who's not here today. In the public information, the 
public release document, which is the application for the 
drilling of the Deepwater Horizon, there are some serious 
questions, there are some serious red flags. And I would very 
much like to have Secretary Salazar here; I would very much 
like to have Minerals Management Services here.
    Section 2.0, General Information, Section 2.7, Blowout 
Scenario, a scenario for a potential blowout of the well from 
which BP would expect to have the highest volume of liquid 
hydrocarbons is not required for the operations proposed in 
this exploration potential. Well, wait a minute. That is one 
thing for BP to say that, but why did the Federal regulators 
just simply rubber-stamp this when it was pushed across their 
desk? You have a well that had the potential to produce 100,000 
barrels of oil a day and we are now shocked that 5,000 barrels 
a day are escaping and we have got no plan for mitigation? The 
State of Louisiana is scrambling for boom material to protect 
its fragile coastline. We didn't have anything stockpiled ahead 
of time? We had to move equipment in and drill a 90-day relief 
well because that is the only way to stop this thing? It just 
seems like more care should have been delivered up front.
    And yes, while I may criticize the companies that are here 
in front of us today, I have also got serious questions that 
this committee needs to ask of the Federal agency that was 
charged with the oversight. When I get to the questions, there 
are many other statements in this application that are just as 
troubling. An offshore coastal dispersion modeling report for 
the proposed operations is not required for the operations. You 
could lose control of a 100,000-barrel-a-day production well 
and you don't have to have a model report for offshore coastal 
dispersion? It goes on and on.
    And again, I don't necessarily fault the company for 
perhaps trying to save a buck on the application, but the 
Federal agency responsible for this that simply stamped it 
received and approved, that is where the problem exists in my 
mind.
    Last Friday, when we were down on the Gulf coast, the Times 
Picayune had an extensive article on what happened on the rig 
that day. They talk about the removal of the drilling mud 
prematurely. I hope somebody at some point will address that, 
that the drilling mud was removed and replaced with seawater 
before the second cement plug was placed, and subsequent to 
that was when the blowout occurred. Was, in fact, there some 
haste at getting this done? Did we depart from best practices? 
Or is that standard practice now and something that maybe needs 
to be revisited on other wells that are being drilled at the 
time?
    And then finally, this morning's Washington Post, just a 
stunning paragraph from a columnist where Mr. McKay points out, 
Our operating management system in the Gulf of Mexico is as 
good as anyone. I can't point to any deficiencies. Well, maybe 
that was true in March, but it is certainly not true in May.
    Thank you, Mr. Chairman, for your indulgence. I yield back 
the balance of my time.
    [The prepared statement of Mr. Burgess follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Burgess.
    Next I will turn to Mr. Markey, chairman of the Energy 
Subcommittee on Select Committee on Energy Independence, for an 
opening statement, please.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman.
    To be honest, it is hard to have confidence in BP. When BP 
applied for the rights to drill in this lease, they called the 
chance of a major spill ``unlikely.'' When the accident 
initially happened, they said it was manageable. And last week, 
when BP and the other companies appeared before this committee, 
they said they never thought the rig could sink. Right now, by 
their own admission, BP is largely making it up as they go. 
They are engaging in a series of elaborate and risky science 
experiments at the bottom of the ocean. And after the failure 
of the containment dome, we are now hearing of plans to stuff 
the blowout preventer full of a mixture of golf balls, old 
tires, and other junk.
    When we heard the best minds were on the case, we expected 
MIT, and not the PGA. We already have one hole in the ground, 
and now their solution is to shoot a hole in one. We expected a 
lot more sophistication when it came to dealing with something 
of this magnitude.
    I think a root cause for this accident is the ``drill baby 
drill'' boosterism. There was oil industry boosterism that 
minimized potential hazards. There was a boosterism on the part 
of the previous administration that got rid of protections that 
they viewed as obstacles to increased drilling. Now we see the 
results. Boosterism led to complacency and complacency led to 
disaster, and this is a disaster. But it was not inevitable, it 
was preventable. And now we must enact protections that prevent 
similar catastrophes in the future.
    As a result of the BP Deepwater Horizon disaster, lives 
have been lost, livelihoods have been threatened, and a huge 
ocean and coastal ecosystem has been endangered. We have a duty 
and obligation to find out what happened here, why it happened, 
who is responsible, and how we can ensure that it never happens 
again.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Sullivan for an opening statement, 3 minutes, please.

 OPENING STATEMENT OF HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Thank you, Mr. Chairman. I want to thank our 
witnesses here today. I know you are going through some 
challenging times right now and I appreciate you being here.
    Chairman Stupak, thank you for holding this hearing today, 
``Examining the Causes of the Deepwater Horizon Gulf Coast Oil 
Spill.'' While the exact cause of this terrible tragedy is 
still being investigated, I am interested in learning from our 
witnesses their thoughts on what went wrong and their ideas 
moving forward to prevent this from ever happening again.
    On April 20, 2010, a fire and explosion occurred on the 
Deepwater Horizon oil drilling rig in the Gulf of Mexico, 
unfortunately killing 11 of the 126-person crew and injuring 
many others. Our thoughts and prayers are with all the affected 
families.
    This spill has the potential to be a massive ecological 
catastrophe, as nearly 4 million gallons of oil have already 
spilled into the Gulf since the accident. I commend the brave 
men and women who are working day and night to stop the leak 
and protect the shoreline in the Gulf region. This is a 
challenge of epic proportions, and it is the job of this 
committee to conduct a fact-based investigation into the 
disaster to find out what went wrong and how we can prevent it 
from ever happening again.
    However, I am disappointed that no one from the Obama 
administration is here to testify on the Department of 
Interior's role in response to the accident. Given the integral 
role of Federal oversight and offshore drilling operations, it 
is critically important to hear the administration's point of 
view and to get their take on what safety lapses occurred, and 
if any regulatory breakdowns happened at the Minerals 
Management Services that may have contributed to this terrible 
accident.
    During this hearing and the continuing investigation, it is 
important that we do not lose sight of the fact that 30 percent 
of the total U.S. production of crude oil comes from offshore. 
While some may want to stop drilling offshore altogether, this 
would be a terrible mistake. If we were to ban or restrict 
offshore drilling, we would simply increase our national 
dependence on foreign oil which makes our Nation less secure in 
the short and long-term and increases the cost of energy. We 
should not use this tragedy as an excuse to roll back the gains 
we have made in finding new ways to develop our own energy 
resources as we will need more oil and natural gas to help meet 
the growing demand for energy in the coming decades.
    We still have work to do to uncover exactly what went 
wrong. There are many questions that will be asked today on 
ongoing efforts to contain the leak, whether there are 
potential equipment or operational irregularities that played a 
part of the accident, and what we can learn from this tragedy 
going forward. I look forward to getting to the bottom of this 
tragedy, and I yield back the balance of my time.
    Mr. Stupak. Thank you, Mr. Sullivan.
    Mr. Dingell for an opening statement, please, sir.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman. And thank you for 
holding this important hearing today.
    The Obama administration has proposed expanding offshore 
oil and natural gas drilling in a way that complies with all of 
our environmental and safety laws. I support expanded offshore 
drilling if it is done right and if the permitting is done 
according to law and if the law, in fact, does work. However, 
these rigs go further and further from shore, and it becomes 
then critically important that we understand what happened to 
the Deepwater Horizon rig and well, as well as what additional 
precautions we need to take to prevent something like this from 
happening again.
    Now, this is not BP's first time appearing before the 
Energy and Commerce Oversight Subcommittee. Members of this 
committee will recall in 2007 a hearing regarding corrosion in 
the pipeline leading up to the Alaska Pipeline which led to 1 
million liters of oil leaked in Alaska's North Slope. At that 
time, I observed that BP workers were often forced to forego 
safety measures to save money and to ultimately increase BP 
profits, and yet these safety programs in many cases appear to 
have been halted or cut due to budgetary reasons. This is the 
cost of what we have learned about the way that BP managed 
Prudhoe Bay. Until BP finally acknowledges the role of cost 
cutting and budget pressures played in creating this mess, I 
fear that other problems like this may be incurring at other BP 
facilities through the United States.
    The North Slope disaster is unfortunately one example of 
BP's being before this subcommittee. We also investigated BP's 
Texas City operations. Back in 2007, BP and its subsidiaries 
agreed to pay $50 million in criminal fines because of the 2005 
explosions at its Texas City refinery. I note with irony and 
some dismay this fine is equal to less than a day's corporate 
profits. And here we are again, this time like the explosions 
at BP's Texas City refinery, we not only have an environmental 
disaster, but again, we have confronted tragic loss of lives.
    A little more than a year ago, in April of 2009, the 
Minerals Management Service exempted BP's lease at Deepwater 
Horizon from an Environmental Impact Statement as required by 
the National Environmental Policy Act. BP called the prospect 
of an oil spill unlikely, and stated that no mitigation 
measures other than those required by regulation and BP policy 
will be employed to avoid, diminish, or eliminate potential 
impacts on environmental resurface .
    This, Mr. Chairman, is, quite frankly, outrageous. NEPA has 
been the law of the land for a long time, and for a good 
reason--I happen to know that because I wrote the legislation.
    Now, I sincerely hope that when this investigation is 
completed, that we don't find that BP again once tried to cut 
costs at the expense of safety. Given their history, I am 
somewhat skeptical that that will be the conclusion, but I am 
hopeful, even though I have a pocketful of promises given me by 
BP during the time we had them before this committee that they 
would do better and that there was a new regime going on there 
that was aware of the environmental concerns as a Nation and 
the duties of that organization.
    I do think, Mr. Chairman, that we need to hear from the 
administration because we have not heard from them about why 
this was handled the way it was, failures of the leasing 
services and failures to properly implement NEPA. Now, we all 
know Gulf Coast is one of the most environmentally sensitive 
areas of the country. Four hundred species of rare birds, 
waterfowls and sea turtles are at serious risk. Coastal 
wetlands are a fragile ecosystem that deserves protection and 
doesn't appear to be having it.
    Since BP's effort to get the containment dome into place 
didn't work, the company is now going to use golf balls, knots 
of rope, and materials of miscellaneous character to try and 
plug the hole. If it works, great. It strikes me though as odd 
that with all the technology we have, golf balls are our best 
hope.
    I look forward to hearing more about this and efforts to 
stop the leaking in the Gulf. I look forward to the answers of 
our witnesses. I hope that we will hear from the government 
about why they were so generous in allowing this to go forward 
without full appliance of application of all the laws of the 
United States.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dingell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Dingell.
    Mr. Gingrey for an opening statement, please, three 
minutes.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you. And I've got a 
written statement. I would like to ask unanimous consent to 
submit it for the record and----
    Mr. Stupak. Without objection.
    Mr. Gingrey [continuing]. Offer it extemporaneously. Going 
back to what the chairman emeritus just said, I think his 
wisdom always comes through, and his remarks really strike a 
balance in regard to the concern over what the industry's 
culpability is and also to bring forth, as our ranking member 
of the subcommittee, Dr. Burgess, pointed out, that we need to 
hear from the administration, we need to hear from the 
Department of Interior, we need to hear from the Minerals 
Management Services.
    I can't help but wonder as I listen to this hearing and the 
opening statements of the members, what is our intent here 
really? We are using up a tremendous amount of time already on 
the majority side, something like 30 minutes of opening 
statements, and we will go on and on and on and probably give 
each of the witnesses 5 minutes. And the information we have 
about the blowout preventer and all these different things at 
the bottom of the sea, those of us who may have a technical 
background but not in petroleum engineering, we have been fed 
information from our staff, but we really need to hear from 
these experts.
    I listened to some of the Senate hearing yesterday, Mr. 
Chairman. And when Mr. Waxman, the chairman of the full 
committee, says about BP oil, they don't bear the full cost 
when something goes wrong. I think we are going to hear from 
Mr. McKay that indeed they will and do and plan to bear the 
full cost when something goes wrong. I am not defending anybody 
here, I just want to learn the facts, the actual facts, fair 
and balanced.
    In regard to the criticism of some of the attempts to plug 
the leak that was commented by a Senate majority member 
yesterday in that hearing that it seems like these guys, BP oil 
in particular, are just making it up as they go along. It 
sounds analogous to what our majority party and administration 
are doing in regard to the economic meltdown of this country, 
kind of making it up as they go along. And so far, our 
unemployment rate has gone from 7.6 to almost 10 percent, and 
we still have 16 million people out of work despite a $1 
trillion economic stimulus package. So I think we need to be 
fair and balanced here.
    I certainly look forward to the testimony of the witnesses. 
And yes, we are going to ask some question, tough questions. 
Eleven lives were lost, and the ecosystem and the economy of 
the Gulf Coast is at risk, and this is a very important 
hearing. But let's just don't put on our makeup and have our 
hair done and pander before the C-SPAN cameras. Let's get the 
facts right. That is, after all, why we are here.
    With that, Mr. Chairman, I yield back.
    Mr. Stupak. Mr. Braley for an opening statement, please.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Mr. Chairman. This is indeed a very 
important hearing, and I will submit my formal remarks for the 
record and speak extemporaneously.
    This hearing shows what happens when political chants of 
``drill, baby, drill'' evolve into the tragic reality of spill, 
baby, spill.'' And for all of my colleagues on the other side 
who wish that there were representatives of the administration 
here today, I would remind them that there was a joint 
congressional briefing held on May 4 where representatives from 
Interior, Homeland Security, Coast Guard, Commerce, EPA, 
Minerals Management Services, NOAA and the National Ocean 
Service did appear, gave us extensive briefings and were there 
to answer questions to every Member of Congress who chose to 
end up at that hearing.
    Well, probably one of the most profound statements made at 
that briefing was by Commandant, Admiral Thad Allen, from the 
Coast Guard, who gave a tremendous overview of what was going 
on as part of the Federal Government's response. And he made 
this statement in describing what is happening: This is closer 
to Apollo 13 than to the Exxon Valdez.
    And Mr. Chairman, I think that the fundamental issue of 
this hearing should be to try to figure out why that is the 
case because Apollo 13 happened 40 years ago, 240,000 miles 
away from the Earth, with limited resources to try to solve the 
disaster that was occurring on that mission. That was 10 years 
into the manned space program.
    And Mr. Chairman Waxman, the first submerged and oil wells 
in salt water were drilled under the Santa Barbara Channel in 
California in 1896. So why is this more like Apollo 13 than the 
Exxon Valdez? Why were we not better prepared to deal with the 
enormous environmental and safety risks caused by this massive 
explosion?
    Secretary Salazar said at that briefing, this was supposed 
to be a failsafe system. Obviously, it was not. And the 
question for all of us is why not?
    So as we listen to the witnesses and hear the latest 
information they have to share with us, these are the questions 
I want answers to. How did this happen? Why did this happen? 
Who is responsible? Most importantly, what have we learned? 
What are we, Congress, going to do, and what are we prepared to 
do to ensure this never happens again?
    And finally, who will bear the cost? Because despite the 
assurances we received at that briefing from Secretary Salazar 
and others that BP has made repeated assurances to stand the 
full cost of this recovery, some of the actions that are taking 
place in response to this catastrophe would give us the 
indication otherwise.
    And that is why as we look at these serious issues, I look 
forward to the testimony of our witnesses in answering those 
questions. And I yield back the balance of my time.
    [The prepared statement of Mr. Braley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Braley. Mr. Griffith for an 
opening statement, please.

OPENING STATEMENT OF HON. PARKER GRIFFITH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Griffith. Thank you, Mr. Chairman. I would like to 
thank the chairman and ranking member for calling this 
important hearing today and the witnesses for taking time to 
come before our subcommittee to discuss the Deepwater Horizon 
oil spill.
    Before I begin I would like to take a moment and offer my 
sincere condolences to family and friends of those who lost 
their lives on the Deepwater Horizon. Please know my thoughts 
and prayers are with you.
    We cannot achieve energy independence without assuming some 
risk. Whether it is nuclear, coal, oil or natural gas, the 
process of harnessing energy is inherently risky. Having said 
this, it is the role of the Federal Government and good 
corporate citizens to minimize this risk while working towards 
United States energy independence. Blocking future production 
will not protect America. It will simply cause us to be much 
more dependent on unfriendly sources of oil.
    The oil and gas industry employs hundreds of thousands of 
Americans, many in my home State of Alabama. We must continue 
to drill and avoid knee-jerk reactions to this accident. The 
oil and gas industry has a safety record that has been steadily 
improving over the years, and I have no doubt that what is 
learned from this incident will be incorporated into the future 
increase in safety.
    That being said, we must allow this investigation to go 
forward and ensure that Congress provide appropriate oversight. 
It is important to focus on not assigning blame based on 
theories, but to allow the time to pass that is necessary for a 
thorough investigation. Once investigations are complete, it is 
vital that we learn lessons from this incident so that we can 
keep our workers and environment safe while continuing to 
produce our valuable oil and gas resources.
    Again thank you for coming today, and I look forward to 
your testimony. And I yield back the balance of my time, Mr. 
Chairman.
    Mr. Stupak. Thank you, Mr. Griffith.
    Ms. DeGette for an opening statement, please.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman.
    As Congress debates the role of a forward-looking energy 
plan, we are going to need to see what part drilling expansion 
plays in development of that plan. And we are going to need to 
see what the causes of this tragic accident were because given 
the scope of this disaster, we cannot afford to vastly expand 
offshore drilling in the future if this type of disaster can be 
expected to occur, even as some on the other side say, on a 
rare basis. The damage in terms of environment and loss of 
human life is simply too great.
    Accidents on this scale raise innumerable questions about 
what went wrong. And usually, and probably in this case, there 
is no single answer or single point of blame. But as we attempt 
to determine the cause in order to prevent such tragedies in 
the future, two issues stand out in my mind and the chairman 
raised both of them.
    The first one is, what role did the cementing job play in 
the accident? The timing of the accident indicates that the 
cementing was likely a culprit as the accident occurred soon 
after the cement was injected into the well.
    This would not be the first time that cementing has caused 
problems in the Gulf of Mexico. According to a 2007 study by 
the Minerals Management Service, nearly half of all blowouts in 
the Gulf over the last 14 years are due to faulty cementing. In 
addition, poor cementing has been identified as the cause of 
the recent 2009 blowout at an offshore oil platform in 
Australia. Cementing has been a cause for concern in onshore 
drilling as well with groundwater contamination incidents tied 
to improper cementing in my home State of Colorado and 
elsewhere.
    The second issue that this committee needs to probe further 
is the failure of the blowout preventer. This device is 
designed to be the failsafe mechanism that will prevent 
tragedies such as this spill. Its failure is extremely 
troubling as it calls into question whether these devices can 
be trusted to function properly at offshore drilling locations.
    I know that we won't be able to identify the root cause of 
the accident today and that the investigation is still in its 
early stages, but finger pointing will not cause this problem. 
It is in the interest of all of the witnesses to get to the 
bottom of this issue if they want to assure the American people 
that offshore drilling is a safe practice that we should 
actually expand farther.
    Frankly, I watched part of the hearing yesterday as well 
and I was dismayed at the parsing of words by all parties 
yesterday in terms of liability and in terms of willingness to 
pay for these tremendous costs. And so I think that those 
responsible need to step up. They need to bear the cost, and 
they need to fix this technology. Because if they don't, we 
will not have expansion of offshore drilling until this 
committee and the U.S. Congress can be assured that it can be 
done in a safe and in an environmentally and human--and in a 
way to save human life way. Otherwise it simply won't be part 
of our plan. And many of us don't object to offshore drilling. 
We support it where appropriate, but not if it cannot be done 
safely.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Ms. DeGette.
    Mr. Latta for an opening statement please; 3 minutes.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you, Mr. Chairman, Ranking Member Burgess. 
First and foremost, I also want to extend my heartfelt 
condolences to families of those who have lost loved ones and 
those who have been injured. I am also deeply saddened by the 
destruction caused by the recent oil spill in the Gulf. I want 
to commend the thousands of dedicated workers, the volunteers 
and military personnel who are currently in the Gulf responding 
to this spill to protect the shoreline and wildlife. The 
cleanup process from this spill will take months if not years.
    As the Marine Board of Investigation, made up of the 
Minerals Management Service, MMS, and the Coast Guard, convened 
yesterday to identify the factors leading to the explosion, 
loss of life, sinking and subsequent oil spill of the Deepwater 
Horizon, I look forward to what the investigation will render 
and what facts and recommendations will come forth.
    It is my understanding, Mr. Chairman, that over 42,000 oil 
wells have been drilled in the Gulf of Mexico since 1979 when, 
the first deepwater well was first drilled in the Gulf. Sixty 
percent of all the wells drilled in the Gulf are now deepwater 
wells and over 2,200 deepwater wells have been drilled.
    As Members of Congress, we must ensure that the United 
States continues its domestic energy production while also 
maintaining stringent environmental safety regulations. We 
cannot become complacent when it comes to American lives and 
our natural resources. We need to ensure that the investigation 
into the Deepwater Horizon oil spill is thorough and those 
individuals responsible for this disaster are held accountable. 
We cannot afford to have a repeat of this kind of a disaster.
    As has already been noted, it is important to note that the 
oil and natural gas industry in America plays a vital role to 
our economy and supplies this country with millions of jobs. 
Most recent data, according to a American Petroleum Institute 
study, shows that this industry contributes more than $1 
trillion to the U.S. economy over a year. The State of Ohio 
contributes over 229,000 jobs through the oil and natural gas 
industry, and it is also important to note that we maintain 
these jobs, but also we need to maintain the safety of our 
hardworking Americans who are employed in this industry.
    As the ranking member has stated, I, too, would like to 
have witnesses from the Department of the Interior, 
particularly MMS and the United States Coast Guard. I hope that 
any future hearings in this committee on this subject will 
include government agencies that are at the forefront working 
on this issue.
    Finally, Mr. Chairman, I look forward to hearing from 
today's four witnesses, each of whom represents a company who 
will play a pivotal role in this investigation. And with that, 
Mr. Chairman, I yield back. Thank you.
    [The prepared statement of Mr. Latta follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Latta.
    Mr. Doyle for an opening statement, please.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Mr. Chairman, thank you for convening this 
hearing today.
    First let me offer my condolences and prayers to the 
families and friends of the 11 people on the Deepwater Horizon 
rig that tragically lost their lives in a catastrophe 3 weeks 
ago. It is a sad, grave reminder of the level of risk and 
danger involved in deepwater drilling. Economic and 
environmental concerns aside, we owe it to these families to 
fully and responsibly investigate what went wrong.
    After reading the testimony that you have all supplied, one 
thing seems quite clear. None of you before us today is 
prepared to accept full responsibility for what happened on 
April 20. And though I'm very interested in learning who is 
responsible, I don't believe it is the most pressing issue at 
hand today. Today what is most critical are the health, 
environmental and economic effects of this oil leak that 
continues to grow as this well gushes nearly 5,000 barrels of 
oil into the Gulf each day, and that is a conservative 
estimate.
    The Unified Command has quickly been activated to arrest 
and mitigate the effects of this oil spill on surrounding 
communities. Workers and volunteers are setting hundreds of 
thousands of feet of boom to protect coastlines, releasing 
massive volume of dispersants to break up the oil, and even 
skimming the water surface to collect the oil. This vast 
response has been swift by most standards, and I commend each 
of your companies for its willingness to devote all the 
necessary resources to this effort.
    It is troubling, though, in your eagerness to drill you 
told the Minerals Management Service in February 2009 that you 
could handle a worst case scenario of 162,000 barrels of oil 
from an uncontrolled blowout. Now you're dealing with 5,000 
barrels a day, and the containment dome hasn't worked, a relief 
well is far from complete, the blowout preventers can't be 
activated, and you may need to resort to a jump shot.
    What I have a hard time understanding is how 3 weeks after 
the initial explosion there are not better solutions. By any 
standard I think it is safe to say that each of your companies 
have done quite well over the last year. In fact a quick review 
of your profits show that Transocean netted $677 million in 
profits, Halliburton $206 million, and BP rounded out with 6.1 
billion in profits, and that is just for the first quarter of 
this year. With the success of this industry, both financially 
and in technological developments that allow us to drill 30,000 
feet underground, how is it not possible that we haven't 
developed better technologies to plug a well?
    Recent news reports explain a maneuver call a jump shot 
that involves shooting golf balls and rubber tires into a well 
to stop the leak. I had to ask my staff if that was really true 
or a misprint. Surely with profits of $6.1 billion, we can 
devote greater resources to more advanced technologies than 
golf balls and tires.
    I hope our examination here today and in the future months 
will help us understand how we can allow such high risk 
drilling to go on without any surefire means for addressing a 
blowout.
    I hope that in response to this horrendous accident that 
you will all devote sizable resources to developing safer 
technologies and better regulations to protect your workers, 
our environment, our wildlife and our domestic energy 
portfolio.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Doyle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Doyle.
    Mrs. Blackburn for an opening statement, please.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I do want to 
welcome our witnesses. And thank you for the preparation you 
have put into planning to be with us here today.
    There is no doubt this is a terrible event, and it is one 
that concerns us. And I represent middle and west Tennessee but 
I grew up in the Mississippi coastal plains and I know very, 
very well the impact of the oil production industry on those 
communities and on the livelihood of those citizens. And also I 
know how dependent they are on the Gulf, also, for wetlands and 
for seafood. And so this is a tragedy and it does have so many 
tentacles, and of course the loss of life is very sad. And I 
know that it reaches deep within those families across the 
Gulf.
    I think that what we, my focus today, what I would seek to 
do is to understand what happened and the cause and to 
understand that without any bias. I think that while going on a 
search for villains can make for compelling TV, it is not going 
to put us on the path forward that we need. And that needs to 
be a pathway to sustainable and responsible drilling in the 
Gulf.
    And we need to look at this, have an honest investigation 
so that we find opportunities for avoidance that may have been 
missed both by Washington and by the industry.
    I think that we also need to focus our attention on 
cleaning up the current spill, securing other wells until a 
long-term solution can be found. In this type business, risk 
cannot be 100 percent managed and I understand that. And 
realizing that, I think it is maybe necessary to review 
contingency plans and to require operators to have 
prepositioned containment equipment to limit the impacts. Maybe 
that is something we need to talk about and look at today.
    This hearing is a first step to address these issues. 
Members of this panel are going to have questions of the 
witnesses on the protocols that are followed, the equipment 
that was used, and on what a proper course of action should be.
    So, Mr. Chairman, thank you, and to our witnesses, thank 
you for being here today.
    Mr. Stupak. Thank you, Mrs. Blackburn.
    Mrs. Christensen for opening statement, please.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman, and thank you, 
Chairman Stupak and Ranking Member Burgess, for holding this 
important hearing to examine the Gulf Coast oil spill disaster 
situation of grave and far reaching magnitude which is likely 
to eclipse the Exxon Valdez spill of 20 years ago.
    It has been approximately 3 weeks since the explosion that 
caused the Gulf Coast oil spill and many questions remain 
unanswered. What caused the explosion? Why did several safety 
mechanisms fail to prove successful and, the billion dollar 
question, how can we stop the oil from spewing into the ocean 
and towards the shore and how can we do it as soon as possible?
    I look forward to the testimony this morning, and I thank 
everyone for coming to yet another hearing. What I am not 
anxious to hear is a blame game. There are investigations 
underway that will answer the questions of what went wrong and 
who and what was at fault. Someone speaks of collaborative 
efforts in their testimony, and to my mind this is a tragic 
accident which all companies, operator and contractors, 
probably share some responsibility, just as they all have a 
role in the response, cleanup and recovery as well and, 
importantly, making sure this does not happen again.
    We need to clarify what we do know, but the important issue 
now is how to stop the thousands of gallons of oil from 
continuing to pour out and how best we can work with all 
Federal and private partners in the Unified Comman to do just 
that.
    Despite the fact that we can never know everything because 
of the settlement, there are reports of severe health 
consequences in those who worked on the Exxon Valdez spill and 
others, and so I have grave concerns about the health and 
safety issues for the responders in this one and want to have 
the assurance that every precaution is being taken to prevent 
illness and disability in these workers.
    I am also concerned about the hundreds of other oil rigs 
that are functioning now, some in deep waters. Are we better 
prepared today to respond to an accident on these than we were 
on April 20? What is being done to ensure that we are? And does 
BP need what I understand are the higher permitting standards 
of the U.K. In their operations here in the United States?
    Of course, like my colleagues, I am also concerned about 
the protection and preservation of the fisheries and other 
shoreline wildlife and other economic impacts of those who 
depend on these resources for livelihood and, of course, the 
loss of life.
    It is my hope that we will leave this hearing better 
informed than when we came in. I would also like to take this 
opportunity to express my sincere condolences to the families 
who lost loved ones in the April 20th tragedy and wish Godspeed 
to them, the survivors and their families as they go through 
their recovery process.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Stupak. Thank you.
    Mr. Welch for an opening statement, please, 3 minutes.

  OPENING STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF VERMONT

    Mr. Welch. Thank you very much, Mr. Chairman. I thank the 
witnesses for coming and I, along with my colleagues, want to 
acknowledge the extraordinary loss of love and lives of brave 
and hardworking people who died and perished in this accident.
    A couple of things. I took the trip to the Gulf Coast with 
the chairman and ranking member, Mr. Barton, some of my 
colleagues, Mr. Scalise and Mr. Melancon most significant among 
them because they live with the folks whose livelihoods and 
whose sense of self depends on oil and on fishing, and the 
heartache that we saw was very powerful.
    When we flew out over the oil spill, the journey was in a 
Coast Guard plane that flew low and slow. And traveling out 
over that magnificent Mississippi Delta and looking down at all 
the wildlife that we could see, seeing the boats that wanted to 
be out fishing but couldn't be, going over the Chandeleur 
Islands with that pristine white sand, knowing how much that 
landscape and how that economic livelihood is so cherished by 
Mr. Scalise's people and Mr. Melancon's people and then seeing 
that first ribbon of an oil slick, that metallic blue ominous 
sight that we saw a few miles off the Chandeleur Island, and 
then to see this magnificent blue sea become ink black and then 
to get out over the oil site or the rig site where those 11 men 
perished and to see this cancerous, flame orange glow on the 
sea that is the combination of the emulsifiers and the oil is 
just heart breaking.
    And gentlemen, you obviously share the concern about this, 
but you do have the responsibility. You have been well paid. 
The head of BP I think made about $6 million last year, Mr. 
Newman about 5.4 million, Mr. Probert about 3 million, Mr. 
Cameron about 8 million. The folks who are now cleaning up the 
oil spill, we have got a picture and Mr. Burgess and I spoke to 
them, a couple of women from New Orleans who come out and work 
for 12 bucks an hour. It is not just golf balls and the other 
things people mentioned. It is hardworking people who are 
coming out standing in the hot sun, and they would like a bit 
of a raise, to tell you the truth.
    But the other thing we saw that was so heart breaking to me 
was fishermen and their boats are not filled with fish; they 
are filled with these booms, and that is what those two women 
in the earlier picture, they load these boats with booms. These 
fishermen are proud. They work incredibly hard. However hard 
you work, they work harder. And right now they are imperiled. 
The only thing that is keeping them going is that you are 
paying them to put booms out to try to keep the oil from the 
shore and the seabed.
    But at the end of the day we know harm is going to be done, 
and the one question I want conclusively answered is whether 
BP, who has the ultimate responsibility here, is going to 
acknowledge specifically and categorically that it will not 
limit its liability to those fishermen and women and those 
tourist industries in that Gulf Coast, those people who have 
protected the environment, that you will not stop your 
obligation at the $75 million limit that was established after 
Exxon Valdez. If they have been harmed by conduct that you are 
responsible for, then I want and I think all of us want an 
assurance that those fishermen and women, those folks in the 
tourist industry in Steve Scalise and Charlie Melancon's 
district will be made whole.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stupak. Thank you, Mr. Welch.
    Mr. Green, do you have an opening statement? You are 
recognized for 3 minutes then.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing today. I would like to welcome our panel. It is 
certainly under tragic circumstances that we convene here today 
and my condolences go out to the families who lost their lives 
in this accident and also those who are injured. As Member of 
Congress from East Harris County and Houston, Texas, I have 
just literally hundreds of people who work offshore, offshore 
Texas, offshore literally all over the world, and along with 
our infrastructure we still produce oil and natural gas in a 
very urban-suburban area but we also have refineries and 
chemical plants who need that product that is being produced.
    This hearing today will be the first of many on this 
subject and ultimately will determine what went wrong on the 
Deepwater Horizon rig and apply those lessons to reduce the 
chance of this ever happening again. However, we should 
continue to focus on stopping the spill and cleaning it up as 
soon as possible, and I look forward to hearing from the panel 
about the latest efforts on this front.
    In the wake of the tragic accident, many people are 
understandably concerned about the safety and environmental 
risks associated with offshore drilling, and drilling is 
certainly not risk free. Neither is anything else. However, we 
should be careful not to rush to judgment on the issue on 
offshore drilling until we learn what went wrong in this 
particular case.
    In fact, this is the first major accident in the Gulf of 
Mexico since 1979, and that is almost 31 years. And we have 
used a lot of that product that has come out of the Gulf of 
Mexico to move our country for many years.
    Like after the Exxon Valdez incident, I anticipate Congress 
will respond in ways aimed at mitigating a similar accident 
from ever reoccurring, and I agree we must take every possible 
precaution to guard against that happening again. The Energy 
Information Administration maintains that oil, natural gas and 
coal will continue to make up the large majority of U.S. energy 
use in 2030 and beyond. If we are to reduce our dependence on 
foreign policy, we must safely and responsibly explore and 
produce more domestically, which is a very important issue. 
Because unless we want to continue to import, I heard the other 
day we import 55 percent of our oil right now from overseas, 
Canada, Mexico, but they are producing as much as they can. If 
we don't produce it in the Gulf of Mexico or offshore, then we 
are going to get it from Venezuela, we are going to get it from 
parts of the world that we may not have the best relationships 
with. So that is why we need to get it right and produce it 
domestically.
    I look forward to the testimony today and again, Mr. 
Chairman, I thank you for holding the hearing. I yield back my 
time.
    Mr. Stupak. Thank you, Mr. Green.
    Mr. Ross for an opening statement.

   OPENING STATEMENT OF HON. MIKE ROSS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Ross. Thank you, Chairman Stupak, for holding today's 
hearing to examine the causes of the recent explosion of the 
Deepwater Horizon rig and the effects of this oil spill on both 
the Gulf Coast region and our Nation's domestic energy policy. 
We all recognize this tragic event was an accident, and my 
thoughts and prayers go out to those who lost loved ones in the 
explosion and to the people along the Gulf Coast who have been 
adversely affected by this incident in an already tough 
economy.
    This accident is a wake-up call for our domestic oil and 
gas production, and we must take this opportunity to carefully 
examine our safety standards and protocols in deepwater 
drilling.
    America has led the world in technological innovation by 
putting a man on the Moon, sending a robot to Mars, and 
decoding the human genome. Given all the knowledge and 
technology at our disposal, it amazes me that we could have an 
accident of this magnitude in 2010. What is even more 
concerning is that the companies responsible did not have the 
foresight to anticipate this accident or have an action plan 
ready or procedures in place that would have immediately 
remedied this situation and reduced the harmful consequences 
before it got out of control.
    After 3 weeks of oil still leaking into the Gulf, it is 
clear these procedures were either not in place or did not work 
effectively, and I am pleased we are now addressing this issue 
today in this hearing.
    However, I want to make it clear that this event does not 
diminish our need to continue domestic drilling as part of our 
overall diverse energy policy, but it does remind us of the 
risk associated and the safety standards that must be adhered 
to and improved to ensure this never happens again.
    I believe that now, more than ever, we shall be investing 
in the most advanced 21st century technologies that will allow 
us to recover domestic oil and natural gas safely instead of 
sending half a trillion dollars a year overseas, much of which 
is ending up in the hands of those who want to harm us.
    I am hopeful that this tragic event and this hearing can be 
a learning experience to help us to examine our current 
policies for drilling offshore and in the end help secure 
America's domestic energy supply for future generations.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Stupak. Thank you, Mr. Ross.
    We next hear from Ms. Sutton from Ohio for an opening 
statement, please.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Stupak, and thank you for 
holding this very important hearing on the Gulf Coast oil 
spill.
    It has been 3 weeks since the first explosion on the 
Deepwater Horizon drilling rig, 3 weeks and we are still 
looking for answers, what caused the explosion, when will the 
oil leaks be closed, and what long-term impacts will this 
tragedy have on our families, small businesses, the 
environment, and local and State governments.
    The one thing we do know is that the companies involved in 
this oil well operation have failed. And these companies are 
pointing the finger at each other. These companies failed to 
have a plan to deal with this type of incident. The companies 
failed to implement adequate safety measures, and the companies 
have failed to find sufficient solutions to contain and 
mitigate this disaster.
    And while America waits for a resolution to this disastrous 
spill, 5,000 barrels of oil, over 200,000 gallons a day, 
continue to pour out of the seabed into the Gulf.
    The wake of this oil spill is broad and sweeping. Eleven 
workers died, 17 were injured, the Gulf Coast States' economies 
are crippled. The livelihoods of workers, their families and 
the small businesses that rely on the Gulf remain in question, 
and there is a grave possibility that the Gulf Stream could 
carry this spill around the tip of Florida and to the Atlantic 
Coast.
    The ramifications of this disaster pose great questions 
about safety measures in deepwater drilling and the priorities 
of BP, Halliburton, and others.
    BP has stated that they will do whatever it takes to stop 
these leaks. But did BP and Transocean do whatever it took to 
prevent these leaks, this disaster from occurring? BP and 
Transocean have been careful to say that the measures they are 
taking to end the leaks have never really been used before, and 
one example being the failure of the cofferdam placement over 
one of the leaks this past weekend, something that had happened 
never been attempted at such depth.
    BP and Transocean have proven that they did not have a 
response plan sufficient to meet the need in place for a 
deepwater well spill. The technology for deepwater drilling has 
continued to advance through significant investment by oil 
companies, enabling them to access oil in places once thought 
impossible, but it is now apparent that the necessary 
investment to develop safety measures and contingencies for 
deepwater drilling were not adequately advanced. Safety must be 
put first and investment in it must match if the search for oil 
and drilling in our waters off of the shore are to continue.
    I remain troubled by the continuation of hazardous safety 
practices at BP's facilities, including fines imposed on their 
refinery in Toledo, Ohio, and while we wait for BP to stop 
these leaks, which could possibly take months, the future of 
our families, workers, small businesses, and the environment 
remain at the mercy of the winds of the Gulf, and that is not 
how it should be.
    So I look forward to hearing the testimony today.
    Mr. Stupak. Thank you, Ms. Sutton.
    That concludes the opening statements of members of this 
subcommittee. I would note that members of the full committee 
that have been here, Mr. Scalise, Mr. Melancon, Ms. Castor, Mr. 
Inslee was here, Mrs. Capps, I expect they will probably stay 
or come back during questions. I know members will be in and 
out today. It should also be noted that Congresswoman Sheila 
Jackson Lee is here from Houston, who is sitting in on today's 
proceedings. She is welcome to do so and welcome to the 
committee.
    That concludes the opening statements by members of the 
subcommittee. We have our first panel of witnesses before us. 
On our panel we have Mr. Steven Newman, who is President and 
CEO of Transocean Limited, which owned and operated Deepwater 
Horizon oil rig and blowout preventer; Lamar McKay, Chairman 
and President of BP America, who is a responsible party in the 
Gulf leak; Mr. Tim Probert, who is the President, Global 
Business Lines and Chief Health, Safety, and Environmental 
Officer at Halliburton, which did the cementing of the well; 
and Mr. Jack Moore, who is Director, President and CEO of 
Cameron International, which manufactured the blowout preventer 
used by Transocean with the Deepwater Horizon rig.
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that you have the right under the 
rules of the House to be advised by counsel during your 
testimony. Do any of you wish to be represented by counsel? Mr. 
Newman, Mr. McKay, Mr. Probert, Mr. Moore?
    Witnesses indicate they do not. So therefore I'm going to 
ask you to please rise and raise your right hand to take the 
oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that witnesses replied 
in the affirmative. You are each now under oath. We will hear 
your 5-minute opening statement. You may submit a longer 
statement for the record and it will be included in the hearing 
record.
    Mr. Newman, if you don't mind, we will start with you, 
please, if you would start your opening statement, and thank 
you for being here.

   STATEMENTS OF STEVE NEWMAN, PRESIDENT AND CEO, TRANSOCEAN 
LIMITED; LAMAR McKAY, CHAIRMAN AND PRESIDENT, BP AMERICA, INC.; 
 TIM PROBERT, PRESIDENT, GLOBAL BUSINESS LINES, CHIEF HEALTH, 
  SAFETY, AND ENVIRONMENTAL OFFICER, HALLIBURTON; AND JACK B. 
   MOORE, DIRECTOR, PRESIDENT AND CEO, CAMERON INTERNATIONAL

                   STATEMENT OF STEVE NEWMAN

    Mr. Newman. Chairman Waxman, Subcommittee Chairman Stupak, 
Chairman Emeritus, Ranking Members Barton and Burgess, other 
members of the committee, I want to thank you for the 
opportunity to speak with you this morning. My name is Steven 
Newman, and I'm the Chief Executive Officer of Transocean 
Limited.
    Transocean is a leading offshore drilling contractor with 
more than 18,000 employees worldwide.
    I am a petroleum engineer by training, and I have spent 
years working with and on drilling rigs. I have been with 
Transocean for more than 15 years, and I am incredibly proud of 
the contributions our company has made to the energy industry 
during that time.
    Today, however, I sit before you with a heavy heart. The 
last few weeks have been a time of great sadness and reflection 
for our company and for me personally. Nothing is more 
important to Transocean and to me than the safety of our crew 
members. And our hearts ache for the widows, parents and 
children of the 11 crew members, including 9 Transocean 
employees who died in the Deepwater Horizon explosion. These 
were exceptional men, and we are committed to doing everything 
we can to help their families as they cope with this tragedy.
    Over the last few weeks, we have also seen great acts of 
courage and kindness in our colleagues and in our communities. 
That courage and kindness was embodied by the 115 crew members 
who were rescued from the Deepwater Horizon and were as 
concerned about the safety of their colleagues as they were 
about themselves. It was embodied by the brave men and women of 
the U.S. Coast Guard, who conducted onsite operations and 
search and rescue operations, and by the medical professionals 
who received the injured crew members when they arrived 
onshore, and it is embodied by our friends and colleagues at 
Transocean and across the industry who have rallied to help the 
families of the men who were lost.
    This has been a very emotional period for all of us at 
Transocean, and it has also been a period of intense activity 
and effort.
    Immediately after the explosion, Transocean began working 
with BP and the Unified Comman in the effort to stop the flow 
of hydrocarbons from the well. Our finest engineers and 
operational personnel have been working with BP to identify and 
pursue options for stopping the flow as soon as possible. Our 
drilling rig, Development Driller III, is involved in drilling 
the relief well at the site, and our drill ship, the Discoverer 
Enterprise, is on location participating in the crude oil 
recovery operations. A third Transocean drilling rig, the 
Development Driller II, will be on location in the next day or 
two to also participate in those onsite operations. We will 
continue to support BP and the Unified Comman in all of these 
efforts.
    At the same time, we have also been working to get to the 
bottom of the question to which this committee, Congress, and 
the American public desperately want an answer. What happened 
on the night of April 20? And how do we assure the American 
public that it will not happen again?
    Transocean has assembled an independent investigative team 
to determine the cause of these tragic events, a team that 
includes dedicated Transocean and industry experts. They will 
be interviewing people who have potentially helpful information 
and studying the operations and the equipment involved.
    Because the drilling process is a collaborative effort 
among many different companies, contractors, and 
subcontractors, the process of understanding what led to the 
April 20 explosion and how to prevent such an accident in the 
future must also be collaborative. Our team is working side by 
side with others, including BP and governmental agencies, and 
these investigative efforts will continue until we have 
satisfactory answers.
    While it is still too early to know exactly what happened 
on April 20, we do have some clues about the cause of the 
disaster. The most significant clue is that the events occurred 
after the well construction process was essentially finished. 
Drilling had been completed on April 17, and the well had been 
sealed with casing and cement. For that reason, the one thing 
we do know is that on the evening of April 20, there was a 
sudden catastrophic failure of the cement, the casing, or both. 
Without a failure of one of those elements, the explosion could 
not have occurred.
    It is also clear that the drill crew had very little, if 
any, time to react. The initial indications of trouble and the 
subsequent explosions were almost simultaneous.
    What caused that sudden violent failure? Was the well 
properly designed? Were there problems with the casing or the 
seal assembly? Was the casing properly cemented and the well 
effectively sealed? Were all appropriate tests run on the 
cement and the casing? Were the blowout preventers damaged by 
the surge that emanated from the well beneath? Did the surge 
blow debris into the BOP that prevented them from squeezing, 
crushing or shearing the pipe?
    These are some of the questions that need to be answered in 
the coming weeks and months. Until we know exactly what 
happened on April 20, we cannot determine how best to prevent 
such tragedies in the future. But regardless of what the 
investigations uncover, ours is an industry that must put 
safety first. We must do so for the sake of our employees, for 
the sake of their families, and for the sake of people all over 
the world who use, enjoy, and rely on our oceans and waterways 
for their sustenance.
    And before I close let me respond to Representative 
Burgess' specific question that arose during yesterday's Senate 
testimony.
    The modification referred to was the result of an agreement 
between representatives of BP and Transocean approximately 5 
years ago. It was done at BP's request and at BP's expense.
    Thank you for the opportunity to speak here today, and I am 
happy to answer any questions.
    [The prepared statement of Mr. Newman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Newman.
    Mr. McKay, your opening statement, please.

                    STATEMENT OF LAMAR McKAY

    Mr. McKay. Chairman Waxman, Chairman Emeritus Dingell, 
Chairman Stupak, Ranking Member Burgess, members of the 
committee, my name is Lamar McKay and I am President of BP 
America.
    We have experienced a tragic series of events. Three weeks 
ago tonight, 11 people were lost in an explosion and fire 
aboard the Transocean Deepwater Horizon rig, and 17 others were 
injured. My deepest sympathies go out to the families and 
friends who have suffered. This is a terrible loss and there is 
a huge enormous issue in the Gulf Coast. Those communities, 
lives and livelihoods are being affected.
    Over the last few days, I have seen the response firsthand. 
I have seen the men and women on the front line. There is 
absolutely a deep and steadfast resolve to do all we humanly 
can to stop the leak, contain the spill, clean up the damage, 
and deal with the impacts, economic and environmental. As a 
responsible party under the Oil Pollution Act, we will carry 
out our responsibilities to mitigate the environmental and 
economic impact, and just to be very clear, the 75 million is 
irrelevant and we can talk about that later.
    Our efforts are part of a Unified Comman that was 
established within hours of the accident, and it provides a 
structure, a structure for our work with the Department of 
Homeland Security, the Department of the Interior as well as 
Defense, Energy, OSHA and other Federal agencies, as well as 
affected State and local governments, and Transocean.
    We are grateful for the involvement of President Obama and 
members of his Cabinet and for the leadership, direction, and 
resources they have provided. We are also grateful to the 
Governors, congressional members, State agencies, local 
agencies, and local communities of Mississippi, Alabama, 
Louisiana, Florida, and Texas.
    I want to underscore that the global resources of BP are 
committed to this effort and have been from the outset. Nothing 
is being spared. Everyone understands the enormity of what lies 
ahead and is working to deliver an effective response at the 
wellhead, on the water, and on the shoreline.
    Before I describe our round-the-clock efforts to respond to 
this series of events, I want to reiterate our commitment to 
find out what happened. Understanding what happened and why it 
happened is a complex process. We are cooperating with the 
joint investigation by the Departments of Homeland Security and 
Interior and investigations by Congress. In addition, BP has 
commissioned an internal investigation whose results we plan to 
share so we can all learn from these terrible events.
    I want to be clear. It's inappropriate to draw any 
conclusions before all the facts are known. As we speak, our 
investigation team is locating and analyzing data, interviewing 
available witnesses and reviewing and assessing evidence. And 
today I think it's important to give you and the American 
public an idea of the questions we are asking. There are really 
two key sets of questions here and we are actively exploring 
both of those.
    First, what caused the explosion and fire on board 
Transocean's Deepwater Horizon; second, why did Transocean's 
blowout preventer, the key failsafe mechanism, fail to shut in 
the well and release the rig?
    With respect to the first question, the key issue we are 
examining is how hydrocarbons could have entered the wellbore. 
BP, as a leaseholder and operator of the well, hired Transocean 
to drill the well and fulfill their safety responsibilities. We 
do not know yet precisely what happened on the night of April 
20, but what we do know is that there were anomalous pressure 
test readings prior to the explosion. These could have raised 
concerns about well control prior to the operation to replace 
mud with seawater in the well in preparation for setting the 
cement plug.
    Through our investigation we hope to learn more about what 
happened and what was done in the hours before the explosion.
    Apart from looking at the causes of the explosion, we are 
also examining why the blowout preventer, the BOP as it is 
called, did not work as the ultimate failsafe to seal the well 
and prevent an oil spill. Clearly the BOP remains a critical 
piece of equipment throughout all operations to ensure well 
control up until the time the well is sealed and a cement plug 
is placed and the well is temporarily abandoned.
    We will continue full speed ahead with our investigation, 
keeping all lines of inquiry open until we find out what 
happened and why. At the same time, we are absolutely fully 
engaged 24 hours a day every second of the day in efforts to 
respond to these events.
    Our subsea efforts to stop the flow of oil and secure the 
well involve four concurrent strategies. Activating the blowout 
preventer would be the preferred course since it stops or 
diminishes the flow at the source. Unfortunately, this has 
proved unsuccessful so far.
    We are working on a containment system which will place 
enclosures or containment chambers atop the leaks and conduct 
flow to a ship at the surface. There have been technical 
challenges obviously. Engineers are now working to overcome 
these challenges.
    We have begun to drill a first of two relief wells designed 
to intercept and permanently secure the original well. We began 
drilling the first relief well on May 2 and expect to begin the 
second relief well at the end of this week. This operation 
could take approximately 3 months.
    A fourth effort, known as a top kill, uses a tube to inject 
a mixture of multi-sized particles directly into the blowout 
preventer to cap the well. It is a technique that has been used 
industrywide across the world but never in 5,000 feet of water.
    On the open water we have 300 response vessels mobilized, 1 
million feet of boom placed, 2.5 million feet sourced, and the 
supply chain geared up to sustainably boom what areas are 
necessary. We are also attacking the spill with biodegradable 
dispersants that were preapproved by the Coast Guard and the 
EPA. Those are being applied by planes and boats. We have also 
developed and tested a technique to apply dispersant at the 
leak point on the seabed. We have done three tests of that and 
we are waiting on the EPA to decide if we can continuously use 
that dispersant, which we hope we can.
    To protect the shoreline, we are implementing what the U.S. 
Coast Guard has called the most massive shoreline protection 
effort ever mounted in history. 13 staging areas are in place 
and over 4,000 volunteers have already been trained.
    We recognize there are both environmental and economic 
impacts. BP will pay all necessary cleanup costs and is 
committed to paying legitimate claims for other loss and 
damages caused by the spill.
    Tragic and unforeseen as the accident was, we must not lose 
sight of why BP and other energy companies are operating in the 
offshore, including the Gulf of Mexico. The Gulf provides one 
in three barrels of oil produced in the United States, a 
resource our economy requires.
    BP and the entire energy industry are under no illusions 
about the challenge we face. We know that we will be judged. We 
will be judged by our response to this crisis.
    We intend to do everything in our power to bring this well 
under control, to mitigate the environmental impact of the 
spill, and to address economic claims in a responsible manner.
    No resource available to this company will be spared. I can 
assure you that we and the entire oil and gas industry will 
learn from this terrible event. We will emerge from it 
stronger, smarter, and safer.
    Thank you for the opportunity to appear before you today. I 
will be happy to answer your questions.
    In addition, as you requested, I brought a technical expert 
with me, Mike Zangy, Vice President of Drilling and on the 
modifications, Congressman Burgess, I was referring to 
yesterday, I need to know if the modifications that we 
encountered on interventions while this response was going on, 
were those the only modifications that were made in 2005.
    [The prepared statement of Mr. McKay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. McKay. We should note that Mrs. 
Myrick, a member of the full committee, is with us. I'm sure 
she will have some questions when we get to the question 
period. Thanks for joining us, Sue.
    And Mr. Probert, your opening statement, please, sir.

                    STATEMENT OF TIM PROBERT

    Mr. Probert. Chairman Stupak, Ranking Member Burgess, and 
members of the subcommittee, thank you for inviting Halliburton 
to testify. We will continue to work with you and your staff to 
collect factual data that will enable an understanding of what 
took place and what we collectively can do to ensure that 
domestic oil and gas production is undertaken in the safest, 
most environmentally responsible manner possible.
    The catastrophic blowout and the spread of oil in the Gulf 
of Mexico are tragic events for everyone. On behalf of the 
entire Halliburton family, we extend our heartfelt sympathy to 
the families, friends, and colleagues of the 11 people who lost 
their lives and those workers who were injured in the tragedy.
    As we hope you can appreciate, neither Halliburton nor any 
other party can make a judgment or offer any credible theories 
about what happened until, at a minimum, the well owner has 
interviewed everyone on the Deepwater Horizon to recreate the 
daily log of activities for April 20. In the absence of that 
information, no one should rush to judgment. However, there are 
three things that could be said with certainty: One, that the 
casing shoe was cemented 20 hours prior to the tragic accident; 
two, it is premature to say that the root cause of the event 
was the catastrophic failure of the casing or cement; and, 
three, had the BOP functioned as expected this catastrophe 
would not have happened.
    With respect to the Mississippi Canyon 252 well, 
Halliburton and many other companies were contracted by the 
well owner to provide products and services. Halliburton 
provided cementing, mud logging, directional drilling, and 
real-time data acquisition and data delivery services for key 
personnel on board the rig and on shore. However, contrary to 
press reports, Halliburton did not provide casing, wellheads, 
or seal assemblies.
    Since the blowout, Halliburton has been working at the 
direction of the well owner to assist in the efforts to bring 
the well under control. This includes intervention support to 
help secure the damaged well and assistance in drilling two 
relief wells.
    At the outset, I need to emphasize that Halliburton is a 
service provider to the well owner. It's contractually bound to 
comply with the well owner's instructions on all matters 
relating to the performance of all work-related activities.
    The construction of a deepwater well is a complex operation 
involving performance of many tasks by many parties. While the 
well owner's representative has ultimate authority for planning 
and approving activities on the rig, the drilling contractor 
performs and directs much of the daily activity.
    Cement can be used to isolate formation fluids, to prevent 
movement of these fluids between formations, and to bond and 
support the steel casing. There are many external factors which 
affect the design and execution of the cement job, and these 
include the variability of the whole geometry, the relative 
location of hydrocarbon zones, and the hydrocarbon content of 
associated drilling fluids.
    The centralizer placement on the production casing, the 
drilling fluid conditioning program prior to cementing, and the 
cement slurry and placement design use of this well were 
implemented as directed by the well owner. By design, no 
continuous cement column was installed throughout the entire 
wellbore.
    Approximately 20 hours prior to the catastrophic loss of 
well control, Halliburton had completed the cementing of the 
ninth and final production casing string in accordance with the 
well program, which would have been approved by the MMS.
    Following the placement of the cement slurry, the casing 
seal assembly was set in the casing hanger. As required by the 
MMS and as directed by the well owner, a positive pressure test 
was then conducted to demonstrate the integrity of the 
production casing string. The results of the positive test were 
reviewed by the well owner, and the decision was made to 
proceed with well program.
    The next step was the performance of a negative pressure 
test conducted by the drilling contractor at the direction of 
the well owner and in accordance with MMS requirements. This 
tests the integrity of the casing seal assembly. We understand 
that Halliburton was instructed to record drill pipe pressure 
during this test. After being advised by the drilling 
contractor that the negative test had been completed, 
Halliburton's cementing personnel were placed on standby.
    We understand that the drilling contractor then replaced 
the dense drilling fluid in the riser with lighter seawater 
prior to the planned placement of the final cement plug. The 
drilling fluid was transferred directly to a work boat.
    The final cement plug would have been installed inside the 
production string and enabled the planned temporary abandonment 
of the well, but prior to reaching that point in the well 
construction plan that Halliburton personnel would have been 
directed to set the plug, the catastrophic incident occurred.
    Halliburton is confident that the cementing work on the 
Mississippi Canyon 252 well was completed in accordance with 
the requirements of the Well Owners Well Construction Plan.
    To amplify before closing, and to amplify, respectfully, to 
a comment made earlier by Representative DeGette, the MMS did 
indeed conduct a survey which indicated that cementing was a 
factor in 18 of 39 well control incidents over an approximate 
10-year period in the Gulf of Mexico. I should point out that 
only one of these incidents occurred in water depths over 400 
feet.
    Thank you for the opportunity to share Halliburton's views. 
I look forward to answering your questions.
    Mr. Stupak. Thank you.
    [The prepared statement of Mr. Probert follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Mr. Moore, your opening statement, please, sir.

                    STATEMENT OF JACK MOORE

    Mr. Moore. Chairman Stupak, Ranking Member Burgess, 
Chairman Waxman, Chairman Emeritus Dingell, Ranking Member 
Barton, members of the committee, good morning. I am Jack 
Moore, President and CEO or Cameron International Corporation, 
and I appreciate the opportunity to be here for this hearing on 
what is truly a tragic event.
    What word about our company; Cameron is based in Houston, 
Texas, and is a leading provider of equipment and services to 
the energy industry worldwide. We have 11 different operating 
divisions, and approximately 18,000 employees in more than 300 
locations worldwide. We have worked with our customers for over 
120 years to design, manufacture, and service products that 
help them safely find, develop, produce and transport oil and 
gas.
    The Cameron product used by the Deepwater Horizon is called 
a blowout preventer, or a BOP, a product that Cameron actually 
invented in the 1920s. A BOP allows our customers to control 
the pressure in a well while being drilled. We have over 400 
BOP stacks operating offshore, and 130 are operating in deep 
water. Each individual BOP stack is made of components 
specified by our customers, is configured to their specific 
operating specifications, and is manufactured and tested in 
accordance with industry standards. Our BOPs have a very long 
history of reliable performance, including performance in some 
of the harshest operating conditions in the word. The BOP stack 
on the Deepwater Horizon was operating in 5,000 feet of water.
    As soon as Cameron was notified of the Deepwater Horizon 
incident, we mobilized a team of our best drilling system 
specialists to work with BP in transition to assist in shutting 
this well in. Since that time, we have been working around the 
o'clock to assist in this effort, and we will continue to 
provide all the necessary resources at our disposal until this 
well is shut in.
    It is far too early to draw conclusions about how the 
incident occurred, but every one of us at Cameron, myself, and 
I think this industry is mindful of the tragic loss of life 
that occurred, and likewise, the impact to the environment and 
to the commercial impact that it will have.
    Cameron and I understand the need to discover the facts 
relating to what went wrong and to do all that is possible to 
prevent the occurrence of such an incident in the future. I am 
accompanied today by my colleague, David McWhorter, who is our 
vice president of engineering and quality for your drilling 
systems group to be at your disposal for answers. Thank you for 
letting us be here today.
    [The prepared statement of Mr. Moore follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Moore.
    It should be noted for members that we asked each of our 
witnesses to have a technical expert with them to help in 
answering any technical questions. To our witnesses, you may 
consult with your technical experts before responding to 
questions, and if we get to a point where your expert needs to 
answer directly, then we will have them sworn in and hear from 
them directly, but otherwise, we will look to you for the 
answers.
    So with that, let's begin our questions. We will go 5 
minutes this first round.
    Mr. Waxman, would you like to begin, please?
    Mr. Waxman. Yes. Thank you very much, Mr. Chairman.
    I want to return to a point that I raised in my opening 
statement, and that was the question about a series of pressure 
tests performed on the well before the blowout took place.
    My understanding is that there are two types of pressure 
tests. A positive test involves adding fluids into the well to 
exert additional pressure. This tells the well operator whether 
fluids can flow from the well into the surrounding formations. 
A negative pressure test is a reverse; it removes some of that 
pressure in the well, creating an inward or upward force from 
the pressure differential. That would be used to defect flow 
into the well through a breach in the cement or the casing. 
Both tests are important, and failure of either test can 
suggest a failure of the seals or the well's integrity.
    Mr. Newman, am I right in my understanding of the 
significance of these two tests?
    Mr. Newman. Chairman Waxman, I would agree with your 
assessment, that the successful performance of those tests is 
critical to understanding the condition and the integrity of 
the casing and cement, and a negative response, a negative 
outcome for either one of those tests would indicate that there 
are potential problems.
    Mr. Stupak. Mr. McKay and Mr. Probert, do you agree with 
that?
    Mr. McKay. Yes, I do.
    Mr. Probert.Yes.
    Mr. Waxman. I understand that the well passed positive 
pressure tests on the morning of April 20, 2010, but I also 
understand that when negative performance tests were performed 
later that day, starting around 5 p.m., there were anomalous 
results. Let's go back to the document entitled ``What We 
Know,'' which was put out by BP. It says, ``After 16\1/2\ hours 
waiting on the cement, a test was performed on the well bore 
below the blowout preventer.'' And then it says, ``During this 
test, 1,400 PSI was observed on the drill pipe while zero PSI 
was observed on the kill and the choke lines.''
    Mr. Newman, can you explain what a 1,400-pound discrepancy 
in the negative pressure test might signify and what its 
importance might be?
    Mr. Newman. The indication of 1,400 PSI on the drill pipe 
would indicate that there was pressure in the well bore being 
registered on the pressure gauge attached to the drill pipe. 
The absence of pressure on the choke and kill line would 
indicate a discrepancy between the well bore pressure being 
measured by the drill pipe and the annulus pressure being 
measured by the choke and kill line.
    Mr. Waxman. And what significance does that have?
    Mr. Newman. The significance of the discrepancy between the 
two pressures would lead to a conclusion that there was 
something happening in the well bore that shouldn't be 
happening.
    Mr. Waxman. And Mr. McKay and Mr. Probert, do you agree?
    Mr. McKay. I think it is obviously difficult to speculate, 
but I do think that discrepancy is critical in the 
investigation. We will have to tear that apart piece by piece, 
absolutely.
    Mr. Waxman. And Mr. Probert?
    Mr. Probert. We don't have knowledge of the sort of 
mechanical----
    Mr. Waxman. I'm just asking if that explanation of a 
differential is accurate?
    Mr. Probert. Yes, I would say so.
    Mr. Waxman. Now, Mr. McKay, Mr. Dupree from BP told us on 
Monday, he said the results were not satisfactory, and he said 
they were a possible warning that gas was seeping into the well 
and building up pressure inside the bore hole. Mr. Dupree, is 
your senior official responsible for operations in the Gulf of 
Mexico? Do you agree with his assessment?
    Mr. McKay. Mr. Dupree has been working on the crisis 20 
hours a day. I wasn't sitting in on the meeting that you're 
referring to, so I wasn't privy to that review. What I would 
say is 1,400 PSI on the drill pipe and no PSI on the choke and 
kill lines indicates something should be investigated, 
absolutely.
    Mr. Waxman. Well, the anomalies in the pressure testing 
present a significant question that should be thoroughly 
investigated. Just hours before the explosion, tests on the 
well returned results that signaled a possible well failure and 
the influx of gas up the wall. Yet it appears that the 
companies did not suspend well operations, and now 11 workers 
are dead and the Gulf Coast region faces catastrophic 
environmental damages. We need to know if that is the case and 
why it was the case. And it appears from Mr. Dupree's 
statements to our staff that that was the result of the test, 
the negative test that was taken.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Stupak. Mr. Barton for questions?
    Mr. Barton. Thank you, Mr. Chairman.
    I have watched the testimony in my office as I did other 
work, so I have listened to the opening statements and to the 
members' questions and the members' opening statements. So I 
have been participating by video.
    My first question is generally to the panel. Do any of you 
allege that the incident that occurred should not have been 
foreseen, that it was of such a catastrophic nature that the 
equipment and the technology should not have contained it? Do 
you understand what I'm asking? OK. I see absolutely no 
response.
    Mr. McKay. Could I respond?
    Mr. Barton. Let me rephrase it. Does anybody here believe 
that the blowout preventer and the technology employed and the 
procedures, if they had worked properly, could not have 
prevented the spill?
    Mr. Newman. Representative Barton, it's important to 
understand the design constraints of a blowout preventer. A 
blowout preventer is not designed to close around significant 
debris. A blowout preventer is designed to close around drill 
pipe and most sizes of casing. But without knowing exactly 
what's inside the blowout preventer today, it is difficult to 
conclude that the blowout preventer wasn't subjected to 
conditions that exceed its design constraints.
    Mr. Barton. Well, I am a supporter of OCS drilling. I am a 
registered professional engineer, I'm not a petroleum engineer, 
I'm not a geologist. But my assumption is, in order to get a 
permit to drill you have to show the MMS that you will put 
equipment on site and drill the well in such a fashion that you 
can handle expected problems. And there have been millions of 
oil wells drilled and gas wells, there have been tens of 
thousands of gas wells drilled in the Gulf. It has to be a 
design parameter that you could have a catastrophic pressure 
release--or a blowout, to use the common term. I would think 
that your blowout preventer and your technology, your casing 
should be designed to handle that. Am I wrong?
    The gentleman who is the President of Cameron, it's your 
blowout preventer. This isn't a volcano that exploded around 
this well. I mean, we don't know what happened, but my 
assumption is--and if my assumption is wrong, then we have to 
reassess the entire OCS drilling program--that if the 
technology had worked and the people had responded or had time 
enough to respond, even though you had the accident, it would 
have been contained, it would have been shut off. Am I wrong 
about that?
    Mr. Moore. Well, we don't know what happened. I think 
that's what everyone here is trying to learn. And until we know 
what happens with this investigation, we will not be able to 
answer whether the blowout preventer that was there was 
functioning for that particular purpose. Our blowout preventers 
are built and designed to do specific things. We do know that 
they will not shear and seal casing, that we know. But they 
will shear and seal drill pipes.
    Mr. Barton. But when you get a permit from the MMS--I guess 
this would go to the President of BP--you do have to show that 
if you have some sort of a pressure release, you can prevent it 
escaping into the environment, don't you?
    Mr. McKay. Yes. I believe the permit requires a well 
construction plan that also requires the blowout preventer 
that's provided by the contractor with a permit. And to answer 
your question, I think that, in effect, the well design, the 
procedures that were used, and the functioning of the equipment 
are going to be the mainstays of this investigation. And we do 
expect those to work, absolutely.
    Mr. Barton. It's my understanding that the blowout 
preventer equipment is still intact, that it is not--while it 
may be clogged up or it may not be properly installed or 
connected in terms of the activation mechanism, that it's not 
been damaged. So it just hasn't worked properly, but it isn't 
like it's been bent or deformed or impaired; is that correct?
    Mr. Newman. There are no outward, external indications of 
significant damage, but I would caution the committee that the 
blowout preventer, as a result of what's happened, particularly 
the sinking of the vessel, the blowout preventer was subjected 
to significant stress.
    Mr. Barton. I see that my time has expired.
    We're going to do another round; is that right, Mr. 
Chairman?
    Mr. Stupak. Yes, Mr. Barton. I think we will probably go at 
least another round.
    Well, let me ask this, the term blowout protector--and I've 
spent a little bit of time on it--I mean, a blowout protector, 
like here's your pipe, what it's supposed to do is really 
squeeze it off; if something goes wrong, it just squeezes off 
like a straw, you just squeeze it, you pinch it so nothing can 
go up. Is that correct, Mr. Moore? Is that basically correct?
    Mr. Moore. Correct.
    Mr. Stupak. OK. I point out four ways in my testimony where 
this blowout protector could not be working. Number one, there 
were modifications that BP indicates they didn't know about--
Transocean said no, they know about it 5 years ago. There was a 
hydraulic leak. That would not have enough pressure in there so 
that you could pinch this off if that hydraulic leak is serious 
enough; is that correct, Mr. Moore?
    Mr. Moore. That would be a cause, we're not sure.
    Mr. Stupak. And you also indicated that, when you get these 
joints here, if these joints are in the BOP, the blowout 
protector, it won't cut a joint; is that correct?
    Mr. Moore. If those joints are in a shear ram, they will 
not cut.
    Mr. Stupak. All right. And then also the dead man switch, 
besides the design, all three of them having to give off, even 
the battery in this case, the one control panel we did find, 
the battery wasn't working, correct?
    Mr. Moore. That's what we were led to believe, yes.
    Mr. Stupak. OK. So let me ask this; this was a 2001 blowout 
protector for this well?
    Mr. Moore. Correct, it was built in 2001.
    Mr. Stupak. All right. And in 2003, 2004, there were new 
regulations that came in for blowout protectors, were there 
not, Mr. Moore?
    Mr. Moore. In terms of shearing capacity?
    Mr. Stupak. Shearing capacity in particular, yes.
    Mr. Moore. Yes.
    Mr. Stupak. In fact, doesn't section 250.416(e) indicate 
that now it requires the lessee--in this case, BP--to provide 
information that shows that the blind shear or shear rams 
installed in the BOP stack are capable of shearing the drill 
pipe in the hole under maximum anticipated surface pressures; 
is that correct?
    Mr. Moore. I am not aware of that particular article.
    Mr. Stupak. How about you, Mr. McKay, since you're the 
lessee in this case. Is it supposed to make sure that the rams 
can shear this pipe?
    Mr. McKay. I'm not personally familiar with the article 
you're quoting.
    Mr. Stupak. OK. I'm talking about the rules in the Minerals 
Management Service rules and regulations that came out in 2003. 
Mr. Newman, are you familiar with those?
    Mr. Newman. I believe, Chairman, you're referring to the 
Code of Federal Regulations 30, subsection 250, yes, sir, I'm 
familiar with those.
    Mr. Stupak. And you're supposed to be able to cut this 
thing in half in case there's an accident, right?
    Mr. Newman. Blind shear rams are supposed to be able to 
shear the tubular, yes, sir.
    Mr. Stupak. OK. And what kind of testing did you, 
Transocean, or BP do to make a determination that the shear 
rams were satisfactory and could cut this pipe if something 
happened? Did you do any testing?
    Mr. Newman. In terms of confirming the capability of the 
shear rams----
    Mr. Stupak. Correct, which you're required under 250416(e).
    Mr. Newman. We rely on the test data, which is provided by 
Cameron.
    Mr. Stupak. OK. But test data is just really pressure, 
nothing to do with the make sure you have your hydraulics. 
There was nothing in there to make sure all the valves were 
tight, to make sure the hydraulic fluid wasn't leaking out, was 
there?
    Mr. Newman. There are regular tests performed on the BOP, 
while the BOP is on the rig prior to its deployment.
    Mr. Stupak. While it's on the rig, OK.
    Mr. Newman. And then regularly, while the BOP is deployed 
on the seabed.
    Mr. Stupak. Right. In fact, section 446(b) says every 3 
days, weather permitting, you must go down and look at the BOP 
on the sea floor, does it not?
    Mr. Newman. I believe that's correct, Chairman.
    Mr. Stupak. OK. Did you do that in this case?
    Mr. Newman. This is an ROV--remote operated vehicle--
contracted by BP and located on the rig, and it's out there for 
that purpose.
    Mr. Stupak. OK. And did it perform any tests on the BOP 
that was sitting on the sea floor?
    Mr. Newman. The only test the ROV would perform in that 
situation, Chairman, is a visual inspection, an observation of 
the BOP.
    Mr. Stupak. How about something as simple as--or then 
there's no shear test that's performed on the sea floor, right? 
There's no shear testing performed on the sea floor to cut this 
baby.
    Mr. Newman. During the progress of well construction 
operations and the routine testing that is performed, there is 
no test where the shear rams are actually subjected to a 
shearing test.
    Mr. Stupak. So the ROV really just goes down and takes a 
look at it.
    Mr. Newman. It observes the external observation of the 
BOP.
    Mr. Stupak. OK. Is there any test that tests to make sure 
the batteries are working so you can view your kill switch that 
actually shut this thing down?
    Mr. Newman. Because the electronic signals which transmit 
back and forth between the rig and the BOP control system 
happen continuously, there would be an indication if the 
batteries were dead, on the BOP there would be an indication of 
that on the rig.
    Mr. Stupak. So you're saying you don't have to test it 
because as long as the electrical lines are working, that would 
indicate whether or not the batteries are fully charged?
    Mr. Newman. That's correct.
    Mr. Stupak. Well, in this case, in the one control panel 
that we were able to take a look at, the battery was supposed 
to be at 27 amps, it was at 18 amps. Did any of your testing 
show that it was under the 27 amps required?
    Mr. Newman. I don't have any indication, Chairman, that the 
tests would have indicated that the charge in the batteries had 
dropped from 27 to 18.
    Mr. Stupak. Would you have documents that would show what 
the amps of these batteries were? Do you have any kind of 
records that would show that?
    Mr. Newman. Unfortunately, Chairman, those records would 
have gone down with the rig.
    Mr. Stupak. So then we have to take the word of those who 
looked at this control panel that the battery was basically 
dead and the dead man switch would not work, correct? You have 
no records to dispute that, right?
    Mr. Newman. I have no records.
    Mr. Stupak. OK. My time is up.
    Mr. Burgess, 5 minutes for questioning. We will do a second 
round.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. McKay, just to kind of get back to some of the 
specifics of the modifications of the protector are what we 
know from tab four in the evidence binder, modifications that 
have been discovered in the blowout protector system. Can you 
give us the specific modifications that were discovered in the 
BOP system?
    Mr. McKay. What I was referring to yesterday is, while we 
were doing ROV--remote operated vehicle--interventions as the 
crisis has unfolded, we discovered that there were 
modifications made. I don't know personally whether those were 
the exact modifications that Mr. Newman referenced that were 
done in 2005 or they were additional ones. I think that's a 
very, very important piece of the investigation. We found 
leaking hoses and. You know, the diagrams that we were using 
real-time did not match the blowout preventer, so that's----
    Mr. Burgess. Well, Mr. Newman, if I understood him 
correctly, suggested that those modifications were requested 
and were paid for by BP. So it should be possible--those 
records wouldn't have gone down with the ship, would they? We 
should be able to get that paper trail at some point 
established, should we not, if there were modifications that 
were requested?
    Mr. Newman. I have looked at the agreement that was signed 
between Transocean and BP, so yes, we have a copy of that.
    Mr. Burgess. And you will make that available to the 
committee?
    Mr. Newman. Yes, sir.
    Mr. Burgess. And Mr. McKay, will you look at your records 
and help us with trying to define that?
    Mr. McKay. Absolutely.
    Mr. Burgess. Let me just ask a question. Mr. Waxman was 
asking about the negative pressure test. One side read 1,400 
PSI, the other side read zero. What should the other side have 
read if the pressure test had been absolutely perfect?
    Mr. McKay. The way I understand the configuration that was 
hydraulically connected such that the pressures on the choking 
kill line and the drill pipe should have been the same.
    Mr. Burgess. Identical pressures. So that, and I'm just a 
layman, but that would indicate some obstruction that would not 
allow pressure to be transmitted from the drill line to the 
kill line, or vice versa.
    Mr. McKay. Yes. I can't speculate as to why, but they 
should have been reading the same from the way they are 
hydraulically connected, from what I understand.
    Mr. Burgess. OK. And going back to the previous issue, 
committee staffers have been told by your staff, Mr. McKay, 
that when BP attempted to operate one of the blowout protector 
variable rams underwater, the device was either mislabeled or 
not labeled in the way that they anticipated; is that correct?
    Mr. McKay. That is correct. I don't know if that has 
anything to do with the modifications we requested or not or 
whether they are different modifications, but it is correct.
    Mr. Burgess. Do you think that BP approved the 
modification?
    Mr. McKay. I don't know. That's going to be a central part 
of the investigation to understand what modifications were 
made.
    Mr. Burgess. If it was just mislabeled, you wouldn't have 
approved a mislabeling, would you, at BP?
    Mr. McKay. We wouldn't have been involved in the labeling 
of them, no.
    Mr. Burgess. So is there any reason why management wouldn't 
be aware of this? Why the labeling, why the discrepancy would 
exist?
    Mr. McKay. Are you asking me?
    Mr. Burgess. Yes, sir. Don't you have oversight over what 
happens at----
    Mr. McKay. Transocean owns those blowout preventers----
    Mr. Burgess. But you have oversight over Transocean in that 
regard.
    Mr. McKay. They are our contractor, yes.
    Mr. Burgess. I talked to the Governor's office yesterday--I 
didn't talk to the Governor, but I talked to some of his folks. 
And Mr. McKay, let me just ask you, they are really concerned 
that they've got a coastline, because of indentations and 
excrescences that is much longer than you would think just 
looking at, as the crow flies on the Louisiana coast, they've 
got 7,700 miles of estuaries and coastline. There is no way in 
the world that they have enough boom to manage the problems 
that they are facing. They tell us that they are having 
difficulty getting BP to authorize purchase of additional boom 
and manufacturer of additional boom. It seems to me this should 
be all hands on deck, get the boom locally, get it from global 
sources, but wherever we can, let's get the boom put into 
position and not go scrambling for it once the oil comes 
ashore. Can you help me with that? Why is the Governor's office 
feeling like they don't have an adequate supply of boom?
    Mr. McKay. We are accessing, as I said earlier, we've got 
1.1 million feet deployed, we've got 2.4 million more feet 
coming, and this is under Unified Area Command as far as 
deployment under the Coast Guard's direction. So we have a 
supply chain cranked up to supply boom as well.
    Mr. Burgess. Well, just if I can suggest, I think there 
needs to be--I was impressed when we went down there last week, 
the cooperation between the BP and the Coast Guard and Unified 
Command. I've got no complaints about what I was seeing. But 
the Governor feels that--or at least the person I was talking 
to at the Governor's office feels that they don't have the 
ability to start the production line on that boom and they're 
going to need a lot more than what they have.
    Mr. McKay. I will do two things; one, I will check on that 
and make absolutely sure. Number two, I know of no limits from 
BP about getting stuff done in terms of boom or anything else.
    Mr. Burgess. I appreciate your assurance that you will 
check on that personally.
    The other thing is they don't have the ratio of liaisons to 
the number of parishes. There might be one liaison for eight 
parishes. That's not satisfactory. There needs to be a one-to-
one relationship of the liaison to the parishes that are 
affected.
    Mr. McKay. OK. Thank you.
    Mr. Stupak. The time has expired.
    Mr. Markey, 5 minutes for questions, please.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. McKay, on Friday, I flew over the spill and I saw a 
vast area of ocean covered in oil. This is oil from the Gulf. 
And we now see thousands of square miles with this awful 
sludge. And although the spill started about 50 miles offshore, 
it has now reached the Louisiana coastline.
    You are saying to us that BP is doing everything in its 
power to ensure that this spill is being stopped and that you 
currently estimate that the leaking is 5,000 barrels of oil per 
day into the Gulf. But this isn't the only rig that BP operates 
in the Gulf. In its Oil Response Plan for the Gulf of Mexico, 
BP identified a worst case scenario for exploratory well 
explosion from offshore drilling in the Gulf of Mexico as a 
leak that would release 250,000 barrels of oil per day into the 
ocean about 30 miles off the coast of Louisiana. The specific 
exploration plan that you provided to regulators for the 
Horizon well states, ``Since BP Exploration and Production 
Incorporated has the capability to responded to the appropriate 
worst case spill scenario, I hereby certify that BP Exploration 
and Production Incorporated has the capability to respond to 
the maximum extent practicable to a worst case discharge.''
    So right now, Deepwater Horizon well is leaking an 
estimated 5,000 barrels per day, about 2 percent of the worst 
case scenario of 250,000 barrels, which your company assured 
the government, the American people, that it was capable of 
addressing in the Gulf. So if BP is already using every 
available resource to combat this spill of 5,000 barrels per 
day and it can't stop this spill from worsening, then I can't 
understand how in the world you can certify that you have the 
capability to respond to a spill of 250,000 barrels per day.
    Mr. McKay, you had better rethink your certification for a 
worst case spill of 250,000 barrels per day. Can you really say 
now, as you sit here, that that certification is accurate, that 
you can respond to a daily spill of 250,000 barrels per day?
    Mr. McKay. What I would say is that we are responding with 
three drilling rigs. A surface response plan that was in place, 
detailed and is the largest that has ever been put in place----
    Mr. Markey. Are you saying to us that you would use exactly 
the same resources for a spill of 5,000 barrels per day, which 
is what we have now, as you would for a spill of 250,000 
barrels a day?
    Mr. McKay. Each spill would be specific. This particular 
one is complicated that the emergency dissect did not work on 
top of the blowout preventer, so we are still connected with a 
riser that's 4,300 feet long. We cannot get another blowout 
preventer on top of it right now, which would be the normal 
course in something like ``normal,'' but something you could do 
if the riser was----
    Mr. Markey. I understand that. But right now, BP is 
scrambling to find enough booms. You're going to use nylons and 
hair to soak up the oil. I can only conclude that you really 
don't have the resources to respond to a spill of 250,000 
barrels. And there are wells all over the Gulf that are ticking 
time bombs that could result in spills of 250,000 barrels per 
day; do you really think that you can certify, again, today 
that you could respond to a spill of 250,000 barrels per day?
    Mr. McKay. As I said, we're doing everything we can. I 
believe that we will learn things through this, there's no 
doubt. And I believe that those certifications will be with the 
knowledge that we have----
    Mr. Markey. I just wish that you had a little more humility 
here today, an admission that you don't have. Last week, you 
tried to plug the leaks with a huge dome, which failed when it 
froze up. Now we're reading about a small top hat dome. If that 
fails, the solution looking increasingly desperate to plug the 
leak with a junk shot of golf balls and old tires and knotted 
ropes, soaking up some of the oil with hair and nylons. Each of 
your companies has represented itself as technology leaders in 
deepwater oil and gas exploration, and each of you now is 
flailing about, with no clue about how you're going to get out 
of the mess that you've gotten yourselves into. Top hats, golf 
balls, tires, hair, nylons, these are not the response actions 
of companies who are prepared for the worst case scenario 
accident and capable of carrying out that response plan.
    The American people expect your companies to have a 
technological response to this disaster on par with the Apollo 
Project, not Project Runway, and that's what they're seeing 
night after night. You need to do better, and you need to 
prepare for a worst case scenario for the ticking time bomb 
that could be out there somewhere off the coast of the United 
States.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Markey.
    Mr. Sullivan for questions, please.
    Mr. Sullivan. I thank you, Mr. Chairman.
    This is a big mess. I realize that for you guys it's tough 
to answer these questions. You're probably, if not already 
going to sue each other, they will be suing you. There is going 
to be litigation for years on this. A lot of money is involved. 
And so I understand that it's tough to answer these questions.
    It's easy to beat up on people when they're down in this 
situation, and so I'm not going to do that, I'm going to focus 
on something different, even though I think it's bad. We're 
going to find out who did this, who's responsible. The 
investigation will be ongoing and we'll deal with that then.
    But I would like to really focus on the solution right now. 
We can focus on the problem all day long, it's not going to get 
us anywhere. Someone is responsible, find it out, but let's 
focus on the solution.
    I would just like to ask you, Mr. Newman, Mr. McKay, have 
you ever dealt with a blowout of this magnitude in the Gulf 
ever before, or even close?
    Mr. Newman. We have never dealt with a blowout of this 
magnitude in the Gulf of Mexico before.
    Mr. McKay. No.
    Mr. Sullivan. Both of you are involved in that it's your 
rig, you're drilling, you're working together, he's a 
contractor. On the rig, who's quarterbacking the situation 
right now, who's in charge? It's his rig, so you have--what do 
they call them, installation managers on the rigs, or offshore 
installation managers? If he says something, can you override 
him? How is that working?
    Mr. Newman. The offshore installation manager on a 
Transocean vessel is the senior most transition individual out 
there. That individual is responsible for the overall safety of 
the personnel and the vessel.
    Mr. Sullivan. And what if Mr. McKay says something--do you 
accept that?
    Mr. McKay. Yes.
    Mr. Sullivan. OK. And also, I know you've got a lot going 
on on the rig, there's people out there in harm's way working 
feverishly to get this to stop. Also, we talked about the golf 
balls and hair and all that. I know there are sophisticated 
efforts going on. Could either of you--Mr. McKay, I guess you--
elaborate on what is going on onshore? Do you have a command 
center? What is that command center doing? Are they working 24/
7? Have you tapped into the industry, other companies, experts, 
the brightest in the world? What kind of technologies are they 
using? Are there video feeds from the floor there? What kind of 
stuff is going on?
    Mr. McKay. We have several command centers. The source 
control is in Houston, and we have over 160 companies working 
wish us across the industry, including our colleagues and 
partners, as well as our competitors. We have the Department of 
Defense, we have the Navy, we have Sandia Labs. We have the 
brightest scientific minds in the world in these type of 
situations working on it 24/7. We have the highest technology 
in the world working this. As I said, we have three different 
drilling vessels, Transocean drilling vessels. We have 16 
submarines operating continuously in some way or another, eight 
around the blowout preventer.
    This junk shot is actually a very sophisticated operation, 
a manifold has been constructed to be utilized in 5,000 feet of 
water, it's never been done. The Koffer Dam was on the hand, we 
had that Koffer Dam for shallow water. It's been utilized in 
Deepwater. It has hydrate problems as people know.
    On the surface, we're using technology with the latest 
dispersants. We are using subsea dispersal, which we think is 
extremely effective from initial tests, and we would like to 
get continuous injection going on that. It is extremely high-
tech, and the best minds in the world are working it 24/7.
    Mr. Sullivan. And all these companies here and others are 
involved as we speak?
    Mr. McKay. That's right.
    Mr. Sullivan. Are you drilling wells right now to go into 
two of them, I guess?
    Mr. McKay. We're drilling two relief wells right now. Well, 
one has started, the other will start this weekend.
    Mr. Sullivan. And I guess the Koffer or the cap was plan A; 
would you say that?
    Mr. McKay. The Koffer Dam had hydrate problems, so we are 
working on a secondary plan for subsea containment right now.
    Mr. Sullivan. So do you have a variety of plans going on 
multiple approaches right now in case one fails?
    Mr. McKay. Really quickly, we have different levels. We are 
attacking at the subsurface with the permanent securing with 
the relief wells. We have the blowout preventer, which is top 
kill is what we call it. Then we have the containment and 
collection systems subsea. We have several things working on 
that. And then we have the aggressive on-the-surface attack, 
which is trying to fight it as far offshore and then protect 
the shoreline, then clean up whatever gets to shore.
    Mr. Sullivan. When do you think this is going to stop?
    Mr. McKay. Well, we're working every second to get it 
stopped as fast as possible. There are viable options being 
worked that could work in the next few days to a couple of 
weeks, and then ultimately the permanent securing would be up 
to 3 months or so.
    Mr. Sullivan. And those wells you're drilling right now, 
how are those going to plug this well? How would that do it?
    Mr. McKay. We will drill and intersect the well just above 
or right into the reservoir Horizon and pump heavy weight to 
kill fluid, to kill that well.
    Mr. Sullivan. And that could take, you said, two months?
    Mr. McKay. It probably will take about three months to get 
there in terms of the relief well.
    Mr. Sullivan. And that would work, that would work if you 
were there right now----
    Mr. McKay. It's the normal way to kill a blowout around the 
world, it will permanently secure it, yes.
    Mr. Sullivan. Thank you. I don't have any more questions.
    Mr. Stupak. Mr. Braley for questions, please.
    Mr. Braley. Gentlemen, I want to focus on the last two 
minutes at the Deepwater Horizon well right before the 
explosion that triggered this catastrophic event because when I 
go over this accident in my head, I try to understand what was 
in place to protect the workers from a sudden event like this 
blowout. I would like to talk about what happened just before 
the explosion. Can we bring up the Halliburton data screen on 
screen at this point?
    Mr. Probert, you testified that part of your function on 
this particular well was to provide real-time data collection; 
is that correct?
    Mr. Probert. That's correct.
    Mr. Braley. And your company produced this particular chart 
to us as part of the contract you had with BP to perform 
monitoring of the mud and other data on this rig; is that your 
understanding?
    Mr. Probert. That's correct.
    Mr. Braley. Are you generally familiar with how this type 
of a chart is used in well monitoring?
    Mr. Probert. Generally, yes.
    Mr. Braley. Generally. What this chart shows is what was 
happening inside the well and on the rig in the final two hours 
before the explosion. And if you look, this chart is broken 
down into time intervals that are recorded, beginning at 2010, 
which would have been 8:10 p.m. That evening, correct?
    Mr. Stupak. Mr. Braley, if I may, it's Exhibit Number 5. 
There should be an exhibit book there if you want to look at 
it, Mr. Probert. Hopefully that helps you out a little bit. 
It's Exhibit Number 5.
    Go ahead.
    Mr. Braley. So this covers a data interval from 2010, or 
8:10 p.m., on April 20 to 2150, which would have been 9:50 that 
evening. Is that the time frame we're talking about?
    Mr. Probert. It would appear to be so, yes.
    Mr. Braley. And if you look at this chart, there are 
several abnormal-appearing entries where a line dramatically 
goes vertical during a time interval between 2146 and 2148. Do 
you see that?
    Mr. Probert. I see that.
    Mr. Braley. And what this suggests is that the pressure in 
the standpipe at that moment shot up from 500 PSI--pounds per 
square inch--to almost 3,500 PSI in the space of about 2 
minutes, and that was immediately before the explosion, 
correct?
    Mr. Probert. That is immediately before the contact was 
lost with the rig, yes.
    Mr. Braley. Right. So Mr. Probert, this is your company's 
data. What does this tell us?
    Mr. Probert.What it says is that at some point within 2 
minutes or so of the loss of the transmission that there was a 
significant increase in standpipe pressure.
    Mr. Braley. All right. And what's the significance of that 
to people monitoring this well for safety and security reasons?
    Mr. Probert. The significance of this to all parties who 
would have had access to this data, and also standard gauges 
which are present on the rig would show that this would be a 
significant red flag.
    Mr. Braley. And in addition to gauges and this printout, 
are there any other type of built-in safety devices that would 
trigger a shutdown of the rig?
    Mr. Probert. I would have to defer that question to Mr. 
Newman as to whether or not there are any shutdown processes on 
the rig.
    Mr. Braley. All right. Mr. Newman, are you prepared to 
answer that question?
    Mr. Newman. If you could rephrase the question for me, 
Representative, I would be happy to take a shot at it.
    Mr. Braley. Have you ever had surgery, Mr. Newman?
    Mr. Newman. I have had surgery.
    Mr. Braley. And right when you're undergoing anesthesia, 
one of the last things that happens before you're put under is 
they put a pulse oximeter on your finger to monitor your oxygen 
saturation level. Do you remember that, a little device that 
goes over your finger?
    Mr. Newman. The surgery I underwent, sir, was a bit 
traumatic and I was effectively incapacitated in advance of the 
surgery, so I don't remember.
    Mr. Braley. All right. Just accept for the purpose of my 
question that's what happens to most people, that they actually 
do monitor your oxygen saturation because they don't want you 
to die on the operating table.
    Mr. Newman. I'll take your word for it, sir.
    Mr. Braley. And there are built into that machine that the 
anesthesiologist uses alarm defaults. When your saturation 
level gets to a certain level that it's considered hypoxic, 
everybody in that operating room needs to know that, OK.
    My question for you is, in this particular setting, what 
type of alarm bells, whistles, alerts, other than a pressure 
gauge, do people working on that rig have available to them to 
tell them they've got a catastrophic problem that's unfolding?
    Mr. Newman. Well, there are a number of early warning 
indicators that are present on a drilling rig that would alarm 
for the individuals who are monitoring those to give them an 
indication. Which particular alarms would have been triggered 
in this instance depends on exactly what was happening, and I 
don't know the answer to the question about exactly what was 
happening.
    Mr. Braley. How do we find out that information? How are 
those alarms recorded? What logs are kept? And what additional 
information do we know to get to the bottom of what was 
transpiring on that rig?
    Mr. Newman. The alarms are monitored on the rig through 
what we refer to as VMS, a vessel management system. Those 
alarms are logged and a record is kept of that, but that VMS 
exists only on the rig, it's not transmitted off the rig. And 
so the VMS system, along with the logs of the VMS system, would 
have gone down with the vessel.
    Mr. Braley. So you have no mirrored back-up data device so 
that that information is recorded at some other location than 
on the rig itself?
    Mr. Newman. We do not have real-time, off-rig monitoring of 
what's going on on the vessel.
    Mr. Braley. Do you think that's a failure in the fail-safe 
system that is currently used within the industry to help 
understand the events of a catastrophe like this and learn from 
it?
    Mr. Newman. Because the decisions regarding continuation of 
the drilling operations or suspension of the drilling 
operations are typically taken at the rig site, the first place 
we want those alarms present is at the rig site.
    Mr. Braley. But you're aware that technology exists--it's 
used every day in businesses all over the country--where as 
soon as a bit of information is recorded at a central location, 
it is can be immediately recorded at a distant site just to 
avoid this type of catastrophe from preventing that information 
from being lost forever.
    Mr. Newman. I am aware of that technology existing, and in 
fact, the reason we have the records you're showing us now is 
because that technology was employed on this particular 
operation.
    Mr. Braley. For this function that we're seeing on this 
chart, but not the other recorded data that you've described in 
your testimony.
    Mr. Newman. Not a real-time replication of the alarm logs.
    Mr. Braley. All right. Thank you.
    Mr. Stupak. Mr. Griffith, do you have questions?
    Mr. Griffith. Thank you, Mr. Chairman.
    What would have led to the discrepancy between the blowout 
protector and the plans or the diagrams of the blowout 
protector, or the differences? And if, in fact, there was a 
difference, was it a factor in whether or not this well could 
have been capped immediately?
    Mr. Moore. Congressman, do you want me to respond to that?
    Mr. Griffith. Please, Mr. Moore.
    Mr. Moore. We were first aware of those changes when we 
were in the crisis room with BP when we were trying to function 
the blowout preventer. But honestly, we do not know whether 
those would have any impact on whether the BOP would function 
under the circumstances it was put in. We just don't have 
enough information yet to know the answer to that.
    Mr. Griffith. Thank you.
    How long had the Horizon been operating?
    Mr. Newman. The Deepwater Horizon went into service in 
2002.
    Mr. Griffith. So it's been operating safely for a good 
while?
    Mr. Newman. The Horizon has drilled approximately 72 wells 
over that eight-year history.
    Mr. Griffith. And at the ocean floor, at about 5,000 feet, 
which is approximately 1 mile, you continued down another 
13,000 feet, another 2.5 miles to the reservoir; is that 
accurate?
    Mr. Newman. That is an accurate description of the well 
geometry, yes.
    Mr. Griffith. So this rig has had an exemplary safety 
record in a sense as far as its ability to drill and recover 
natural resources; is that fair?
    Mr. Newman. I think that is a very fair assessment, 
Congressman. The Deepwater Horizon had a seven-year history 
with no loss time accidents. The Deepwater Horizon, in its 
past, set the record for deepwater operations for a semi-
submersible. And the Deepwater Horizon currently holds the 
record for the deepest well ever drilled in the industry.
    Mr. Griffith. So we've got a piece of engineering that has 
been fairly successful. And so as we hear testimony and 
questions about what red flags went up as the gentleman 
referred to an oxygen saturation. Over a period of years, the 
safety mechanisms and the correction mechanisms on this piece 
of equipment, or this well, have been significantly tried and 
found to be successful in most cases. And I guess my question, 
or my statement, would be that there is probably going to be a 
series of facts that all came together at a certain time that 
led to this tragedy.
    And we, of course, are well aware of how things can happen 
after the fact and we can point fingers and, goodness gracious, 
America has lived through 9/11 to go back over all the things 
we could have done to keep that from happening. Things seem to 
have happened all at an opportune time and the stars lined up. 
So we're really interested in your future as far as drilling is 
concerned, and what is being done on other wells around the 
Nation and internationally to double-check and see if all our 
proper safeguards are in place?
    Mr. McKay.
    Mr. McKay. I can say that in our international rig fleet, 
we have notified and increased the scrutiny under the--on the 
blowout preventers, we've incrementally added some testing to 
it to make sure the ROV on board the ships will be able to 
actuate the blowout preventer, should it need to. And we've 
recommended, and given some ideas to the MMS on what maybe 
could be considered to enhance at least preparation and testing 
around these things.
    Mr. Griffith. In the reservoir that you were tapping into, 
the dynamics, the hydraulic and the fluid dynamics of that 
reservoir, do those change significantly over time as pressures 
change, or is that pretty well a known and constant fact, or is 
it a variable on a day-to-day basis?
    Mr. McKay. On this particular reservoir?
    Mr. Griffith. Yes.
    Mr. McKay. This particular reservoir, we don't have much 
data on it. Generally, reservoirs are different at different 
depths and different pressures so you can encounter them in 
different ways. The characteristics of this reservoir is 
difficult because we don't have any measurements on it in terms 
of pressure. But just so everyone understands, it was not a 
particularly difficult well in the sense of its pressure. It 
was not a very much overpressured well.
    Mr. Griffith. Thank you, Mr. Chairman. I yield back my 
time.
    Mr. Stupak. Ms. DeGette for questions, please.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    Mr. Probert, I was a little curious, listening to your 
opening statement, that you felt compelled to respond to my 
opening statement when I talked about the MMS study that said 
nearly half of all blowouts in the Gulf since 1992 were due to 
faulty cementing. The good news, you said, is only one of those 
incidents occurred in water depths over 400 feet. So I've got a 
couple questions.
    First of all, how many of the wells drilled in the Gulf 
over this period were at depths over 400 feet?
    Mr. Probert. I think if I can provide some clarity to 
that----
    Ms. DeGette. No, I'd like a short answer, please. How many 
wells were over 400 feet?
    Mr. Probert. I don't have that data. That data is available 
from the MMS, though. If you would like me to get it, I will 
get it.
    Ms. DeGette. Was it many of them or few of them?
    Mr. Probert. I do not know without reference to----
    Ms. DeGette. You don't know. So are you saying that since 
there was only one blowout incident at depths of over 400 feet, 
you think there is no risk for cementing for deepwater 
drilling?
    Mr. Probert. No. I think what I was trying to point out, 
because the subject of our study here clearly is deepwater Gulf 
of Mexico, I was trying to provide a reference point for the 
committee with respect to the data which the MMS has provided 
to us----
    Ms. DeGette. So what you're saying is that there still 
could be a risk, that it's not just because it's over 400 feet, 
right?
    Mr. Probert. I'm sorry?
    Ms. DeGette. You're saying that there still could be faulty 
cementing over 400 feet, yes or no?
    Mr. Probert. I am simply replying to----
    Ms. DeGette. Yes or no?
    Mr. Probert. No, I am simply replying to----
    Ms. DeGette. Thank you. Now, are you arguing that cementing 
is actually safer at offshore wells with depths over 400 feet?
    Mr. Probert. I'm sorry, I didn't understand your question.
    Ms. DeGette. Are you arguing that cementing is actually 
safer at offshore wells with depths over 400 feet?
    Mr. Probert. I would say the information would suggest 
that, yes.
    Ms. DeGette. It is safer?
    Mr. Probert. According to the statistics, yes, from the 
MMS.
    Ms. DeGette. Because there have been few leaks?
    Mr. Probert. No. It's a function of the depth of the water 
and what causes and how the well construction processes are 
undertaken between deep water and shallow water.
    Ms. DeGette. OK. So you don't think we should then worry 
about the cement at the deeper water?
    Mr. Probert. That is not what I said.
    Ms. DeGette. OK. And I do agree with you on one point. The 
point I agree with you on is there are very few accidents, and 
that's the good news. But the bad news is that if there is an 
accident in this case, if there is faulty cement, if there are 
other problems, then the results of that are catastrophic. 
Would you not agree with that? Yes or no?
    Mr. Probert. To the extent that cementing was an issue, if 
you're referring to this particular incident----
    Ms. DeGette. Would you agree that if there is a leak, that 
the catastrophic results are such that even though there are 
very few accidents, we should try to avoid those, yes or no?
    Mr. Probert. I do not agree with your assertion, no.
    Ms. DeGette. You don't agree with that. OK.
    So it's a risk that we should be willing to take?
    Mr. Probert. I'm sorry that I'm not getting--you'll have to 
restate your question.
    Ms. DeGette. Well, let me move on then.
    You said that both positive and negative pressure tests 
were conducted on the cementing job in your testimony. Several 
experts have stated that a cement bond log test might have 
additional indicated additional weaknesses such as that the 
cement had not hardened properly. So I want to ask you, was a 
cement bond log test conducted at this well, yes or no?
    Mr. Probert. To the best of my knowledge, the----
    Ms. DeGette. Yes or no?
    Mr. Probert. Well, to the best of my knowledge, the well 
owner did not request a cement bond log.
    Ms. DeGette. No. Is it true that a cement bond log would 
provide assurance of the integrity of the cement bond?
    Mr. Probert. The cement bond log is certainly the only 
realistic way of assessing the bond of----
    Ms. DeGette. So that answer would be yes, correct?
    Mr. Probert. Correct.
    Ms. DeGette. Mr. McKay, is it BP's standard practice to 
only use basic pressure tests to evaluate a cement job?
    Mr. McKay. I can't speak directly to this particular well, 
but what I can say is cement bond----
    Ms. DeGette. I didn't ask you, I asked you your standard 
practice. Is it BP's standard practice to only use basic 
pressure tests to evaluate a cement job?
    Mr. McKay. I believe every well is engineered individually, 
so I can't answer a standard practice for this type of well.
    Ms. DeGette. So your answer is you don't know?
    Mr. McKay. Can I check with my technical expert?
    Ms. DeGette. Absolutely. And Mr. Chairman, if he could 
supplement his answer, I would appreciate that.
    Mr. McKay. Cement bond logs are not required on every well. 
They are utilized when there is an indication of a problem.
    Ms. DeGette. Why did BP not pay for a bond log test on this 
well?
    Mr. McKay. Because the better way to test are positive and 
negative tests. A bond log is an inference of bond, not an 
actual test of bond.
    Ms. DeGette. OK. Thank you very much.
    Mr. Stupak. Thank you, Ms. DeGette.
    Ms. Sutton for questions, please.
    Ms. Sutton. Thank you, Mr. Chairman. I have a lot of 
questions, so please stick to the question, and if you don't 
know the answer, just say I don't know and we'll move on.
    What was BP's operating budget in 2009?
    Mr. McKay. Operating budget where, worldwide?
    Ms. Sutton. Sure, worldwide.
    Mr. McKay. We spent about $20 billion in investment 
capital.
    Ms. Sutton. And what percentage of that 2009 budget was 
devoted to safety and preventative measures related to 
deepwater spills, do you know?
    Mr. McKay. I don't know.
    Ms. Sutton. OK. How much does BP invest in research and 
development in the management of deepwater spills; do you know 
that?
    Mr. McKay. I don't have a number.
    Ms. Sutton. OK. How many deepwater wells does BP operate in 
the Gulf?
    Mr. McKay. I don't know the number of wells, but quite a 
few.
    Ms. Sutton. Well, quite a few is a very vague term. Can you 
give us any indication?
    Mr. McKay. Can I give you an indication? There's been 
several thousand deepwater wells drilled in the world, and 
we've been in about 30 percent of them.
    Ms. Sutton. OK. And how many on the Outer Continental 
Shelf, do you have a better idea there?
    Mr. McKay. We are only in the deep water on the Outer 
Continental Shelf.
    Ms. Sutton. How many of those deepwater wells are operated 
by platforms leased from Transocean?
    Mr. McKay. Currently, we have three Transocean rigs 
working.
    Ms. Sutton. OK. What actions have been taken currently to 
ensure that this is not a systematic failure in regard to the 
operations of the platforms in a similar situation?
    Mr. McKay. What we've done, as I said earlier, we've 
instituted some tests, incremental tests on blowout preventers, 
and we've asked for any modifications that may have been made 
in the history or the problem of the blowout preventer?
    Ms. Sutton. OK. So testing and asking about modifications, 
that's the sum total.
    OK. What is your spill response capability right now on the 
Outer Continental Shelf? I know we heard a little bit of 
discussion about this, but----
    Mr. McKay. We have 300 skimmers and other professional 
vessels first response to operating. We have 1 million feet of 
boom deployed. We have 2.4 million being staged or accessed 
around the coast. And we have a supply chain being ramped up to 
be able to sustainably supply 200,000 to 300,000 feet a week.
    Ms. Sutton. OK. What blowout safety devices do you have on 
the oil rigs in the North Sea?
    Mr. McKay. I have not worked in North Sea in a long time, 
but similar blowout preventers for the water depth condition 
and the reservoir conditions that are utilized in the North 
Sea.
    Ms. Sutton. Well, when you say similar, that's different 
than the way I understand it, so I'd like a little 
clarification because my question would be, why don't we use 
the same thing in the Gulf? So clarify that for me.
    And what is your contingency plan for these wells in the 
depth of the water if the depth of the water causes a question 
of how to stop the leak? What is the contingency plan? We have 
heard a lot about things we are trying now, but what is the 
contingency plan?
    Mr. McKay. We have a spill response plan that's filed with 
the government and it sits underneath the national contingency 
plan and the one gulf plan. That indicates the equipment that's 
around the Gulf Coast to be utilized and new priorities, and 
the organizational structure to utilize. That has formed the 
foundation of this, and it was approved last June, 2009.
    Ms. Sutton. Will BP now keep Koffer Dams on the coasts of 
all their platforms to increase the response time in the face 
of such a disaster?
    Mr. McKay. I think as we learn the lessons from this, I do 
think there will be subsea intervention capability that will 
need to be looked at for the industry as well as ourselves, 
yes.
    Ms. Sutton. OK. Mr. McKay, BP has stated--and I think you 
did hear today--that you will pay for all legitimate claims 
resulting from the spill. What does BP define as a legitimate 
claim?
    Mr. McKay. We have been very clear that we will pay for all 
legitimate claims. And legitimate claims are folks who are 
impacted or business that are impacted and there is a 
substantiation of impact. And that is a legitimate claim.
    Ms. Sutton. So does that include the loss of profits for 
fishing and tourism?
    Mr. McKay. Yes.
    Ms. Sutton. And will BP commit to exempting itself from any 
cap and their financial responsibility for damages resulting 
from this spill?
    Mr. McKay. Yes, we've talked. No cap.
    Ms. Sutton. BP has stated that they are very positive that 
the relief wells will work. Do you concur, that's what they 
said?
    Mr. McKay. Yes, we're confident that they will work.
    Ms. Sutton. OK. How many attempts did it take for the 
relief wells drilled in the Montara spill to work?
    Mr. McKay. I am not familiar with the details of that. I've 
heard multiple relief wells.
    Ms. Sutton. Four, I believe. Does BP expect to have the 
same difficulty and delays in drilling the relief well for a 
far deeper well? You can understand why I ask the question.
    Mr. McKay. We do not expect that, but we have the capacity 
to sidetrack these wells. They are set up to be able to have 
multiple attempts.
    Ms. Sutton. And as I said, Mr. Chairman, I have a lot more 
questions for the rest of our presenters and I will hold them 
for the second round.
    Mr. Stupak. Very good. We will be going a second round.
    Ms. Schakowsky for questions, please.
    Ms. Schakowsky. Time was a critical element in this 
disaster. It's possible that a rapid response on the deck of 
the rig could have prevented the catastrophe that continues 
today and a faster response by BP and Transocean might have 
reduced the size of the leak or cut it off faster.
    We learned during the course of our investigation that, 
again, the critical modifications--we've talked about 
modifications--to the blowout preventer may have delayed 
significantly the response and might have been responsible for 
the failure of the device.
    Mr. McKay, your company documents describe modifications 
that were made to the blowout preventer device. We were told by 
James Dupree, who runs your Gulf of Mexico operations, that you 
found major modifications to the system, in one case, a module 
that was supposed to be connected to a critical piece of 
equipment called a bore ram--that is designed to seal tight any 
piece of pipe in the well--was instead connected to a test ram 
that does not function in an emergency situation.
    Do you agree with that finding?
    Mr. McKay. I was not in that review, but I know that's what 
Mr. Dupree said, and he should know, yes.
    Ms. Schakowsky. So, yes?
    In another case, two independent controls for rams were 
wired into a single control, possibly increasing the risk of 
failure. Is that correct?
    Mr. McKay. If that's what Mr. Dupree said, that's what he 
discovered with Transocean and Cameron and other folks in the 
intervention.
    Ms. Schakowsky. My understanding is that because of these 
modifications, you lost nearly 24 hours attempting to activate 
the controls on the bore ram; is that correct?
    Mr. McKay. We discovered leaks and other things, the 
modifications that didn't match the drawings, as we were doing 
these interventions and it did delay things, yes.
    Ms. Schakowsky. So a useless test ram--I am quoting now 
from the chairman--not the variable bore ram had been connected 
to the socket that was supposed to activate the variable bore 
ram. So this was a useful test ram that you spent 24 hours 
trying to get at, right?
    Mr. McKay. If that's what Mr. Dupree said.
    Ms. Schakowsky. So my understanding that this time is 
essential in an emergency response like this, when oil and gas 
are surging through the blowout preventer, it acts like a 
sandblaster I'm told, and can degrade the rubber seals on the 
bore ram. If you can't activate it quickly, the seals may not 
function properly; is that correct? And could this delay have 
an impact on the response?
    Mr. McKay. I think that is a question for Mr. Moore or Mr. 
Newman. I don't know.
    Ms. Schakowsky. Mr. Moore, you made the blowout preventer. 
Is it true?
    Mr. Moore. Correct. Depending on what's flowing through 
that well, it could have abrasive materials that could take the 
elastomer elements and destroy them.
    Ms. Schakowsky. So a 24-hour delay allowing the sand and 
stuff to come out could do that?
    Mr. Moore. Depending on what's in it. I'm not aware of what 
materials are in the flow area, so it would depend on what's in 
it.
    Ms. Schakowsky. But it could.
    Mr. Moore. It could.
    Ms. Schakowsky. So Mr. Newman, no one on this panel has 
actually owned up to making mistakes during this hearing, but 
the failure to connect the bore ram to the control module, that 
seems like a mistake to me. Do you agree that this was a 
mistake, and that you are concerned about possible implications 
of the mistake on the response?
    Mr. Newman. If I could clarify your question, 
Congresswoman.
    Ms. Schakowsky. I think it was a pretty clear question. Is 
this a mistake that was made that the bore ram was not 
connected to the control module; is that a mistake?
    Mr. Newman. In the original configuration, when the BOP 
system was delivered from Cameron, the ROV port was connected 
to the lower-most ram cavity. It is, today, connected to the 
lower-most ram cavity.
    Ms. Schakowsky. Was it a mistake that it was connected to a 
useless--in this case, useless test ram in terms of preventing 
the disaster? This is a very simple question. Someone clearly 
made a mistake. Was this a mistake?
    Mr. Newman. In the event that the ROV port is connected to 
the lower-most ram cavity and the lower-most ram cavity is 
outfitted with a BOP test ram, that will not serve to restrict 
or seal off the flow of hydrocarbons from the well.
    Ms. Schakowsky. So in that case, having it connected to 
that, would that be a mistake?
    Mr. Newman. It would be a mistake to rely on that in a well 
controlled situation, yes.
    Ms. Schakowsky. Thank you.
    So I have very serious concerns about the modifications 
that were made. Transocean has made modifications to the 
blowout preventer and could not provide BP with accurate 
specifications when it matters most. We don't know yet if these 
modifications actually caused the failure, but what we do know 
is that they caused delays in trying stop the oil spill and 
identify its cause, which is very, very serious.
    Thank you, Mr. Chairman.
    Mr. Stupak. That concludes questions of all the members of 
the subcommittee. There are members of the full committee who 
have been here and we appreciate them being here throughout 
this hearing. We will turn to them for questions before we 
start round two. We do plan on doing round two of questions.
    Mr. Scalise for questions, please, 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman, as well as Ranking 
Member Burgess, for allowing me to ask questions to the panel.
    We, of course, all in south Louisiana are fighting every 
day to not only do what we can to urge and push BP and all the 
parties involved to stop this oil from leaking into the Gulf of 
Mexico, but also to prevent it from coming into our marshlands 
and our seafood beds that are such a vital part of Louisiana's 
culture. And clearly, as we look at all of the things that are 
involved in the working coast that the Gulf of Mexico and south 
Louisiana is, it's not just an area where 80 percent of all the 
continental drilling and exploration is done for the United 
States, but it's also an area where many people make their 
livelihoods in the seafood industry, and that's all at risk 
right now.
    And it's another reason that it really underscores why 
those of us in south Louisiana have been pushing to get our 
fair share of royalties. We don't get that same share of 
royalties for the drilling that's done off of our coast as 
every other state gets, and this is a glaring example of why 
it's so critical that we do get to finally participate in the 
revenue sharing and not wait until 2017, but do that 
immediately because this has an impact on our livelihood.
    I have a number of questions for the panel that I am going 
to get into. I also have a number of questions for MMS, which I 
wish we had the opportunity to ask as well. We had a closed 
hearing where they were asked some questions, but unfortunately 
they've never participated in any public hearing. I've asked 
them for a number of documents that they've yet to get me on 
exemptions that have been granted on various processes related 
to the Horizon, as well as other exemptions that they've given 
in the past.
    But let me ask you, Mr. McKay, can you tell me how many 
exemptions were requested for all the activities related to 
this well and how many were granted by MMS?
    Mr. McKay. I'm not sure I know what you mean by exemptions.
    Mr. Scalise. Exemptions to various processes. It's my 
understanding that you were given exemptions on environmental 
impact studies.
    Mr. McKay. Can I explain that real quick? The categorical 
exclusion that's talked about is because environmental impact 
statements have already been done. They're done with the lease 
sale by the government.
    Mr. Scalise. So did you not get an exemption on that?
    Mr. McKay. You file for a categorical exclusion because 
those environmental assessments have been done, yes, and we 
did----
    Mr. Scalise. So you did file for that and you were granted 
that by MMS?
    Mr. McKay. Yes.
    Mr. Scalise. OK. Were there any other exclusions or 
exemptions that you filed through MMS for this particular well?
    Mr. McKay. Not that I know of, but I may not know of 
everything.
    Mr. Scalise. And as you find out any of them, please get 
those to me. I have asked that same information from MMS, I 
have yet to receive it. So hopefully they will be forthcoming 
in that as well.
    Mr. Moore, the BOP, that is so in question here, there have 
been a number of studies done. I've got a study that goes back 
to 1999 that was performed for MMS. There is another study in 
2004 that was done for MMS that describe various problems with 
blowout preventers, not just in the Outer Continental Shelf, 
but also looking at other places around the world where they 
are used in deep water. Are you familiar, first of all, with 
these studies?
    Mr. Moore. Our teams are familiar with those studies, yes.
    Mr. Scalise. Have you all made any changes in the design of 
the blowout preventer over the years as these deficiencies have 
been identified?
    Mr. Moore. Well, most of those reports cover the results of 
testing in the field, which is very regimented, and its 
component failures that would result from--it could be 
maintenance, it could be just the life of--you've got a blowout 
preventer that has over 100,000 moving parts. They do, from 
time to time, have to be serviced and replaced. So that's what 
those testing of components----
    Mr. Scalise. Serviced and replaced, but in terms of 
design--and let me read you one section. This is the 1999 study 
on page 13. It said, ``It was decided not to pull the BOP to 
repair the failure after MMS had granted a waiver. The failures 
in question were typically failures in components that were 
backed up by another component in the BOP stack.''
    So what it seems to indicate is, because there are multiple 
redundant systems, if they found a problem in the BOP they 
would just say, well, there's other redundancies, so don't 
worry about that problem because something else will catch it. 
That doesn't seem to me to be a good process to handle a 
problem with a BOP, if you've got five redundant systems and 
one of them fails to say, well, we've got four others. It seems 
to me you would go and fix that problem.
    Mr. Moore. Well, I think those problems are repaired when 
the stacks are put back to surface if it's a deepwater stack.
    Mr. Scalise. It didn't seem to be the case in this one, but 
I'll move on to my next question.
    I will move on to--whether it's Mr. Newman or McKay. How 
many times were operations shut down on the BP Horizon, the 
drilling that was done on the Horizon in relation to this well? 
Do you know how many times operations were shut down because of 
various problems? I will start with Mr. Newman and then ask Mr. 
McKay.
    Mr. McKay. Ever?
    Mr. Newman. During the life of the Mississippi Canyon 252 
well, I don't have a record of how many times operations were 
suspended.
    Mr. Scalise. Mr. McKay.
    Mr. McKay. I'm sorry, I don't know.
    Mr. Scalise. Well, let me ask you about a few specific 
problems.
    There was a story in The Times Picayune, New Orleans 
newspaper, yesterday that goes into detail, they actually 
started interviewing some of the people that were working on 
the well, talked about problems that go back to weeks prior to 
the explosion. They said, A constant theme is that gas kicks 
were more frequent in this oil field than others that the crews 
had worked on and members were concerned. ``One gas kick that 
occurred as they got down towards the bottom of the hole 
approximately 10,000 feet below the floor had such a large kick 
that they had to shut down operations. They were concerned 
about spark sources on the rig at the surface, so they had to 
shut it down because there was so much gas coming out of the 
rig and they were afraid of the explosion.
    Now, are you familiar--that was, according to this report, 
a few weeks prior to----
    Mr. Stupak. Mr. Scalise, this will have to be your last 
question.
    Mr. Scalise. Do you know about that shutdown, and can you 
give me a list of all of times that this rig was shut down due 
to various problems prior to the explosion?
    And thank you, Mr. Chairman.
    Mr. Stupak. We will look forward to information at a later 
time. And you may want to put that in writing because we will 
have 10 days after this hearing to submit further questions in 
writing.
    Now a member of subcommittee, Mr. Green, for questions, 5 
minutes, please.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Newman, it has recently been reported that some of the 
Transocean workers that were rescued from the drilling platform 
were told to sign statements denying they were hurt or 
witnessed the blast before they were allowed to contact their 
families and leave and literally were just rescued. 
Additionally, in Mr. McKay's testimony, he mentions how BP is 
speaking to those witnesses saying they have ``access to.'' Can 
you comment on the statements that these employees were forced 
to take and is there a copy we could see?
    Mr. Newman. We absolutely will provide the copy of the 
statements. And I can categorically deny that they were forced 
to sign.
    Mr. Green. Well, we're just going by press reports, that's 
why you all are here today. And believe me, we know sometimes 
it's not always accurate.
    Will Transocean make all these workers that were on the rig 
at the time of the explosion fully available to investigators?
    Mr. Newman. Congressman, we want to understand what 
happened just as badly as Congress does, and we will make 
anything available that will help in understanding what 
happened.
    Mr. Green. OK, I appreciate that.
    Mr. Newman, Halliburton maintains that their sea personnel 
were instructed to record the drill pipe pressure test, but 
that the drilling operator told them that the negative pressure 
test had already been completed and they were put on standby. 
The drilling contractor then proceeded to displace the riser 
with seawater. Is it common for the drilling contractor to 
perform the duties of the subcontractor, and why did it happen 
in this case?
    Mr. Newman. I don't believe that the drilling contractor in 
this case, Transocean, performed the duties of any other 
subcontractor.
    Mr. Green. OK. Mr. McKay, in your testimony, you 
acknowledge that BP, as one of the leaseholders and the 
operator of the exploration well, has acknowledged its 
responsible and will clean up and will pay all legitimate 
claims. And I know just from experience, nobody can afford to 
drill those wells without partners. There has been a report in 
the press that other minority leaseholders Anadarko and Mitsui 
oil exploration; is that correct?
    Mr. McKay. That is correct.
    Mr. Green. OK. Mr. Probert, you said that contrary to early 
reports, the final cement plug in the well was not set and the 
plug would have been the final barrier before the well would 
have been temporarily suspended; is that correct?
    Mr. Probert. That's correct. It would have been necessary 
to set that plug before the blowout preventer could have been 
removed and the well secured.
    Mr. Green. And you said that the Deepwater Horizon rig met 
or exceeded the number of safety devices required by the 
Federal Government, including an independent method of making 
the blowout preventer function correct. Is that correct? The 
method of making the blowout preventer function.
    Mr. Probert. I think that may be best directed at Mr. 
Newman.
    Mr. Green. OK. Mr. Newman.
    Mr. Newman. The blowout preventer and the BOP control 
system on the Deepwater Horizon were fitted with a number of 
methods of activating the BOP. Manual activation from the rig, 
and where the regulations required two independent stations, 
Horizon was actually fitted with three independent stations. In 
addition, to manual activation, the blowout preventer control 
system on the Horizon was fitted with two automatic response 
systems, one of which the industry refers to as a dead man, and 
the other one is referred to as an auto share. Those are two 
systems under certain conditions the BOP will automatically 
respond. And the BOP was also fitted with ROV intervention, 
remote operated vehicle intervention.
    Mr. Green. OK. And I understand there are lots of 
redundancies. Also, the benefit of representing east Harris 
County, I have lots of unofficial consultants who are chemical 
engineers, and there are lots of redundancies built in. And you 
confirmed that the blowout preventer device, that it was 
supposed to shut off the oil flow on the ocean floor, but it 
did fail.
    Mr. Newman. It has not been effective in shutting off the 
flow.
    Mr. Green. OK. Thank you.
    And then you go on in your testimony to say that there's no 
reason to believe that the blowout preventer wouldn't work, and 
there might have been clog by debris shooting up from the well; 
is that correct?
    Mr. Newman. I believe that's a possibility that needs to be 
investigated.
    Mr. Green. Now I understand your argument that the well has 
been sealed with casing and cement, and within a few days the 
blowout protection would have been removed. And according to 
you at that point, the well barriers, the cement and casing 
were responsible for controlling any pressure from the 
reservoir, so the BOP's failure could not be held responsible; 
is that a statement you made?
    Mr. Newman. The ineffectiveness of the BOP to control the 
flow was not the root cause of the event.
    Mr. Green. OK. So the cement plug would have to be set 
before the blowout prevention could be removed.
    Mr. Newman. Setting a cement plug is a normal process of 
abandoning the well.
    Mr. Green. OK. And I know it's too soon to know exactly 
what happened with the blowout prevention, but there are lots 
of redundancies. And again, this is not the first well we've 
drilled in deep water in the Gulf of Mexico. And some folks I 
know in the industry maintain that even with the debris, the 
blowout protection should have still worked, after all, it's a 
secondary means of controlling pressure if it the drilling mud 
is inadequate. Is that generally correct, it should have 
worked, the blowout preventer?
    Mr. Newman. Provided that the BOP was asked to function 
within its designed specifications, there is no reason to 
believe that it would not have worked within its design 
specifications.
    Mr. Green. OK. Mr. Cameron, would you like to comment?
    Mr. Moore. I would agree with his comments.
    Mr. Green. Thank you, Mr. Chairman, for your time.
    Mr. Stupak. Thank you, Mr. Green.
    Mr. Newman and Mr. McKay, Mr. Scalise had asked a question, 
the minority would like to see if you guys can answer it.
    His last question was, 6 weeks ago, according to The Times 
Picayune newspaper, that 6 weeks ago there was a gas kick and 
the operations were shut down. Do you have any information on 
that shutdown when you had the gas kick about six weeks ago?
    Is that a fair assessment of your question?
    Mr. McKay, do you have any information on that?
    Mr. McKay. I'm not aware of that, but we will get the data 
to the committee.
    Mr. Stupak. Mr. Newman?
    Mr. Newman. I'm not familiar with the specific 
circumstances of that particular incident.
    Mr. Stupak. OK. Then I would next turn to Mr. Stearns for 
questions as a member of the full committee, 5 minutes, please.
    Mr. Stearns. Mr. Chairman, thank you very much for allowing 
me to participate even though I'm not on the subcommittee.
    Mr. McKay, I'm just going to ask you a basic question. I 
was down there and we saw that the Sombrero did not work and we 
saw that you started the slant drilling. Here is a basic 
question; when will you cap that well? What is your best guess?
    Mr. McKay. We have multiple efforts underway. I can't give 
you a deterministic--we have multiple efforts that we are 
working simultaneously.
    Mr. Stearns. Well, are you going to cap in it in 90 days? 
Yes or no?
    Mr. McKay. I believe the relief well will be down in 
roughly 90 days.
    Mr. Stearns. So you think you'll cap it in 90 days with the 
slant drilling?
    Mr. McKay. With the relief wells, or sooner with other 
methods.
    Mr. Stearns. What other methods?
    Mr. McKay. We're still working on the blowout preventer 
itself and trying to do a top skill, which could be successful. 
But we are also trying to get a containment system subsea----
    Mr. Stearns. So your best guess is within 90 days that you 
will close this rig of the evacuation of all the gasoline; 
that's your best guess.
    Mr. McKay. I believe that or better.
    Mr. Stearns. Now you're in a room all alone, just you and 
the Governor of Florida, and he asks you this question, he 
says, when is your best estimate of when it will hit the 
Florida coast, what would you say?
    Mr. McKay. I don't have any estimates of it hitting the 
Florida coast. I don't know.
    Mr. Stearns. Do you think it will ever hit the Florida 
coast in these 90 days that you predict that they will be 
closing the oil?
    Mr. McKay. I don't have a way of predicting that. All I can 
say is that we're trying get a containment system in so that 
that oil is collected before----
    Mr. Stearns. Well, let's take a worst case scenario. As I 
understand, the wind doesn't have an impact, it's basically the 
current. Is there a worst case scenario where it could hit the 
Florida coast?
    Mr. McKay. That is a possibility. That's why we are 
organizing to be able to do it----
    Mr. Stearns. Let's say it's a possibility. If you had to be 
a betting man, would you say it would hit the Florida coast in 
90 days?
    Mr. McKay. I'm not speculating on that. We're doing 
everything we can to make sure it doesn't.
    Mr. Stearns. A constituent sent me a little video, it 
showed a large basin of water, and they poured oil into it. 
They took blue hay and other types of hay and they dropped it 
into it, and in about 1\1/2\ minutes it absorbed all of the oil 
in the basin of water.
    What is the possibility--can you drop hay in the area, they 
take the hay out, and then it becomes fuel. Why couldn't you 
have just dropped something to absorb all that oil instantly to 
give you more time to make decisions? Have you ever thought of 
that?
    Mr. McKay. Yes. Some of that absorbent-type material will 
be used in the near shore and the beach area.
    Mr. Stearns. Yes, but you could have dropped it right on 
the site, then take barges out, pick it all up, it absorbs all 
the oil off the top, and then you could have made the oil into 
things that you could actually burn. Had that ever occurred to 
you folks?
    Mr. McKay. We are in the Unified Area Command with the 
Coast Guard, and I don't believe that is as scalable as it 
needs to be for the farthest offshore.
    Mr. Stearns. If it was a good idea, do you need the Federal 
Government to approve it or can you do it on your own?
    Mr. McKay. Well, we work together with the Federal 
Government under the Unified Area Command and every decision is 
authorized by the Unified Area Command.
    Mr. Stearns. In tab 11 of page 7-1, in its application to 
explore to site, BP--do you want to get that tab, or do you 
just want me to read it to you? It reports it has the 
capability to respond to spills of 300,000 barrels per day. 
This is you folks telling us that you have the capability to 
respond adequately to spills of 300,000 barrels a day. It's on 
page 7-1, section 7.0. This is our oil spill information graph 
worse case scenario--this is you talking, worse case scenario--
and you say volumes uncontrolled blowout per day, 300,000 
barrels per day. Is that correct, the information in here? Do 
you still stand by?
    Mr. McKay. I see that.
    Mr. Stearns. OK. What is the current spill per day today?
    Mr. McKay. The current estimate is 5,000 barrels a day.
    Mr. Stearns. So basically that's 60 times less than you say 
the worse case scenario that you can adequately respond to; is 
that correct?
    Mr. McKay. That is the math, yes.
    Mr. Stearns. So, why are you having so much trouble 
responding to this when even by your own literature, you're 
saying you could handle up to 300,000 barrels a day, you have 
something that is 60 times less, and yet this thing is starting 
to hit the Chandelier coast in Louisiana, with a possibility it 
might even be hitting Alabama and possibly going to Florida. So 
why can't you have an adequate response even when your worse 
case scenario says you can handle up to 300,000 barrels per 
day?
    Mr. McKay. This particular incident is very difficult 
because we've got a----
    Mr. Stearns. This says worst case scenario, these are your 
words.
    Mr. McKay. The mechanical configuration of this is very 
difficult. And the relief efforts that we're doing include 
three drilling rigs that are working simultaneously to try to 
contain and stop this.
    Mr. Stearns. So you're saying today's situation is more 
than a worst case scenario that you outlined in your report to 
us?
    Mr. McKay. No, I'm not saying that.
    Mr. Stearns. Well, you see why I am puzzled why you folks 
are sitting here saying you don't have control when your worst 
case scenario said you can handle 300,000 barrels a day.
    Mr. Barton. Would the gentleman yield for a clarification?
    Mr. Stearns. Yes.
    Mr. Barton. Is the reason you think you can handle a 
300,000 barrel a day worst case because the assumption is the 
blowout prevention actually works?
    Mr. McKay. It's part of the assumption in dealing with 
this.
    Mr. Barton. Thank you, Mr. Stearns.
    Mr. Stearns. I appreciate the Chairman. The only thing I 
would conclude is that I assume in the worst case scenario that 
that would be part of the worst case scenario. So that's the 
only concern I have.
    Thank you, Mr. Chairman.
    Mr. Braley [presiding]. The chair recognizes the gentleman 
from Vermont for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    As we all know, we were told that what could never happen 
did happen. We were told that if the unimaginable happened, we 
had a fail-safe mechanism that would make certain there would 
be no harm. And of course, the tragedy is that these assurances 
proved wrong. And we are learning one of the reasons that they 
are wrong, drillers have been relying on the device known as 
the blowout preventer. And in theory, it's designed to shear 
off the pipe and completely close the well, as you all well 
know, in the event of a catastrophe like Deepwater Horizon.
    Mr. McKay, I want to quote from your testimony. You say, 
and I quote, ``The blowout preventer was to be fail-safe in 
case of an accident.'' Is that correct, you were counting on 
that blowout preventer as the last line of defense?
    Mr. McKay. That is considered the last line of defense, 
yes.
    Mr. Welch. OK. I want to ask you about that and the basis 
for that reliance.
    As you know, we received a document that was part of our 
investigation called the Blowout Preventer Assurance Analysis. 
This is something that you had, BP had. It was commissioned in 
March of 2001. The risk assessment of the blowout preventer of 
the Horizon rig identifies 260 different failure modes. In this 
it says, Specifically includes over 20 that pose high or very 
high risk on the BOP. It describes the potential failure of the 
blowout preventer to unlatch from the rise, the failure of rams 
to close, the failure to shear pipe as examples of the many 
possible, quote, high consequence failures of the blowout 
preventer. And these are exactly the type of problems that led 
to the uncontrolled leak in the Deepwater Horizon.
    So the question I have is, if BP had a report that it 
commissioned for review of the safety mechanism of the blowout 
preventer and it contains 260 failure modes, under what 
construction of the English language is a device with 260 
failure modes fail-safe?
    Mr. McKay. I'm sorry, I'm not familiar with that report. Is 
that a BP requested report?
    Mr. Welch. It's an RB Falcon Deepwater Horizon BOP 
Assurance Report that's dated March, 2001. It literally lays 
out failure modes.
    Mr. McKay. That may be a Transocean report.
    Mr. Welch. Well, we'll get that to you because what it does 
specifically outline are anticipated problems with the blowout 
preventer.
    Mr. Welch. We also learned about our critical problems with 
the blowout preventers. One problem is we understand they can't 
cut joints in the drill pipe and, as I understand it, those are 
referred to as tool joints.
    Mr. Moore, you made this blowout preventer. And let me ask 
is it correct that it was not designed to cut joints in the 
drill pipe?
    Mr. Moore. No, it is not.
    Mr. Welch. So this is not a minor risk, because we've been 
told that the pipe joints can take up to about 10 percent of 
the pipe's length. Does that sound about right to you?
    Mr. Moore. That's correct.
    Mr. Welch. So basically we have got a blowout preventer 
that won't work on 10 percent of the mechanism it's supposed to 
operate on.
    There were multiple failures that led to the disaster in 
the Gulf, and one of the most critical, obviously, was that the 
blowout preventer on the Deepwater Horizon just didn't work, 
and BP and Transocean were relying on the device as if it was 
the ultimate failsafe even though there was a report in March 
of 2001 outlining 260 separate failure modes. And obviously we 
are all now left, most importantly the folks who live in the 
Gulf region, to deal forever with the consequences of this 
catastrophe.
    Mr. Chairman, I yield back.
    Mr. Braley. The chair now recognizes the gentleman from 
Louisiana, Mr. Melancon, for 5 minutes.
    Mr. Melancon. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask some questions.
    First, let me start by saying my condolences to the 
families of the 11 victims. We are all regretful of such an 
incident. On the lighter side, Mr. Moore, I understand your son 
Daniel is engaged and I understand his friends are even 
accepting and saying he got a good catch. So being a father-in-
law a good catch is a great phenomenon even during these 
troubled times.
    I have been a pro oil and gas person here, and I want to 
thank my colleagues on both sides of the aisle that have 
refrained from saying ``I told you so'' because I have been a 
defender of offshore drilling. I think the record for shallow 
water offshore drilling speaks for itself. I think it's very 
good, it's very reliable. I think this accident demonstrates 
that maybe our government and former minerals management, in 
working with the industry, that we have to figure out what do 
we need to do to do this better because I can't in all good, 
with a good heart, encourage the continuation of deepwater 
until I know that all safety precautions are there, that all 
backup systems are there, that all systems will work under the 
conditions, whether it's depth, temperature, or whatever.
    So moving forward, I guess one of the questions I have got 
is, when you went to apply for the Deepwater Horizon and you 
received a categorical exclusion from the NEEP in 2009, what is 
the process by which you secured this exclusion? In retrospect, 
should we have looked at it even more? Was this an exclusion 
that as companies you knew you always had that option, even 
though the law said, didn't say exclusions were viable or 
acceptable? Was it a commonplace thing?
    I think that would be more for Mr. McKay and Mr. Newman.
    Mr. McKay. To the categorical exclusion that relies on the 
environmental impact statements that the MMS and the government 
has done for the lease sale itself and smaller areas within 
that lease sale, an environmental assessment is done 
specifically for those areas by the government, and the 
industry generally uses those environmental assessments in 
their permit and files an environmental statement with those. 
So it's used, it's common, yes.
    Mr. Melancon. Is that where as I understand it the comment 
came that we are 50 miles off, we will have no impact, because 
as you know my concern is the estuaries and the marshlands of 
south Louisiana that I grew up hunting and fishing in, and 
while my heart is heavy, I know those folks that make their 
living and actually live in those marshes, the frustration, the 
helplessness that they are feeling. So should that have been, 
in good conscious, something that, is that a negotiated thing 
between the companies and MMS?
    Mr. McKay. No. It's not negotiated. I think through all of 
this we are going to learn a lot and need to look at the 
qualifications and the regulations and the permits that are 
required to do work. I will acknowledge that. This is not 
something that is unusual. It's utilizing environmental 
assessments that have been done, and it's in a conventional 
sense. Conventional sense may not be right, unfortunately.
    Mr. Melancon. As I said, I guess at the depth, and we have 
got a whole new animal we are dealing with and we need to do to 
know what it is and better.
    Mr. Chairman, I guess my question to the chair would be is 
there some method--my concern right now, especially after what 
happened in Colorado I think a year or so ago, brought to light 
with MMS some ability for the committee to get an independent 
auditor, investigator, inspector general or something to look 
into how we do this and to make some recommendations so that 
this never happens again to anyone in this country, much less 
this world. We are the United States, and I would have thought 
if this was going to happen it would have been in maybe a South 
African continent or some third world country that just looked 
the other way or said, if there is still such a thing, and I'm 
sure there is, as kickbacks but that would have happened there 
and not here in the United States. And of course having come 
through Katrina, Rita, Gustav, Ike and now Horizon, it's just I 
guess the anxiety is building on south Louisiana as though 
there is a bull's eye on us.
    And I'm running out of time. I have one other quick 
question but thank you very much I turn back my time.
    Mr. Stupak [presiding]. Thank you, Mr. Melancon. This is 
the first of many hearings we will have on this issue and all 
avenues will be explored.
    Mrs. Blackburn, 5 minutes for questions, please, member of 
the subcommittee.
    Mrs. Blackburn. Yes, thank you, Mr. Chairman. I appreciate 
that.
    And Mr. McKay, I wanted to talk with you on a couple of 
things. One, people that have come down from the Federal 
Government, do they have an understanding of offshore drilling? 
Do they have any real world experience in that that has proven 
helpful or have you had to kind of give them a tutorial or an 
understanding of that process?
    Mr. McKay. Well, I think it's in different categories for 
different folks. A lot of people are learning a lot about the 
oil business and the technology and issues that are being dealt 
with. Coast Guard, obviously we drill with the Coast Guard. 
They have been involved in lots of things in the Gulf Coast 
around the oil business for many, many years, so they are very 
familiar with what they are doing. Other government agencies, 
the MMS, are very familiar with what we're doing obviously. 
Other government agencies are learning to be honest, learning 
and understanding and trying to help.
    Mrs. Blackburn. I also want to ask you very quickly because 
we have limited time, and if you want to do some of this and 
submit it in writing, that's fine, your protocol for capping a 
well, if you can just step through that and was that protocol 
explicitly followed in this case?
    Mr. McKay. I think we will need to get back to you as part 
of the investigation, what was the procedure, how valid was it, 
would it have worked, the design, et cetera, then was it 
followed correctly and then what decisions were made critically 
between when some of the signals were that we may be in a well 
control event.
    Mrs. Blackburn. And then on the controlled burns. I know 
you started some of the controlled burns and there were some 
days the weather wasn't good. How much did you--how many days 
did you use the controlled burns? If you eliminated those, why 
did you make that decision?
    Mr. McKay. It's weather dependent, and it's been used when 
the weather permits, and we think it's a very valid tool, and 
we are trying to use it when we can but we have not had the 
weather available to use it as much as we would like.
    Mrs. Blackburn. OK. And let's see, Mr. Moore, the BOP 
system that you discussed, what is the best secondary BOP 
system? You talked a little bit about what you had developed, 
then what is the best secondary system? How often is it used? 
Is there anything else for a well that has a history of 
producing a lot of gas, like it's my understanding that this 
one did. And what is the best secondary or alternative plan for 
that?
    Mr. Moore. Other than using a BOP?
    Mrs. Blackburn. Yes.
    Mr. Moore. I know of no other one. There are several ways 
to control a well obviously when it's being drilled through 
various processes. Mud is obviously the biggest one.
    Mrs. Blackburn. So what you're saying is what was being 
used is considered the best and the only way to address this?
    Mr. Moore. I think there are numbers of ways to control the 
flow of a well when you're drilling it. As I said mud systems 
are the most, I think most common. BOPs are put in a situation 
where they must close on a flowing well when certain controls 
are lost. And provided they are maintained, provided that they 
are activated, and provided there is nothing put into the flow 
path that it can't close on, they are pretty reliable, very 
reliable.
    Mrs. Blackburn. And Mr. Newman, I had one question for you. 
When the explosion first occurred, were your SWAT teams 
notified and how quickly were they on the scene?
    Mr. Newman. If I could just clarify for the Congresswoman 
what a SWAT team is. This is a team that we use when the BOP is 
on surface, on the rig, in between wells, and they are there to 
provide additional support to the normal complement of rig crew 
for conducting the thorough program of between wells 
maintenance that is performed on the BOP. So in this particular 
situation where the BOP remains on bottom, the SWAT team, in 
terms of providing actual onsite expertise, what they have done 
is mobilized to the offshore operations. So they are providing 
support and guidance to the remote operated vehicle operators 
as they continue to attempt to manipulate and intervene on the 
BOP.
    We have members of that same expertise or function 
providing support to BP in their WestLake facility in Houston 
and similarly in our own continuing crisis response team in our 
offices in Houston.
    Mrs. Blackburn. So as soon as word came to you that there 
was a need, you all were in action?
    Mr. Newman. Absolutely.
    Mrs. Blackburn. Thank you, sir. I yield back.
    Mr. Stupak. Mr. Dingell for questions, please, member of 
the subcommittee.
    Mr. Dingell. Mr. Chairman, I thank you. Mr. McKay, how much 
has BP spent on the response so far?
    Mr. McKay. I don't have an accurate number.
    Mr. Dingell. Would you submit that for the record?
    Mr. McKay. Yes.
    Mr. Dingell. How much do you anticipate that BP will spend 
before this matter is over?
    Mr. McKay. I don't know.
    Mr. Dingell. This is a question for all witnesses.
    Was the blowout preventer modified in any way, yes or no?
    Mr. Newman. The blowout preventer has been modified since 
it was delivered from Cameron in 2001.
    Mr. Dingell. You say it was to be specific for the 
particular installation? Is that what you're telling me?
    Mr. Newman. The blowout preventer was modified. It was 
modified in 2005 as a result of an agreement between Transocean 
and BP. It was modified at BP's request and at BP's expense.
    Mr. Dingell. Why was it modified? And how was it modified? 
You and Mr. McKay will be wanting to answer that question.
    Mr. McKay. I'm not sure of the details of that 
modification. I think the investigation should look into that 
as well as whether there were any other modifications made 
other than that.
    Mr. Dingell. Were the modifications entirely in accord with 
the manufacturer's instructions or were they at variance with 
the manufacturer's instructions?
    Mr. McKay. I don't know.
    Mr. Dingell. Sir, do you know?
    Mr. Newman. The modifications to the Cameron BOP that were 
performed in 2005 utilized Cameron equipment. They were done 
under the direction of BP and in coordination with oversight 
from the MMS.
    Mr. Dingell. This is for all witnesses, yes or no, were 
there shear rams installed, and were they tested to ensure 
functionalities at the depths of this particular well? Yes or 
no.
    Mr. Newman. The BOP is outfitted with two sets of shear 
rams, one of which is referred to as a super shear ram, and the 
other is referred to as a blind shear ram.
    Mr. Dingell. Mr. McKay.
    Mr. McKay. I don't know.
    Mr. Dingell. Next witness, sir, please?
    Mr. Moore. Yes. Mr. Newman is correct.
    Mr. Dingell. Did the Deepwater have a backup remote trigger 
to activate the blowout preventer? Yes or no.
    Mr. Newman. The answer to that question, Congressman, is 
yes. The BOP system on the Deepwater Horizon was fitted with 
two automatic backup response systems, one of which the 
industry refers to as a deadman and the other one the industry 
refers to as an auto shear. Both of those systems were fitted 
on the Deepwater Horizon's BOP control system.
    Mr. Dingell. Thank you. Do the other witnesses agree with 
that statement?
    Mr. McKay. Yes.
    Mr. Moore. Yes.
    Mr. Dingell. Now, Mr. McKay and Mr. Probert, was the cement 
used in this case the same chemical makeup as the cement used 
by Halliburton for other wells? Yes or no.
    Mr. Probert. Yes, this type of cement had been used in 
approximately 100 applications in the Gulf of Mexico.
    Mr. Dingell. Mr. McKay?
    Mr. McKay. I don't know.
    Mr. Dingell. For all witnesses, were the survivors of the 
explosions asked to sign medical or legal liability waivers 
after the explosion? Yes or no.
    Mr. Newman. The documents that the Transocean survivors of 
the incident were asked to sign were categorically not waivers.
    Mr. Dingell. Mr. McKay.
    Mr. McKay. For the BP employees, no.
    Mr. Dingell. Next witness.
    Mr. Probert. No.
    Mr. Dingell. Next witness.
    Mr. Moore. Congressman, we had no one on the rig.
    Mr. Dingell. Now, it is my understanding, gentlemen, and 
this is for all of the witnesses, if you please, it is my 
understanding that local fishermen have been contacted by your 
companies to help with the cleanup in different ways.
    Have these contractors been asked to sign any kind of 
liability waiver?
    Mr. McKay. We are the--a responsible party that's operating 
the clean up efforts with the Coast Guard. There was originally 
a standard form that was put out, I have lost track of time, a 
couple weeks ago, that was a problem. That was torn up, started 
over, and no. So your practical answer is no. And that was 
fixed right after.
    Mr. Dingell. So the answer to that question is no?
    Mr. McKay. They are not signing liability waivers.
    Mr. Dingell. Is that a categorical or a qualified no?
    Mr. McKay. I believe it is a categorical.
    Mr. Dingell. Very good. Now I have a curiosity. I had 
intended to ask, did the Minerals Management Service exempt 
BP's lease on the well from an Environmental Impact Statement 
as required by NEPA? BP apparently requested that exemption?
    Mr. McKay. There's a categorical exclusion that was 
utilized that makes use of the government's Environmental 
Impact Statement that's done with the lease sale, and then the 
government's environmental assessments that are done by grid 
and smaller area within that lease sale, and those are utilized 
with the permit.
    Mr. Dingell. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you. Ms. Castor for questions, please.
    Ms. Castor. Thank you, Mr. Chairman.
    Mr. McKay, in your testimony, you state that BP recognizes 
that beyond the environmental impact there are also economic 
impacts to the people of the Gulf Coast States, BP will pay all 
necessary cleanup costs and is committed to paying legitimate 
claims for other loss and damages caused by the spill, and that 
you are determined to do everything humanly possible to 
minimize the environmental and economic impacts of the 
resulting oil disaster.
    Now in Florida, the Deepwater Horizon disaster is causing 
losses and damages to our most important industries, to our 
tourism industry, to the fishing industry, vacations are being 
canceled, hotels don't know what to do, they are very scared. 
This is having a devastating impact on the hardworking people 
of Florida like the other Gulf Coast States.
    So when you state that BP is committed to taking 
responsibility for paying claims, are you willing to begin a 
high level dialogue with the political leadership of the State 
of Florida to talk about ameliorating and addressing the 
impacts on our industries?
    Mr. McKay. Yes.
    Ms. Castor. Mr. McKay, is there anyone who now works for BP 
America or BP parent or any BP subsidiary who previously worked 
for the U.S. Department of Interior and/or MMS?
    Mr. McKay. I believe so, yes.
    Ms. Castor. Who is that?
    Mr. McKay. I believe Jim Grant worked for the MMS.
    Ms. Castor. In what role?
    Mr. McKay. In what role for the MMS? I'm not sure.
    Ms. Castor. Could you answer that question in detail for 
the committee moving forward, go through your records and see?
    Mr. McKay. Yes.
    Ms. Castor. And what about vice versa, is there anyone 
currently employed by the Department of the Interior or MMS or 
who previously worked for BP America or BP parent or 
subsidiary?
    Mr. McKay. I know of one person. I'm not sure if they are 
still employed but they were, yes.
    Ms. Castor. Who is that?
    Mr. McKay. Sylvia Baca.
    Ms. Castor. In what role?
    Mr. McKay. I don't know. I don't know what her role is 
exactly.
    Ms. Castor. So you will get that information to this 
committee.
    Mr. McKay. I'll get that to you.
    Ms. Castor. Mr. Newman and Mr. Probert, same question 
except substitute Transocean and/or Halliburton.
    Mr. Newman. I'm not aware of anybody, but we can certainly 
check our records and confirm.
    Mr. Probert. Neither am I aware of anyone, but we will 
certainly check our records for you.
    Ms. Castor. Thank you very much.
    I want to ask question about how the blowout preventer was 
tested. Mr. Newman, in your testimony, you say that the blowout 
preventer was tested regularly and found to be functional, is 
this correct?
    Mr. Newman. Yes.
    Ms. Castor. Mr. Newman, I want to read to you a document 
that we obtained late last night. This document is from 
February 10 and is labeled as the Deepwater Horizon blowout 
preventer subsea test. We have been told that there were 
additional tests conducted after this February test in March 
and April but they went down with the rig. So this February 
test is the last detailed information we currently have on 
subsea testing of the blowout preventer.
    In particular, I want you to focus on the test for their 
casing shear rams. There are no test results here. And it 
actually says, do not function as per exemption.
    Mr. Newman, what does this mean?
    Mr. Newman. I'm not familiar with the particular exemption 
that would be in place, so I can't comment right now.
    Ms. Castor. What does it mean when the document states 
casing shear rams open?
    Mr. Newman. Casing shear rams open would be the test that 
would be performed to confirm that the casing shear rams do in 
fact open, so the shear rams retract.
    Ms. Castor. And same thing for closed, same explanation. So 
what does it mean when it says, do not function, do not 
function as per exemption.
    Mr. Newman. I believe that it means as part of this test, 
those casing shear rams are not functioned.
    Ms. Castor. So I want to be fair. My understanding is that 
there is evidence that the casing shear rams worked, so this 
failure to test may not have had an effect on the response, but 
it is indicative of the problems with the testing regime.
    Do you want to comment on that?
    We have other documents that discuss the testing of the 
blowout preventer, and one is a document prepared by BP on 
April 27 after the blowout, 1 week after the explosion. I would 
like to bring that up on the screen. This document makes a 
number of key points about problems with the BOP test. It 
states BOP stack emergency systems are not typically tested 
once the BOP stack is on the seabed.
    It also says that the subsea testing of the emergency 
systems would show whether the system will work when installed 
and showed that there were no leaks that would diminish system 
integrity.
    Mr. Newman, what is your reaction to this document?
    Mr. Newman. While the BOP is on the surface, prior to being 
deployed for well operations, all of the systems on the BOP are 
tested, including simulation of the conditions that would 
trigger the automatic functions on the BOP control system.
    Ms. Castor. So were the emergency systems of the blowout 
preventer tested after the device was installed on the seabed?
    Mr. Newman. Those systems are not tested once the BOP 
system is on the seabed.
    Ms. Castor. Why not?
    Mr. Newman. If we could talk about the auto shear function. 
The auto shear function----
    Ms. Castor. I'm a little over my time, Mr. Chairman.
    Mr. Newman. If we could talk about the auto shear function. 
The auto shear function is installed on the BOP control system 
to simulate the disconnection between the lower portion of the 
BOP stack and the Lower Marine Riser Package. So these are two 
sets of components that come together, and taken together they 
constitute the entirety of the BOP stack. The auto shear 
function is designed to activate when the Lower Marine Riser 
Package inadvertently disconnects from the BOP, the lower BOP. 
There is a way to do that subsea, but it introduces significant 
risk in the well construction operations. Disconnecting the 
LMRP inadvertently from the BOP is not an expected, not a 
normal part of the well construction process. It's an emergency 
response. And so testing that emergency response while the BOP 
is on the seabed would introduce significant risk.
    Ms. Castor. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dingell. Thank you. Mr. Inslee for questions, please.
    Mr. Inslee. Thank you. Mr. McKay, would you agree that the 
industry ought to be using the best available technology to 
avoid these cataclysmic blowouts?
    Mr. McKay. Yes.
    Mr. Inslee. Now I'm told that other places in the world--
let me back up for a moment. We've learned through some of the 
investigation that a possible source of failure was the failure 
for an activation signal in some sense to be given to the 
blowout preventer. I don't think that's been categorically 
proven, but there is some suggestion that that's what happened, 
from some interruption of the connection to the activation 
switch. We are advised that in other places in the world, in 
Norway and Brazil, an acoustically triggered switch is 
available that is remote to the rig so that it's not dependent 
on a physical linkage between the blowout preventer and the 
rig, that it receives an acoustic signal of a blowout occurring 
and immediately sends, through I believe a sonar system, to 
activate the blowout preventer. And the safety that seems to me 
commonsense, in the sense it's not dependent on a physical 
connection as this one was, and that physical connection may 
have been interrupted in the explosion in, in a blowout, to me 
that seems to be another inherent safety feature that is used 
in other countries.
    Was that system used in this particular rig?
    Mr. McKay. I'm not a blowout preventer expert and maybe 
these guys can answer as well, but I think it's something that 
needs to be looked at. As I understand it, the acoustic 
signaling is not always applicable in some of the places like 
the deepwater Gulf of Mexico. We did have redundant systems 
here to try to trigger the blowout preventer, including 
physical manual intervention----
    Mr. Inslee. I understand that. I guess those all depend on 
a physical connection to the rig platform.
    Mr. McKay. Or the lack of.
    Mr. Inslee. Or the lack of. This one has a remote system, 
and it seems to be used by giving you an additional redundancy 
if you will. Let's just be clear. Was that system in place in 
this rig? Does anybody have a suggestion that it was? No one is 
shaking their head yes. So we are assuming there was no 
acoustical activated trigger.
    Now assuming that, and I will just ask Mr. McKay, assuming 
that this acoustically triggered system would have provided an 
added layer of redundancy that could operate even in the 
absence of any physical connection between the blowout 
preventer and the rig, would BP be willing to accept that 
technology as the best available technology?
    Mr. McKay. We would absolutely accept anything that would 
improve upon what we have in terms of redundancy. So I would 
ask some of the experts that. But we would be willing to do 
that if that looks like it would help anything, yes.
    Mr. Inslee. And was that ever considered by British 
Petroleum to require that in its operations at any time?
    Mr. McKay. I don't know.
    Mr. Inslee. Could you find that out and let us know?
    Do any of the other witnesses have information about that 
as to whether or not the acoustically triggered device was ever 
considered by British Petroleum? Do you have any information, 
any of the other witnesses?
    Mr. Moore. I would not.
    Mr. Probert. No information, no.
    Mr. Newman. I don't think it would be appropriate for me to 
comment on what BP may or may not have considered.
    Mr. Inslee. Well, we will look forward to your letting us 
know Mr. McKay. There have been some press reports that the 
cost dissuaded British Petroleum from installing this 
additional safety mechanism. So we will be interested to see 
what you find out in your review.
    I want to ask about the capability of the shearing system. 
And I have to just tell you as a layperson, I have been 
disturbed by the lack of reliability of this system from what 
I've been able to look at. I'm looking at a document, it's a 
study done for the U.S. Minerals Management Service by West 
Engineering Services of December 2002, and the report suggests 
that they tested several of these blowout preventers and said 
if you would take in--if operational considerations of the 
initial drilling program were accounted for, shearing success 
dropped to 3 of 6, 50 percent. Fifty percent is not something 
that gives you huge confidence.
    The report goes on to say West, that is the contractor here 
who did the investigation, West is unaware of any regulatory 
requirements that state the obvious, that the BOP must be 
capable of shearing pipe planned for use in the current 
drilling program. Apparently there's no regulatory requirement 
that there's been a demonstration of a particular BOP to shear 
a particular pipe of a particular metallurgical situation. Is 
that accurate?
    Mr. Moore, you might be the one most knowledgeable to that.
    Mr. Moore. Let me respond to that because Cameron took the 
position on this in 2007 with a study that we did with our own 
information on shearing capabilities where we plotted across a 
matrix of low, medium and high shear rates to shear certain 
size drill pipe.
    We took the top end of that. We took the maximum range in 
which shear pipe should be sheared because sheared pipe is 
different strengths at different hardnesses so it's not 
altogether exactly consistent.
    Mr. Inslee. Thank you. I appreciate that, Mr. Moore.
    I have one quick question I want to ask Mr. McKay.
    Mr. McKay, on September 14, 2009, BP sent a letter to the 
U.S. Department of the Interior Minerals Management and you 
said, quote, while BP is supportive of companies having a 
system in place to reduce risks, accidents, injuries and 
spills, we are not supportive of the extensive proscriptive 
regulations as proposed in this rule. That's signed by Richard 
Morrison, Vice President, GOM Production.
    Do you plan on revisiting that position by BP in light of 
this incident?
    Mr. McKay. I think everything we learn in this incident 
will be relevant in terms of what regulations should be going 
forward.
    Mr. Inslee. I appreciate that. I will be introducing a bill 
here shortly that will require the use of best available 
technologies. It's motivated in part because of the absence of 
this particular safety device, this acoustic device we're 
talking about. So I would appreciate your consideration.
    Thank you.
    Mr. Stupak. Thank you, Mr. Inslee.
    Mrs. Capps for questions, please.
    Mrs. Capps. Thank you very much, Mr. Chairman. And thank 
you for testifying today, each of you.
    To date, more than 1 million feet of barrier absorbent boom 
has been deployed along shorelines in the Gulf and in the open 
water.
    I guess I should acknowledge first that I'm from Santa 
Barbara. My district represents the central coast of 
California, and I was a resident in Santa Barbara with my young 
family in 1969. I know a bit about absorbent boom.
    Over 3,000 gallons of oil dispersant has been applied from 
the air. This is a newer technology than I'm familiar with, and 
nearly a mile underwater.
    And controlled burns have been used to ignite oil on the 
ocean's surface, which we have seen in the past.
    These measures sound impressive, but I would like to hear 
from our witnesses about their efficacy.
    Mr. Newman, your company produced a document to the 
committee that outlines the advantages and disadvantages of 
different cleanup strategies. It's at tab 9 of your document 
binder.
    On the first page of the document, in a section that 
examines the strategy of using floating boom to contain oil, 
the last point warns that, quote, and this is a quote from that 
document, the recovery rate of oil under the best circumstances 
rarely exceeds 15 percent, and I can actually give testimony to 
that fact, it's the same technology that was used in 1969 in 
Santa Barbara off the coast.
    Mr. Newman, am I reading this document correctly? Is the 
best case scenario for boom collection really only 15 percent 
of spilled oil?
    Mr. Newman. Based on the information that I have reviewed 
since the incident occurred, I believe that that percentage is 
directionally accurate, yes.
    Mrs. Capps. And that's one of our best technologies that we 
have available at this time. It's not a very impressive rate of 
recovery. But more disturbing is the fact that the rest of the 
proposed techniques are not particularly effective either.
    The plan cautions that chemical dispersant, and I quote, 
must be used within the first 24 hours to be effective and that 
in situ burning, quote, and I quote, causes air pollution, and 
again another quote, may leave tarry residue that will wash up 
on the shorelines or sink to the bottom.
    The plan also warns, in all capital letters, and this is 
another quote from the plan, experience has shown that 
shoreline cleanup operations often cause more environmental 
damage than if the oil were left alone.
    I think it's really so shocking to me, having lived through 
this in my community in 1969, that's 40-plus years ago, and as 
was given in an opening statement, it's more than 100 years 
since the first offshore drilling was done along my coastline, 
that this multi-billion dollar oil exploration industry has not 
come up with more effective strategies to contain the damage 
from a leaking deepsea well. The technologies, I know others 
have said this, the technologies have been perfected to get 
down there and to go after it.
    Why, and I'm going to ask the rest of you with whatever 
time remains, why was there not equivalent technology developed 
to clean up after a spill, whether a small spill or a huge 
spill, at the very same time using some of the profits that 
have been generated in each of the companies that you 
represent?
    The cost of doing it now, after the fact, is a cost that 
you will bear. But there is no way you will come close to 
bearing the cost that our Nation will bear, the shrimpers, the 
oyster folks, all of the people, and not to mention untold 
disasters that lie ahead day after day after day.
    I represent a coast with oil drilling. We are still 
drilling. The same Platform A that drilled and spilled in 1969 
is pumping oil today, 20 platforms off the coast in my 
district. Each spill, and there are many of them, and they are 
unique, the environment in the Gulf is extremely complex, and 
we don't understand yet how these systems interact with and 
respond to oil, these complex coastal areas that we treasure.
    And I hope that this topic is something we will continue to 
explore in future hearings.
    And with 10 seconds, I would like to see if one of you has 
any further comment to make.
    Mr. McKay. I would just comment we are working very closely 
with all the government agencies, EPA, Coast Guard. The Coast 
Guard deals with spills all over our coastal areas all over the 
country. We are using the best available technology at scale. 
This is the largest effort that has ever been put together. So 
we believe we are using the best technology and if we have any 
other ideas----
    Mrs. Capps. But you never had any until it happened.
    Mr. McKay. Well, we have been drilling with the Coast Guard 
for years.
    Mrs. Capps. Did you develop technologies for dealing with 
this?
    Mr. McKay. Not individual technologies for this, no.
    Mrs. Capps. I rest my case.
    Mr. Stupak. Thank you.
    Mr. Engel for questions, please. We have three votes, but 
let's get these questions in.
    Mr. Engel. Thank you, Mr. Chairman.
    Gentlemen, yesterday there was testimony, as you know, 
before the Senate and what came out of there was a bunch of 
finger pointing. Everybody pointed a finger at somebody else. 
Everybody was making excuses and alibis. And the American 
public is obviously outraged. I'm outraged. It's very difficult 
to believe a lot of the things that we are hearing.
    I want to ask some very basic questions because we have 
gone through a lot of the technical things, and we have gone on 
and on. Generally, we have been told for the past several years 
in Congress that offshore drilling is safe, that we needn't 
worry about what happens; if there is any kind of an accident, 
don't worry because there are backup systems and there is a 
backup system for the backup system. And then we find out that 
none of this is true.
    If there have been improvements in drilling techniques 
through the years, why apparently have there been no 
corresponding improvements in preventing oil spills? Or is it, 
is it there simply is no ironclad way to prevent spills like 
these in the future? Is that what you're telling us?
    Mr. McKay.
    Mr. McKay. This has been an unprecedented event. In the 
Gulf of Mexico alone there have been over 42,000 wells drilled 
in the past 50 years, and this is an unprecedented event. We 
have got to learn what caused this and what to do to make sure 
this doesn't happen again. We are dedicated to do that, and I 
know the committee is as well.
    All I can say is the industry has been safe and clean for 
quite a while, and this is an unprecedented event we've got to 
figure out.
    Mr. Engel. But Mr. McKay, I will bet that I could dig up 
congressional testimony after the Exxon Valdez mess where 
people literally said the same thing that you're just saying 
now, that this is a once-in-a-lifetime thing, it cannot happen 
again. We were told it cannot happen again, what happened up in 
Alaska in 1989.
    So why should we believe you any more than we could have 
believed those people that told us the same thing after the 
Exxon Valdez spill in Alaska?
    Mr. McKay. My confidence is because I think we are going to 
figure out what caused this, both the events that caused the 
explosion as well as why the blowout preventer didn't work. I 
think we will solve this and that will allow us to be safer 
going forward.
    Mr. Engel. Would any other gentlemen care to comment?
    Mr. Probert. I think all of us are committed to trying to 
find out what did take place and put the steps in place that 
are necessary to make this a safer--safer and sounder future 
for us in terms of oil and gas exploration.
    Mr. Engel. There is currently a $75 million liability cap 
and I understand, Mr. McKay, you said BP has not adhered to 
that, you're going higher, is that true?
    Mr. McKay. That's true. We'll go over that if needed, 
absolutely.
    Mr. Engel. Should the cap be raised? I know Senator 
Menendez has introduced legislation to raise it to $10 billion. 
Should we just lift the cap? Is that something Congress should 
consider?
    Mr. McKay. I was asked that question yesterday. I don't 
know the specifics of that legislation, and I would just say 
it's not relevant in this case.
    Mr. Engel. We have an 8-cent a barrel tax assessed to oil 
companies, and proceeds go into a cleanup service. Should that 
tax be modified and should that money be spent differently?
    Mr. McKay. I think that will just have to be reviewed in 
the context of what we learn through this.
    Mr. Engel. How about an administration proposal to split 
the Minerals Management Service into two parts, one with 
oversight responsibilities for the oil industry, and another of 
it would provide drilling leases and collect Federal royalties 
on the operations? Do you have any comments on that, or support 
it, oppose it, and why?
    Mr. McKay. I don't have any specific comments on that.
    Mr. Engel. Anybody else?
    Mr. Probert. No specific comments other than to say that 
that is not an unusual process in a number of foreign 
jurisdictions.
    Mr. Engel. I just want to say in conclusion that I'm just 
really agitated and aggravated. Nobody in this room, and 
certainly the four of you didn't want this to happen. Nobody 
wanted this to happen. This is a terrible tragedy. But when we 
get assurances from the oil industry year in and year out that 
this cannot happen and that we should drill, baby, drill and we 
should keep expanding the drilling, and then the worst actually 
happens, I just don't know how we could ever believe anything 
that we hear from the oil industry. It just boggles my mind as 
to how this could happen. And 20 years from now there will be 
another Congress sitting here, and there will be another oil 
spill and they will be saying the same things that you 
gentlemen are saying now. I am not convinced and frankly I am 
very, very angry.
    I yield back, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Engel. We will start a second 
round of questions. I know we have votes but I am going to try 
to at least get a first set of questions and then we will break 
for votes and we'll come back.
    Mr. Newman, Ms. Castor was asking a number of questions 
about the blowout preventer and testing on the surface, the sea 
surface. And it says that the testing of the emergency systems 
would show whether the system will work when installed in hull 
and show that there were no leaks that would diminish the 
system's integrity.
    BP, in a memo of April 27, has recommendations. It says 
that the risk in testing emergency systems and subsea testing 
are manageable and BP recommends these systems be tested in the 
future. I'm glad that BP is recommending improved testing going 
forward. But my question is, this testing, what is done on the 
BOP for testing when it's on the sea floor?
    Mr. Newman. If I could clarify the response to the 
question. A BOP is an immense piece of equipment. It's about 55 
feet tall, it's about 20 feet square, it weighs over 300 tons. 
It's a combination of a number of valves that are intended to 
close off the wellbore, and it's got over 100 other smaller 
valves that function----
    Mr. Stupak. I realize all that. It's 45 tons. I realize all 
that. What testing is done when it's on the sea floor?
    Mr. Newman. Component by component, we work our way up to 
ensure that the function closes and that it will hold pressure. 
Those are the required tests that are conducted every 2 weeks 
to confirm that the system functions and that it will hold 
pressure. In the intervening 7 days, there is another set of 
tests which serve to confirm that the system still functions.
    Mr. Stupak. And that's just pressure tested, you don't 
check for the valves to see if they are leaking, right? Like we 
have here, we have a leaking valve here right?
    Mr. Newman. Those tests would confirm whether or not the 
system has any leaks in it as well.
    Mr. Stupak. So this leaky valve, this hydraulic leaking 
valve that I brought up earlier in my opening statement and 
asked questions about, you're saying your tests would have 
shown that?
    Mr. Newman. Absolutely.
    Mr. Stupak. Then, Mr. Newman, in this thing, Cameron 
officials told us the problem was someone overlooked the 
tightening of a fitting, all these other fittings on the 
hydraulic system were snug, but this one had not been tightened 
and it was like several turns backed off. So how can you 
explain how is this possible that one valve, if your testing 
was there it would have shown that one valve was leaking, would 
it not?
    Mr. Newman. If that one valve was leaking during the 
testing, the testing would have demonstrated that. The document 
that I was handed a few minute ago, which is a record of a BOP 
function test, you will see that the gallon counts are recorded 
to the first decimal point, which is a very accurate record.
    Mr. Stupak. That's the pressure. I'm talking about the 
emergency testing, like the deadman switch and these rams. What 
would you do to test those when it's on the floor? What is the 
emergence for the emergency testing? If something goes wrong, 
what tests should you be doing?
    Mr. Newman. What the auto sheer function and the deadman 
function do is serve to activate the BOP. They operate the 
control system, and they close the valves. So the independent 
testing that we conduct on a regular basis confirms the same 
thing.
    Mr. Stupak. How about the emergency power source? That's 
where we found the leaky valve, the loose fitting, the 
emergency power source. Was that checked?
    Mr. Newman. The emergency power source?
    Mr. Stupak. For the hydraulic line.
    Mr. Newman. That's a terminology that I'm unfamiliar with, 
Congressman, so I can't tell you specifically that would be in 
reference to.
    Mr. Stupak. Mr. Moore, am I correct there is an emergency 
power system that could be checked while it's on the sub floor?
    Mr. Moore. Would this be the system that sits in the SIM, 
it's kind of like the brain that----
    Mr. Stupak. Control, yes.
    Mr. Moore. I'm not sure of how that would be tested by 
Transocean, Congressman.
    Mr. Stupak. Would your technical guy, Mr. McWhorter, know 
the answer to that?
    Mr. Moore. We can surely ask him.
    Mr. Stupak. Go ahead. I have got to ask you to raise your 
right hand and take the oath.
    [Witness sworn.]
    Mr. Stupak. Please state your name for the record and who 
you work for?
    Mr. McWhorter. David McWhorter. I work for Cameron.
    Mr. Stupak. I'm sorry.
    Mr. McWhorter. Could you repeat the question?
    Mr. Stupak. Sure. State your name for the record and who 
you work for.
    Mr. McWhorter. David McWhorter. I work for Cameron 
International.
    Mr. Stupak. Now there's a hydraulic power source. You want 
to explain that to us, how you do the energy testing and shut 
things down?
    Mr. McWhorter. I believe you were referring to the subsea 
accumulator banks, which is where the hydraulic energy in 
effect is stored for emergency operations.
    Mr. Stupak. Yes. What testing can be done to check that 
when it's on the sea floor?
    Mr. McWhorter. On the sea floor? You can fire that 
function.
    Mr. Stupak. How do you fire that function?
    Mr. McWhorter. Push a button on the surface.
    Mr. Stupak. Is that a test that would impair the jeopardy 
of the blowout protector while it's on the sea floor?
    Mr. McWhorter. It would depend what would be in the 
wellbore at the time the test was conducted.
    Mr. Stupak. And this is one of the tests that was not done 
here in this; you have no record of this test ever being done, 
do you?
    Mr. McWhorter. We have no records of any tests, sir.
    Mr. Stupak. Do you have any tests of that record being done 
where they do go down and push the right button to see if the 
hydraulic line worked in the emergency?
    Mr. Newman. If Mr. McWhorter is talking about the subsea 
accumulators, these are large bottles that are attached to the 
BOP. They contain hydraulic fluid at pressure. Those systems 
are recharged using the surface system. If there were a leak in 
the subsea accumulators, that would require that the surface 
system be regularly operating to recharge the leak. That would 
be recorded as a volumetric leak, and there is no record of 
that.
    Mr. Stupak. Is there any record that you even tested it, 
that you pressed that button?
    Mr. Newman. There is no way to test the subsea accumulator 
system.
    Mr. Stupak. Well, after the explosion, you did go and push 
into this little valve or dye test, you pushed the button it 
didn't work. That's when you did the dye test, correct? And 
that's when the dye test showed there was a hydraulic leak and 
that the fitting was very loose, correct?
    Mr. Newman. During the post-explosion intervention efforts, 
a number of operations were conducted on the BOP where the 
remote operated vehicles, through a variety of configurations, 
supplied hydraulic power to the system. During one of those 
operations, we did not see the anticipated pressure response. 
In response to that indication we conducted troubleshooting 
operations, and those troubleshooting operations identified a 
leak on the system.
    Mr. Stupak. And the leak was because the valve wasn't 
screwed on tightly, put it laymen's term, right?
    Mr. Newman. I believe that's correct, yes.
    Mr. Stupak. Is that correct, Mr. McWhorter?
    Mr. McWhorter. There was a leak that was discovered subsea, 
yes, sir.
    Mr. Stupak. Any reason why it couldn't be discovered 
before----
    Mr. McWhorter. I really----
    Mr. Stupak. Other than the test not being done?
    Mr. McWhorter. There's probably a number of reasons, sir.
    Mr. Stupak. Our time is up. We have votes.
    One more question. Mr. McKay, in answer to Mr. Sullivan's 
question, you said the best way to stop this is a BOP, right? 
That's your top kill, I think your exact words were.
    Mr. McKay. Yes. That is one of the big options, yes, 
absolutely.
    Mr. Stupak. Is there any way to put auto BOP on this?
    Mr. McKay. Yes, we've been trying to get diagnostic 
determination inside that BOP to understand what's happening, 
understand why that pressure has dropped.
    Mr. Stupak. You'd have to take that riser off and put 
another one on top?
    Mr. McKay. Yes, that is a potential and we're working hard 
on that.
    Mr. Stupak. And once you take that riser off, it's possible 
you could have greater oil and gas gushing up through the hole, 
right?
    Mr. McKay. That's exactly right, but that's why we're 
getting a diagnostic where we are using gamma rays and pressure 
measurements, and we are making progress in understanding.
    Mr. Stupak. If that riser came off and starts gushing up 
even greater than what it's doing right now, can you get a BOP 
back on there?
    Mr. McKay. Well, that's one of the issues that we're 
working.
    Mr. Stupak. My time is up and when we come back Mr. Burgess 
will have questions. We will stay in recess for a half hour. We 
have three votes. Gentlemen, we will see you in a half hour. We 
are in recess.
    [Recess.]
    Mr. Stupak. We will reconvene the committee hearing in the 
Subcommittee on Oversight and Investigations and our hearing. I 
remind the witnesses they are under oath.
    When we left, I believe, Mr. Burgess, it was your turn for 
questions on round two. If you would, please. And Mr. Moore 
will be here in a minute.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. McKay, you made reference in answer to an earlier 
question that the Obama administration, the White House and the 
Cabinet had been helpful during this event. Is that a fair 
statement? Do I remember you saying that correctly?
    Mr. McKay. Yes. I think I said the administration and his 
Cabinet, yes.
    Mr. Burgess. Have you been to the White House since the 
accident occurred?
    Mr. McKay. Yes. I have not seen the President, but I've met 
with Secretary Napolitano and Secretary Salazar and other 
administration officials, yes.
    Mr. Burgess. Mr. Chairman, could I ask that the White House 
make available to us any minutes or notes or e-mails that would 
be relevant to that meeting?
    Mr. Stupak. Well, as the gentleman knows, he can ask. I am 
not guaranteeing what kind of response you're going to get, but 
yes, you can ask.
    Mr. Burgess. Well, I just think it would be helpful. Were 
you the only executive of an oil company who was there, or was 
this a collaborative response from many people who work in the 
industry to try to help solve the problem?
    Mr. McKay. The meetings that I'm talking about were myself 
and Tony Hayward, both of us, BP.
    Mr. Burgess. Are you aware of any other meetings that have 
occurred with executives of other companies?
    Mr. McKay. I'm not aware on this particular issue.
    Mr. Burgess. Can I ask you when that meeting occurred?
    Mr. McKay. There have been several over the three-week 
period that we've been in----
    Mr. Burgess. When would the first meeting have been?
    Mr. McKay. Within the first week of the accident, I 
believe.
    Mr. Burgess. And that information, Mr. Chairman, should be 
available to us with White House logs, if they will furnish us 
that information. Do I understand that correctly?
    Mr. Stupak. Well, again, Mr. Burgess, as you know, because 
you've used the procedure before, I put the request in writing, 
we will submit it to the White House and we will see what 
happens. I'm not sure of the extent of the discussions and what 
is appropriate and what is not. I know when we speak about 
energy or energy policy, there has been some reluctance of the 
courts because under the Cheney Energy----
    Mr. Waxman. Will the gentleman yield?
    Mr. Burgess. No, because my time is limited.
    Mr. Stupak. I will give you back an extra 30 seconds.
    Mr. Burgess. Yes, I know you will. Thank you. It would just 
be helpful to us, and we will put that in writing.
    Aside from Secretary Napolitano and Secretary Salazar, I 
assume the Department of Interior was present. Were there White 
House personnel present as well, Chief of Staff, Deputy Chief 
of Staff?
    Mr. McKay. No.
    Mr. Burgess. Just people from the agency?
    Mr. McKay. There were other--Carol Browner----
    Mr. Burgess. Well, certainly, to the extent that these 
involved agency personnel, Department of Interior, Department 
of Homeland Security, we, as the oversight body of this 
Congress, should have the ability to get that information. In 
my understanding, that should not be covered under executive 
privilege, so I will make that request.
    Mr. Stupak. Will the gentleman yield if you're going to 
make a request, because it's going to come through me, and I'd 
like to have a clarification from you.
    Mr. Burgess. If the chairman will yield me an additional 
minute.
    Mr. Stupak. I will yield you an additional minute, you 
betcha.
    Mr. Waxman. What does the gentleman wish to request? The 
log of these visitors and the fact that they were at the White 
House meeting with people within the administration?
    Mr. Burgess. Yes. And I would like to know what was 
discussed.
    Mr. Waxman. Well, I don't know that you're entitled to 
that, but the White House already posts its logs as to who 
comes in and meets with the--this is something we didn't have 
in the previous administrations. They do have a posting of the 
log, and you can easily find out who came in from the outside 
and who met with people in the White House. I don't know why 
you would be entitled to have the discussions or notes or 
anything like that. I don't know what the precedent is for 
asking that.
    Mr. Burgess. Mr. Chairman, it may have occurred to you 
we're having a great deal of difficulty getting to the actual 
causation. This is the second hearing. We had one closed 
hearing last week, this is an open hearing, but we are really 
having a lot of difficulty getting to causation, there's a lot 
of people talking past each other. And I just think if there 
was a frank discussion at the White House, that we might 
benefit from the information that was exchanged that day.
    Mr. Waxman. Will the gentleman yield? I will certainly take 
it under advisement.
    Mr. Burgess. I thank the Chairman for the consideration.
    I'm not sure if I'm going to pronounce your name correctly, 
Mr. Probert or Probert?
    Mr. Probert. Probert.
    Mr. Burgess. Mr. Moore obviously deals with the blowout 
protector, but I think if I understand the situation correctly, 
the blowout protector is not the primary control of the well, 
that would actually be the material in the drill shaft itself, 
mud, that would be the primary control; is that correct?
    Mr. Probert. Yes, that would be correct.
    Mr. Burgess. And you, in your testimony, talked about--and 
it intrigued me because it was the same thing I read in the New 
Orleans paper last Friday, that there was a removal of the 
drilling mud from the stack, the initial plug, one cement plug 
had been placed, the drilling mud was removed and replaced with 
seawater, and before the second plug was placed the accident 
occurred. Is that correct?
    Mr. Probert. The process was, first of all, to do a 
positive test, which was conducted by Transocean. The second 
procedure was then to do a negative test, which was also 
conducted by Transocean but requires removing some of the 
drilling fluid, at least from the drill pipe. And subsequently, 
after a successful negative test, to the extent the test was 
successful, then they would go ahead and evacuate or replace 
the drilling fluid in the riser with seawater in advance of 
setting the plug, and then ultimately pulling off the well. And 
I would defer to Mr. Newman if I have any part of that process 
incorrect.
    Mr. Burgess. Well, reported in the Times-Picayune last 
Friday, there was concern that the drilling mud was removed at 
a point prior to when it normally would have been removed and 
replaced with seawater. Is that an error on the part of the 
paper reporting that?
    Mr. Probert. No, I think the question in point that was 
raised--and it was raised in testimony yesterday--was that when 
you replace the drilling fluid in the riser with seawater, you 
reduce the density, effect the density significantly. And had 
there not been a successful negative test, then that would 
clearly be a situation which would be problematic for the well 
since you're reducing the hydrostatic pressure on the well.
    Mr. Burgess. But the test wasn't successful.
    Mr. Probert. I have no knowledge of that.
    Mr. Burgess. Does anybody have any knowledge of that? 
That's the negative test, 1,400 PSI applied to the drill stack 
and no pressure recorded in the dead man's cutoff, or whatever 
it is. Is that a positive test or a negative? I got the 
impression that was not a good result; is that correct?
    Mr. Newman. The actual results of the test, Congressman, 
were first reported to me by Chairman Waxman today in Chairman 
Waxman's statement. And to my knowledge, prior to this hearing 
I was not aware of the results. I think Chairman Waxman alluded 
to some confusion with respect to those test results, and that 
is what I know about the test results.
    Mr. Burgess. But if I am understanding Mr. Probert 
correctly, if the test was not the expected result, that it 
maybe not be a good idea to pull off the drilling mud and 
reduce the hydrostatic pressure on the column over the drill 
shaft. Did I understand your statement correctly about that?
    Well, you said if the test was correct, then it wouldn't be 
a problem to reduce the hydrostatic pressure by removing the 
mud, but the test wasn't correct, mud was still removed, is 
that a problem with what subsequently happened? And Mr. McKay, 
feel free to enter into the discussion.
    Mr. McKay. What I believe is there were discrepancies, it 
appears, in that negative test where you had 1,400 PSI on the 
drill pipe and zero on the choke and kill lines. I think the 
investigation needs to look hard at how that information was 
either disseminated, used, and decisions made off of it, And 
who and what decisions were made after that point?
    Mr. Burgess. What would be drilling best practice if you 
encountered an anomaly like that test? To go ahead and remove 
the mud, or to wait until we found out what the problem was and 
corrected the problem?
    Mr. McKay. I can't speculate on that individual situation. 
I really do think this is one of the key things the 
investigation is going to have to look at.
    Mr. Burgess. Do you think it would ever be OK to remove the 
hydrostatic pressure on the column of mud if the test was not 
satisfactory?
    Mr. McKay. I'm sorry?
    Mr. Burgess. Would it ever be OK to remove that hydrostatic 
pressure of the mud column if that test wasn't satisfactory? 
Would there ever be a reason to say, oh, it's OK, go ahead and 
do that because we do it all the time?
    Mr. McKay. I haven't seen all the data, I just can't 
speculate on that, I just really can't.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Stupak. Chairman Waxman for questions, please.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I want to go back to this issue as well, the question of 
the negative pressure test that we discussed earlier and the 
discrepancies of the negative pressure test that was performed 
on the well on the day of the blowout. And all of you seem to 
agree that this would be a significant issue and it would be a 
central question in the investigation. But I have a document--I 
think it's been given to you, Mr. McKay, it's an e-mail--I 
thought it had been given to you in advance--and the e-mail 
talks about the testing procedures. Can you tell me whether 
these procedures were followed on the 20th?
    Mr. McKay. I cannot tell you whether they were followed.
    Mr. Waxman. And the last line of the document--and by the 
way, this is an e-mail, an internal e-mail from BP and it 
indicates the things that would be done if there was a negative 
test that showed a discrepancy. And the last line says, We 
would send to Houston for confirmation plod on charts sent to 
Houston for confirmation. I assume this refers to BP's office 
in Houston?
    Mr. McKay. I would imagine so.
    Mr. Waxman. Were the test results sent to Houston for 
confirmation before you resumed well operations on the 20th of 
April?
    Mr. McKay. It looks like, to me--and I have to examine 
this--this looks like to me this is after the last plug would 
have been set. We would have to review this. But I don't know 
if it was sent to Houston or not, that last plug didn't get 
sent.
    Mr. Waxman. Well, this e-mail sets out the procedure, as I 
understand it, for BP when you have a problem with that 
negative test. They indicate the things that should be done, 
and the last one is you would send it to Houston. Do you know 
whether the results were sent to Houston before the well was 
back in operation?
    Mr. McKay. I don't believe so. I believe the explosion 
occurred before number six happened.
    Mr. Waxman. So is it fair to say you don't believe that the 
officials in Houston approved the resumption of the operations 
of the well.
    Mr. McKay. I don't know.
    Mr. Waxman. Was MMS involved in these decisions, to your 
knowledge?
    Mr. McKay. I don't know.
    Mr. Waxman. There have been reports that shortly before the 
blowout, BP began displacing drilling mud with seawater. Do you 
know if that's accurate?
    Mr. McKay. That's what I've been told, but I haven't 
reviewed it.
    Mr. Waxman. Did BP's office in Houston approve this 
procedure? Did they sign off on the decision to displace mud 
with seawater after the negative pressure test discrepancy?
    Mr. McKay. I don't know.
    Mr. Waxman. Do you know whether MMS signed off on this 
procedure?
    Mr. McKay. I'm not familiar with the procedure, nor am I 
familiar with who may have or may not have signed off on it.
    Mr. Waxman. You're not familiar with the procedure itself 
within BP on how to deal with a negative test?
    Mr. McKay. Not on this particular well, no.
    Mr. Waxman. You have a technical expert with you, could you 
ask your technical expert for information in this regard?
    Mr. McKay. Yes. Could you repeat the question, please?
    Mr. Waxman. Well, I wanted to know if this document sets 
out the procedure within BP when there is a negative test that 
indicates there is a problem. And I also want to know if the BP 
office in Houston approved this procedure and whether they 
signed off on the decision to displace mud with seawater after 
negative pressure test discrepancy?
    Mr. McKay. What my expert has told me is that this 
procedure looks like it would have been used with the MMS 
procedure, the sundry procedure. He doesn't know, nor do I 
know, whether this was confirmed to Houston. What I would say 
reading this, it looks like it's a procedure to get through the 
setting of the last plug after a successful negative test.
    Mr. Waxman. After a successful negative test.
    Mr. McKay. Well, that's the way it looks to me.
    Mr. Waxman. I see. So after a successful negative test, you 
would contact Houston to have them sign off on the well getting 
started up?
    Mr. McKay. ``Send to Houston for confirmation'' looks like 
the last step after the final cement plug is set, which never 
happened.
    Mr. Waxman. Why did it not happen.
    Mr. McKay. I don't know. That's what we all need to know.
    Mr. Waxman. I would like you to get for the record the 
information as to whether Houston was notified, whether Houston 
approved the procedure, whether they signed off on the decision 
to displace mud with seawater after the negative pressure test 
discrepancy, and whether MMS signed off on this procedure. Am I 
correct in assuming your technical expert believed that MMS had 
to sign off on this as well; do you know?
    Mr. McKay. The temporary abandonment sundry notice would 
have a broad procedure that the MMS would have signed off on.
    Mr. Waxman. A broad procedure.
    Mr. McKay. Well, I can't say if this matches that or it's--
--
    Mr. Waxman. Well, if you can get us more information for 
the record, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Barton for questions, please.
    Mr. Barton. I thank you, Chairman. And I thank our 
witnesses for continuing to be here.
    I want to take a little bit different tact this round of 
questions. I think what Chairman Waxman just asked was very 
appropriate. I think those were good questions, and I think 
they deserve thoughtful responses.
    But I want to take a little bit broader view. My first 
question, does each of you at the panel support drilling in our 
coastal waters? Is there anybody who thinks we ought to suspend 
drilling in the Outer Continental Shelf because of this 
accident? Say yes or no or nod your head, give something.
    Mr. Newman. Congressman, I think a pause, similar to what 
Secretary Salazar has asked for, I think a pause is prudent to 
reassess ongoing operations in the Gulf of Mexico. But I 
believe that energy is so important to our economy, and the 
Gulf of Mexico is a domestic source of that energy, that I 
believe that continued drilling in the Outer Continental Shelf 
is fundamental to the U.S. economy.
    Mr. Barton. Do you all support drilling in the ultra deep 
gulf?
    Mr. McKay. I have confidence we're going to figure out what 
happened here, and that if there are improvements--and there 
probably will be some--that need to be made will be made. And I 
have confidence that the deep water and the ultra deep water 
can be developed, and it's important to be developed.
    Mr. Barton. If this accident had occurred onshore under 
exactly the same scenario, you had a well that was a 20,000-
foot well that had the capability to produce somewhere between 
50,000 and 100,000 barrels per day, and in the switching it 
over, getting it ready for production you had an unexplained 
event that caused a blowout, would that event onshore be fixed 
by now? If everything was the same except it wasn't in 5,000 
feet of water, it was onshore Texas or Louisiana, would you 
have the well under control by now?
    Mr. McKay. Let me try that. I think intervention is easier 
onshore obviously because you can get people and equipment 
around it easier than 5,000 feet of water. But there have been 
blowouts onshore that require relief wells to be drilled. So I 
don't think you can automatically say onshore would be easy and 
offshore it's not. I mean, relief wells are things that have to 
be used sometimes onshore.
    Mr. Barton. But the likelihood is that the complicating 
factor in trying to cap it, stop it, staunch it is that you're 
5,000 feet down and you're operating everything with remote-
controlled submarines; is that not correct?
    Mr. McKay. As Commandant Allen has said, you have no 
ability to have human intervention at 5,000 feet.
    Mr. Barton. Has any Federal official in a position of 
authority offered any suggestion that has not been accepted? In 
other words, we've had lots of members say that you guys are 
just dopes that you haven't figured out what to do about it 
yet, that any good college petroleum engineering class ought to 
be able to figure out what to do and get it done. Has anybody 
in the Coast Guard, the Department of Interior, the Minerals 
Management Service, the Office of the President, the Office of 
the Vice President, has anybody offered a suggestion that you 
all have rejected on what to do to solve this problem?
    Mr. McKay. I'm not aware of any suggestions that we haven't 
been able to take in or to materially change what we're doing. 
This response is of massive dimension with technical experts 
from all over the world working, including the government. And 
there have been no incremental solutions or other parallel 
paths that I know of to pursue.
    Mr. Barton. Well, I've only visited the site one time and 
we went to the Command Center for about a 1 hour briefing. But 
my analysis is that there is excellent cooperation between the 
Federal Government and the private sector, and that the Coast 
Guard, the Admiral who's the onsite commander is making sure 
that everybody does the best possible work together. And that 
this is not a case where the Federal Government and the private 
sector are in an adversarial situation. It seems to me that 
there is excellent cooperation. Do you all agree with that? 
Everybody?
    Mr. McKay. I do.
    Mr. Barton. I want to put this in perspective, Mr. 
Chairman, before I have to yield back my time.
    This accident, as far as we know, is releasing 5,000 
barrels a day into the Gulf of Mexico, it's been doing so for 
approximately 3 weeks, that's a little over 100,000 barrels. 
The largest spill in the Gulf of Mexico today was a spill off 
the coast of Mexico. It produced 90,000 barrels a day for 9 
months--90,000 barrels a day for 9 months.
    Exxon Valdez was a tanker that ran aground in Alaska. That 
was a supertanker that was 300,000 to 400,000 barrels of oil. 
So far this spill has produced a little over 100,000 barrels. 
Now, that, in and of itself, is a significant spill. It is a 
nontrivial accident, but it is nowhere near yet the order of 
magnitude of other accidents that have happened around the 
world.
    There is a natural seepage in the oceans around the United 
States on an annual basis of 4 million barrels a year. There is 
an annual seepage worldwide of over 40 million barrels of oil 
per year. So while this is an accident, it is nontrivial, it is 
not of the catastrophic consequences that some in the 
mainstream media have made it out to be. If we work together--
and this subcommittee is doing an excellent job of getting the 
facts on the table for the American people--there is no reason 
that in the next--hopefully in the next week or so, but 
certainly in the next 2 months, we will stop the oil from 
flowing, we will come up with new best practices, and if 
necessary new technology and new legislation to prevent this in 
the future.
    With that, Mr. Chairman, I yield back.
    Mr. Stupak. Thank you, Mr. Barton.
    Mr. Braley for questions, please.
    Mr. Braley. Thank you, Mr. Chairman.
    My math certainly is not as good as the ranking member's 
because he is, after all, an engineer, but the briefing we 
received, we were informed that these relief wells could take 
90 days to complete. And if that is the case and we are not 
able to cap off the flow of oil and it gets worse, then we will 
easily, in the next 90-day period, exceed the quantity of oil 
that was spilled by the Exxon Valdez. It is not a trivial 
problem to the people living and who get their livelihood from 
the Gulf Coast.
    Mr. McKay, we have been reassured by the Federal 
Government--and you stated today--that BP will pay all 
necessary cleanup costs and is committed to paying all 
legitimate economic damages associated with this spill.
    Is BP self-insured for all of these items of loss and 
damage?
    Mr. McKay. Yes.
    Mr. Braley. So your corporation will be on the hook, it has 
not insured any of that risk or reinsured any of that risk; is 
that correct?
    Mr. McKay. That's correct.
    Mr. Braley. One of the things I am concerned about is 
reports that have come out recently, Mr. Newman, specifically a 
National Public Radio broadcast dealing with efforts by your 
company to compel Deepwater Horizon crew members to sign forms 
the day after the accident stating they suffered no injuries 
from the incident or the evacuation. And yesterday, the 
committee staff was allowed to review several of those signed 
forms and I want to read for you the key passage for the 
record.
    The form states, ``I was not a witness to the incident 
requiring the evacuation and have no firsthand or personal 
knowledge regarding the incident. I was not injured as a result 
of the incident or the evacuation.'' Is it your understanding 
that was the language in the forms that were presented to your 
employees?
    Mr. Newman. That is the language on those forms, 
Congressman.
    Mr. Braley. Are you aware of any information given to those 
employees before they were asked to sign those forms?
    Mr. Newman. Between the time the individuals arrived 
onshore and the time they were presented with those forms, 
there was a tremendous amount of information provided to our 
employees in the form of support, medical care, clothing, food, 
hotel rooms, discussion with them about how we were going to 
facilitate their travel----
    Mr. Braley. OK. Let me cut you off because my question goes 
to the language in this document. Was there a briefing given to 
them about what was the intent of the form and why they were 
being asked to sign it?
    Mr. Newman. Because I wasn't there, Congressman, I can't 
tell you exactly----
    Mr. Braley. Who gave them these forms to sign?
    Mr. Newman. That would have been presented by the support 
team that Transocean mobilized to Louisiana to facilitate the 
onshore assistance of those individuals as they came in from 
the rig.
    Mr. Braley. How do we get the names of the individuals that 
were on that support team?
    Mr. Newman. We can provide that to you.
    Mr. Braley. OK. It says in the form, ``I was not a witness 
to the incident.'' What was the incident that was referred to 
in these forms?
    Mr. Newman. The incident would have been the well control 
problem on the rig floor and the subsequent explosions.
    Mr. Braley. All right. Given that description of the 
incident, there were no witnesses to the incident, were there?
    Mr. Newman. There are no remaining Transocean individuals 
alive who were on the rig floor at the time of the event, I 
don't believe so.
    Mr. Braley. Right. And when it says, ``No firsthand or 
personal knowledge regarding the incident,'' did anybody 
explain to these employees what that meant?
    Mr. Newman. Again, Congressman, because I wasn't there, I'm 
not sure exactly what was explained to the individuals.
    Mr. Braley. Well, the press reports indicate that the crew 
members who survived the explosion spent somewhere between 12 
to 15 hours on a nearby vessel as they watched the rig burn. 
And after the survivors made it to shore, your company escorted 
them to a hotel for questioning. These men, many of whom were 
exhausted, potentially traumatized, and desperate to contact 
their loved ones, had to decide whether or not to sign that 
form before going home.
    Do you know, Mr. Newman, whether these employees were 
allowed to consult with their personal physicians, counselors, 
or attorneys before they signed those forms?
    Mr. Newman. Congressman, the Transocean employees were not 
forced to sign the form.
    Mr. Braley. That is not my question. My question was, were 
they allowed to consult with a physician, a counselor, or their 
attorneys before they signed this statement?
    Mr. Newman. Because some individuals didn't sign the 
statement until a week or so after the event, they could have 
had consultation with anybody they chose to have consultation 
with.
    Mr. Braley. How many individuals waited a week or so after 
the event to sign the form?
    Mr. Newman. I don't know that, but we can provide that to 
you.
    Mr. Braley. Please do. They also interviewed one of the 
Deepwater crew members, a Christopher Choy, who did sign the 
Transocean form. He says that he was angry because he wasn't 
able to talk to his physician or attorney. And let me tell you 
what his experience was. He saw multiple explosions and flames 
coming out of the rig. He saw men pile into one lifeboat while 
two others burned. He saw his friends and coworkers with 
burning flesh and broken bones. He lived through this disaster 
and saw those things that I hope you and I never have to 
experience in our life.
    Can you tell us why he was asked to sign a statement that 
he had no firsthand or personal knowledge regarding the 
incident after experiencing that?
    Mr. Newman. One of our concerns in the aftermath of this 
event, Congressman, is to conduct as thorough a fact-finding 
exercise as we can, and part of the facilitation of that fact-
finding exercise is to identify individuals who might have 
helpful knowledge.
    Mr. Braley. And wouldn't you agree with me that a 
reasonable interpretation of the words ``firsthand or personal 
knowledge regarding the incident'' might mean people who had 
witnessed the aftermath of that explosion and the impact that 
it had on employees who were working on that rig?
    Mr. Newman. I'm not sure I can--do you want to engage in a 
debate about the terminology of personal knowledge?
    Mr. Braley. I'm not trying to engage in a debate, I'm just 
asking you if that wouldn't be a reasonable understanding that 
someone who had witnessed the things that Mr. Choy described 
would have firsthand or personal knowledge regarding the 
incident.
    Mr. Newman. That might be true.
    Mr. Braley. I yield back.
    Mr. Stupak. Thank you.
    Ms. DeGette for questions, please.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Newman, many of the independent experts who looked at 
the initial reports from the oil spill came to the same 
conclusion, which was that the failure of the cementing process 
was likely a cause of the blowout. And you said in your 
statement that we know, quote, with certainty that on April 20 
there was a, quote, sudden catastrophic failure of the cement, 
the casing, or both. How, in your opinion, do we know that the 
cementing or casing or both failed?
    Mr. Newman. Congresswoman, the reservoir that we believe is 
flowing hydrocarbons is located 13,000 feet below the seabed. 
The pathway from the reservoir to the seabed should have been 
barriered off by cement and/or casing. In other words, in order 
for the hydrocarbon to get from 13,000 feet below the seabed to 
the seabed you have to have a failure of one or both of those 
barrier mechanisms.
    Ms. DeGette. Right. OK. Let me ask you this; who is 
responsible for determining the specifications for the 
cementing? Do you know?
    Mr. McKay.
    Mr. McKay. I'm speculating, but we would write a spec for 
what type of casing and the hole conditions, and we would look 
to Halliburton, in this case, to help with the cement design.
    Ms. DeGette. So you would do the specifications and then 
they would modify them as needed; is that correct?
    Mr. McKay. We would tell them what we want cemented, the 
type of casing, the hole conditions.
    Ms. DeGette. Mr. Probert, I wanted to ask you; Halliburton 
is the largest cementing provider for the oil and gas industry, 
including both offshore and onshore drilling. Are the 
techniques that Halliburton uses to cement offshore wells 
similar to those it uses for onshore oil and gas cementing?
    Mr. Probert. It is really, in many respects, a function of 
the individual well. While the basic principles are the same, 
obviously a deep and challenging well like this would be 
cemented quite differently than a well that would be onshore.
    Ms. DeGette. So there is some difference not just onshore 
and offshore, but from well to well, correct?
    Mr. Probert. Yes. Each well has a unique program.
    Ms. DeGette. Mr. Moore, I wanted to talk to you a few 
minutes about the emergency systems on the blowout preventer 
stack that Cameron International assembled. It seemed to me 
like several things might have gone wrong that could have been 
prevented.
    Chairman Stupak referred in his statement to the report 
that several crew members witnessed the emergency disconnect 
system being engaged. The EDS was supposed to close the shear 
ramps and disengage the riser from the well, but the EDS did 
not work because neither of these things happened. So my 
question is, Cameron doesn't dispute that someone on the 
Deepwater Horizon pressed a button for the emergency system, 
does it?
    Mr. Moore. No, we don't.
    Ms. DeGette. And my understanding is that your technical 
experts think that something else went wrong. One possibility 
is that communications between the blowout preventer and the 
Deepwater Horizon were destroyed before the system fully 
engaged. Can you explain briefly how this would have prevented 
the emergency system from functioning?
    Mr. Moore. Well, the control pods that function the blowout 
preventers is electrically actuated, and then that sends a 
signal down to the control pods, which then----
    Ms. DeGette. A timed signal, right?
    Mr. Moore. Well, it's instantaneous. And so if you lose 
that electrical connection to the pod, then that signal would 
not make it.
    Ms. DeGette. My understanding is that the EDS button 
wouldn't be hit unless the situation was dire, and that would 
require the communication lines to be intact for another full 
minute to function. That doesn't seem to anticipate the type of 
emergency that happened on the Deepwater Horizon, so I want to 
ask you about another part of the system that might have 
failed. And that is the emergency disconnect system had a dead 
man switch, that it would automatically close the shear rams 
and seal the well if something goes wrong, even if the 
emergency button is not pressed.
    We were told by Cameron during interviews that in order for 
the dead man switch to activate, three things had to happen: 
The communications had to fail; the hydraulics had to fail; and 
the electrical power had to fail; is that correct, Mr. Moore?
    Mr. Moore. That is correct. The dead man system is really 
designed to function when the riser parts from the wellhead.
    Ms. DeGette. Right. Now, your engineering expert told us 
that it's possible the dead man switch did not activate 
immediately after the explosion because the hydraulic line 
could have remained intact; is that correct?
    Mr. Moore. That could be a possibility.
    Ms. DeGette. Now, Mr. Moore, here's the important question 
then; shouldn't the dead man switch be designated to 
automatically seal a well once a catastrophic event happens 
like the kind of incident that occurred on Deepwater Horizon?
    Mr. Moore. Well, I'll just repeat that it was designed to 
function when the riser parts. If the riser is still attached 
and there is a control line still attached, then it could allow 
that function to not----
    Ms. DeGette. Right, but in this situation everything 
failed, and yet the dead man switch didn't activate 
immediately.
    Mr. Moore. Well, the riser was still connected to the 
Horizon rig for a couple of days, I believe.
    Ms. DeGette. So you don't think it should be designed to 
automatically seal the well if there is a catastrophic 
situation like this?
    Mr. Moore. I think that's something we have to look at.
    Ms. DeGette. Yes, I think so too. Thank you very much.
    Mr. Chairman, I just want to say one last thing, which is, 
I didn't want to get into a big argument with Mr. Probert about 
the liability. I felt that the witnesses were a little more 
forthcoming today about willingness to clean up the situation, 
but I was dismayed in his testimony when he talked about 
deflecting blame from Halliburton by saying that they were 
simply following BP's well construction plan. Because it seems 
to me that with all of these systems, it's obvious there was a 
catastrophic failure and it might have been systemic on every 
level.
    And so I'm hoping every player here works collaboratively 
with each other, not just to clean up and pay for these 
damages, but to identify how it happened, whether it was a 
perfect storm, or whatever it was, because otherwise we can't 
have that faith as we move forward, as I said in my opening 
statement, we can't have that faith in supporting offshore 
drilling until we know how we can prevent those failures 
because while they are rare, they are devastating.
    Thank you.
    Mr. Probert. If I could just respond and say we are 
committed to working closely with all parties to ensure that we 
understand exactly what took place, whatever it may be, and use 
this as a basis for improving the safety of operations going 
forward.
    Mr. Stupak. Thank you.
    Ms. Sutton for questions, please.
    Before you begin, Mr. Scalise has asked that the article he 
referred to from the Times-Picayune, Gas Surge Shut Well a 
Couple of Weeks Before Gulf Oil Spill, that be made part of the 
record. Without objection. And if you want to deliver it to the 
witnesses. He may follow it up with some questions, so I 
thought I would give you guys a chance to at least take a look 
at it.
    Ms. Sutton for questions, 5 minutes, please.
    Ms. Sutton. Thank you, Mr. Chairman.
    I just have to start with some clarification.
    Mr. Newman, following up on my colleague, Representative 
Braley's, line of questions and about the statements that 
people were asked to sign shortly after the incident--can we 
have that statement again on the screen? Can somebody pull that 
up?
    My question to you is this; are you telling us in this 
committee and the American people that this statement and 
asking people to sign this shortly after this unbelievable 
event had happened in their lives, that you were trying to find 
out the facts rather than trying to limit your liability, and 
this is the statement that was used to try and find out the 
facts?
    Mr. Newman. With all due respect, Congresswoman, there is 
absolutely no limitation of liability in any of those 
statements.
    Ms. Sutton. So my question to you is then that this 
statement was offered to these employees because it was an 
attempt to find out the facts. Is that your testimony?
    Mr. Newman. In the immediate aftermath of the event, 
Congresswoman, our first concern was on the health and well-
being of our people. We mobilized a team to south Louisiana to 
meet our people as they came----
    Ms. Sutton. It's just really a yes or no question.
    Mr. Newman. It had nothing to do with limiting our 
liability.
    Ms. Sutton. OK. So, again, the question was, are you 
telling us that this statement, you asked them to sign it 
because you were trying to investigate the facts, and this is 
the statement you used to further that?
    Mr. Newman. A statement identifying----
    Ms. Sutton. It's just a yes or no question.
    Mr. Newman. A statement identifying individuals who might 
have helpful information would be part of the initial----
    Ms. Sutton. Let's move on. Since you're not going to answer 
the question, I will take your failure to answer the question 
as the answer to the question.
    Can you tell me, do you operate rigs off of Norway or 
Brazil?
    Mr. Newman. We do operate rigs in Norway and Brazil.
    Ms. Sutton. What kind of a blowout safety system do your 
rigs in other parts of the world have? Can you share that with 
us?
    Mr. Newman. Rigs around the world have blowout prevention 
equipment similar to what was employed on the Deepwater 
Horizon. The control systems in two regulatory regimes, Norway 
and Canada, the control systems require an acoustic backup 
system as well.
    Ms. Sutton. OK. So I understand. So how much would a 
duplicate blowout preventer cost, can you tell me that?
    Mr. Newman. A duplicate blowout preventer, the entire 
system?
    Ms. Sutton. Yes. How much would that cost?
    Mr. Newman. I haven't quoted one recently, my guess is they 
would be in the realm of $15 million.
    Ms. Sutton. OK. Let me move on to Halliburton and Mr. 
Probert.
    In an incident last year, there was a well blown out near 
Australia, I mentioned it earlier in my questions to Mr. McKay, 
the Montara spill. What caused that blowout?
    Mr. Probert. There is a commission of an inquiry which is 
underway for the Montara blowout in Australia in the Timor Sea. 
The commission hasn't produced its findings, in fact, I think 
they just finished gathering evidence about 3 or 4 days ago.
    Ms. Sutton. So we don't know yet?
    Mr. Probert. So we don't know yet.
    Ms. Sutton. Was Halliburton involved in the well cementing?
    Mr. Probert. We were involved in the well cementing. But 
what we do know from the public testimony is that a 5-month 
period elapsed between the time the cementing was completed and 
that the well control issue took place. We also know from the 
testimony that the well owner in this particular case did not 
put a surface plug in place to protect the well when the 
blowout preventer was removed, nor did they put a corrosion cap 
on top of the well. So the well was left open to the elements 
for about 5 months. So I think the inquiry is what we all need 
to look to to find out exactly----
    Ms. Sutton. So is it possible that there is a relationship 
to the causes of each of these blowouts, in your opinion?
    Mr. Probert. It's impossible to say until we get details 
from the inquiry, but it seems unlikely that there's a link.
    Ms. Sutton. Does the testing of cement change with the 
increasing depth of wells?
    Mr. Probert. Well, there are more casing strings which are 
run, as you have seen from the schematic on this well, there 
were actually nine that were run, casing and liner strings. And 
so each one of those is tested. The first eight are tested in a 
slightly different fashion because we dry out afterwards 
because we are going to----
    Ms. Sutton. I am just asking about in relation to the depth 
of the wells, was the testing changed?
    Mr. Probert. I would say as a result of the number of 
pieces of casing, yes.
    Ms. Sutton. OK. And just let me clarify one other thing.
    Our distinguished colleague, the ranking member of the full 
committee, had mentioned that he thought that perhaps you had 
been presented as some dolts because you don't know what to do 
in the aftermath of this incident. But I would just say, to the 
contrary, you were certainly capable of figuring out how to 
develop and drill and profit from it, but what we're concerned 
about, what I'm concerned about is that you didn't figure out, 
for whatever reason--and I haven't heard a good reason yet--
about how to do it safely so as to prevent this kind of 
disaster.
    And the final question I have is, at the beginning of the 
Bush administration, there were closed meetings--and I'm glad 
Mr. Burgess reminded me of this--held by Vice President Cheney 
to discuss issues related to energy policy. I know that BP 
participated in those from previous testimony. Were any of the 
other companies, did they have representatives in those 
meetings? And can you just share with me whether or not you 
know if there was any discussion of trying to find ways to 
responsibly prevent this kind of disaster?
    Mr. Newman. I don't know whether or not Transocean was a 
participant in that. I think it would be very easy for us to 
confirm that for the committee.
    Mr. Moore. I'm not aware that Cameron was either, but we 
can confirm it?
    Mr. Probert. I have no knowledge either, but again, we'll 
look into it and let you know.
    Ms. Sutton. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you.
    Mr. Scalise, 5 minutes for questions, please.
    Mr. Scalise. Thank you, again, Mr. Chairman.
    I gave you all a copy of the article that's titled ``Gas 
Surge Shut Well A Couple of Weeks Before Gulf Oil Spill.'' That 
was from yesterday. If you could take a look at that because I 
still want to get those answers about not only the time that's 
mentioned in that article, but how many times total that well 
was shut down.
    I also want to refer, yesterday there was a hearing in New 
Orleans, an investigation that's underway as well as some of 
the ones that are happening here, but there was testimony 
there, and I guess one of the supply ships, the Bankston, I 
guess supplied the Horizon, there was testimony by the First 
Mate of the Bankston who said that weeks before the accident, 
they had to clear mud off the rig because of what they heard 
was a ``loss of circulation.'' Are you familiar with that 
incident where there was mud that had to be cleared off of the 
rig?
    Mr. McKay or Mr. Newman.
    Mr. McKay. I'm not aware of that.
    Mr. Scalise. I mean, this was a public hearing yesterday, 
an investigation into this. I would imagine somebody at BP was 
monitoring this.
    Mr. McKay. I'm sure they were, I'm just not aware.
    Mr. Scalise. Does your technical expert have any 
information on that?
    Mr. McKay. No.
    Mr. Scalise. Well, get me whatever you have on it.
    Mr. Newman.
    Mr. Newman. I'm not familiar with the details of that 
event, no.
    Mr. Scalise. And I would be happy to provide that article 
as well. But this was a hearing and investigation into this 
incident that happened yesterday. I would hope somebody at 
Transocean and BP know about this and can answer questions 
about this because this goes to the heart of were there a 
series of problems prior to the explosion that weren't being 
dealt with? And of course if you can't answer it, somebody at 
BP, somebody at Transocean is going to know about this, get me 
all of that information.
    But also I want to know, what safety changes were made 
after this one or multiple shutdowns occurred? Because if a 
shutdown occurs, that's not something that's supposed to 
happen, especially if mud is coming out because you're not 
controlling the flow of the natural gas. It's a well that's 
been described here, this was a very difficult well, not a 
typical well. And these are people who were working on this 
well saying this.
    You all should know about this because there are other 
wells that are out there, but if there is a well that is not a 
typical well that's causing problems, I would imagine you would 
take other safety precautions to address that. Maybe you 
didn't. But you need to get me that information as well as the 
number of times it was shut down, what safety changes were made 
after those problems were recognized.
    So moving on. It seems like--and this is something else 
that's discussed in the first article I gave you--it seems like 
there was a disagreement, it's described here as a heated 
disagreement between BP, Transocean, and Halliburton regarding 
the process of removing the mud and putting in the seawater. 
And this was described as being prior to the cement being 
completed.
    Now, first of all, I will let each of the three parties 
that are mentioned here, Mr. Newman, do you know about a 
disagreement between the parties on what is the best way to 
install or to remove the mud and when to remove the mud and how 
much to remove? Were you all in agreement?
    Mr. Newman. Congressman, I'm not aware of any disagreement. 
The first reference to any confusion with respect to what was 
happening on the rig I learned of during Chairman Waxman's 
opening comments today.
    Mr. Scalise. OK. Mr. McKay.
    Mr. McKay. Same thing, that's the first I had heard of 
that.
    Mr. Scalise. Mr. Probert.
    Mr. Probert. Halliburton would not normally be involved in 
that process, so I can't imagine there would be any 
disagreement.
    Mr. Scalise. Well, again, I mean, there are people who were 
on that rig saying that this heated disagreement occurred. Is 
it a standard protocol, then, for the process that was used to 
remove the mud and replace it with seawater, is this a 
permitted process? Did you have to follow a plan for just how 
that process was going to go? Because clearly there were some 
problems, and it could be one of the main problems in relation 
to the explosion. Is this a standard process for when to remove 
the mud or is it something that you all kind of decide as you 
are there on the spot?
    I will go again, Mr. Newman.
    Mr. Newman. Displacing the riser with seawater to recover 
the drilling mud is a normal part of the well abandonment 
process.
    Mr. Scalise. So it's not something that should be disagreed 
upon by the parties involved?
    Mr. Newman. The displacement of the riser to seawater 
should not be a subject of disagreement. That is part of the 
normal processes of abandoning the well.
    Mr. Scalise. Mr. McKay.
    Mr. McKay. I believe the procedure is part of the Temporary 
Abandonment Sundry Notice that's filed with the MMS.
    Mr. Scalise. So there should have been a standard protocol 
filed with MMS on the displacement procedure?
    Mr. McKay. I believe that the procedure would be filed with 
the Temporary Abandonment Sundry Notice, yes.
    Mr. Scalise. OK. And if you could give me a copy of that as 
well. And then, Mr. Probert, if you know of any disagreement 
there, or just is that a standard process?
    Mr. Probert. I believe it's part of a standard process.
    Mr. Scalise. OK. And Mr. McKay, was that the point where 
you were when the explosion occurred? Do you know exactly where 
in the process, what operation was being performed on the rig 
at the time of the explosion?
    Mr. McKay. I don't know the exact time. I mean, this is 
what the investigation is working on. We have an investigation 
that started gathering the information that you're--some of it 
is witness accounts that we haven't been able to talk to yet.
    Mr. Scalise. And finally, I'm out of time now, but a final 
question. In terms of the process of paying the fishermen and 
all others whose livelihoods are directly impacted by their 
inability to go and earn a living right now because of this, 
what is the process for getting them reimbursed? Clearly, there 
are a lot of people that are very nervous, one more week, two 
more weeks might be the difference between them going bankrupt 
or having their house foreclosed. What is that process, and 
what kind of assurance can you give that those people directly 
impacted will be able to be made whole in a quick, reasonable 
amount of time?
    Mr. McKay. We have a process underway to meet people's 
needs on the coast immediately. We've got claims, numbers to 
call. We've actually got community centers to visit as well. 
We've paid out I think over 1,000 claims already, and most of 
it is to fishermen who aren't working and need it for their 
cash flow. That's where our emphasis has been so far.
    Mr. Scalise. OK. If you can provide that process to the 
committee as well.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stupak. Thank you, Mr. Scalise.
    Mr. Burgess and I have a few more questions and we will 
wrap up this hearing. So let's go one more round, five minutes 
each.
    Mr. Newman, I would like to ask you about the Risk and 
Hazard Analysis that your company performed regarding a blowout 
preventer. Four days in August of 2003, Transocean personnel 
examined every possible hazard on the Deepwater Horizon rig to 
figure out what could possibly lead to a major accident. 
Transocean evaluated the safety of the BOP and found out that 
even though BOPs had failed in the past, the likelihood of a 
BOP failure was low because it was not a frequent occurrence. 
Transocean then rated the severity of a BOP failure as 
extremely severe, which means the risk could result in multiple 
fatalities or a massive oil spill.
    So Mr. Newman, your staff knew several years ago that the 
BOP component failure would inflict major damage on your crew, 
your company, and the environment. So my question is why 
wouldn't you do more to protect against a BOP failure?
    If I put your company's risk analysis on the screen and tab 
7 in the book there, if you want to look at it, it's the last 
page of tab 7 of that document, the environmental catastrophe 
taking place now is one of those predicted as possible by your 
experts. First, it says possible blowout with possible multiple 
fatalities and possible loss of rig; second, possible 
environmental impact.
    The preventative measures listed here included testing, 
inspections, and maintenance.
    Yet today, as I mentioned in my opening and has been 
mentioned a couple of times today, we learned that the BOP had 
a hydraulic, leaky hydraulic system, dead battery, and a 
configuration or design that actually interfered with the BOP 
safety features.
    So Mr. Newman, if you knew the risk, did the company take 
the necessary safeguards for the BOP? Isn't there something 
more you could have done to make sure, knowing the extreme 
severity of an accident, that you could have made sure the BOP 
was working properly?
    Mr. Newman. Mr. Chairman, over the last several years we 
have continued to improve our maintenance practices with 
respect to blowout preventers and we have continued to apply 
rigorous and strict testing protocols on a regular basis that 
would identify any failure.
    Mr. Stupak. What about because we heard a lot about the 
deadman switch, just the batteries, do you have any test 
developed so you can test the batteries to make sure that 
they're going to work so if everything else fails the batteries 
will still work and we can close those rams and shear this baby 
off?
    Mr. Newman. We test the batteries when the BOP is on the 
surface.
    Mr. Stupak. On the surface but not when it's in the water. 
When was this BOP put in the water?
    Mr. Newman. I believe it was put in the water in the first 
week of February.
    Mr. Stupak. So that would be about 2 or 3 months. I guess 
my question is this: When you get done with this BOP, let's say 
we didn't have this be a problem, do you use BOPs over and 
over?
    Mr. Newman. Yes.
    Mr. Stupak. This is 2001 this BOP was manufactured. Have 
they improved since, 2010? In the last 9 years have we had 
improvements in the BOPs to make more safeguards so we don't 
have these failures of leaky valves and dead batteries and to 
make sure they work? Do we have new, improved BOPs?
    Mr. Newman. The technology that was developed in the late 
1990s, when the industry first built rigs capable of operating 
in 10,000 feet of water, is largely the same as what's employed 
today.
    Mr. Stupak. Do you have new, improved ones, Mr. Moore?
    Mr. Moore. Congressman, over a 10-year period, yes, things 
do evolve. But we built our stacks to last 20 to 30 years if 
properly maintained and used in the environment in which they 
are designed for.
    Mr. Stupak. Let me ask you this because it came up earlier, 
acoustic BOP would be a redundancy system. Knowing what we know 
about this accident, if we had an acoustic BOP as a redundant 
system, would that have worked, would that have shut off, 
pinched off this pipe so we wouldn't have this oil coming out?
    Mr. Newman. The answer to that question, Mr. Chairman, 
depends on what's inside the BOP. If the BOP is somehow being 
prevented from functioning correctly, then another means of 
activating the BOP would not have offered any improvement.
    Mr. Stupak. Would an acoustic BOP be stacked or would it be 
off, somehow off the side to crimp this pipe? How would that 
work?
    Mr. Newman. What we're talking about, Mr. Chairman, is an 
acoustic control system. It is another means of activating the 
BOP. It's not another BOP. It's simply another means of 
activating the BOP. But here in order to activate this BOP, 
testimony has been that they probably hit the button on the rig 
when they realized there was a problem going on, right? They 
hit the button to activate the BOP. And you had to sever the 
communication, the power, and the hydraulic lines. Two out of 
three we know didn't work. The communications and power were 
cut. The hydraulic lines are still intact, therefore the 
deadman switch didn't work, correct?
    Mr. Moore. We're not sure the hydraulic line was severed. 
But if it wasn't, it would not know to----
    Mr. Stupak. But even if it wasn't with the acoustics on 
there, would that have shut down this BOP?
    Mr. Moore. It would be a method to shut it down, if there 
wasn't anything inside that BOP it couldn't, it wasn't----
    Mr. Stupak. We will not know that until we get the BOP off?
    Mr. Moore. We will not know that until we see it.
    Mr. Stupak. Mr. McKay, we asked for your risk registry, and 
I know you said you would get it, we still haven't received it. 
Would you see that we get your risk registry for Gulf 
organizations; would you please provide that to us?
    Mr. McKay. Yes.
    Mr. Stupak. Mr. Burgess, 5 minutes for questions please.
    Mr. Burgess. Thank you, Mr. Chairman.
    Lois Capps was asking some questions about the work that's 
gone on in the last 30 years as far as the mitigation of a 
spill when it happens. Now, there's a dispersant that is being 
or was being injected, placed on the water and also being 
injected at the site of the spill. That dispersant, is that new 
or is that something that's been around for a while?
    And anyone, feel free to answer that.
    Mr. McKay. This technology is new. I mean this is the first 
time it has been used at any scale and----
    Mr. Burgess. Who has been responsible for the development 
of that product?
    Mr. McKay. Well, Nalco I believe it's Nalco is the 
manufacturer, Nalco Chemical.
    Mr. Burgess. Now, I guess I'm a little confused. Did the 
EPA, you all approached the EPA for permission to use the 
dispersant below the surface. How long did it take to get the 
approval to use that?
    Mr. McKay. Well, we've requested several attempts, and 
there have been three tests. The last one ended yesterday, I 
think at 4:00 something in the morning. That was a 24-hour 
test. It looks like the impact of it was really good. We have 
asked for the EPA to allow us to continue. I don't know as of 
yet if we've gotten the approval, but we are ready to go on 
continuous injection.
    Mr. Burgess. Typically how long does it take to get EPA 
approval to use a new material like that?
    Mr. McKay. I don't know.
    Mr. Burgess. I know of a college in my district back in 
Denton, Texas, University of North Texas, does a lot of 
research on nano materials and they've got what they call 
noble-metal nanoparticles as well as porous metal organic 
frameworks that can absorb petroleum selectively and to a large 
differential. Are you guys looking at using anything along 
those lines?
    Mr. McKay. Absolutely. I think it was a bit misleading 
earlier on technology. This industry has massively, massively 
scaled up for oil spill response in the Gulf Coast using all 
technologies.
    Mr. Burgess. Right, and it doesn't have to be hay bales 
shot over the Gulf, there are large scale, the ability to do 
large scale dispersion----
    Mr. McKay. Massive amount of equipment in the Gulf Coast.
    Mr. Burgess. Let me just--going back to the tab pressure 
differential for a moment, Mr. McKay, Mr. Newman, either one of 
you. Would you get, a lot of what has happened today or a lot 
of the questions that come up today relate to who is in charge. 
I guess, Mr. Newman, really it is Transocean, the offshore 
operations manager, whatever it's called, that is the person 
ultimately in charge of everything on the rig, that's the 
captain of the ship, right?
    Mr. Newman. If I can clarify that, Congressman, the 
offshore drilling rig is a complex piece of equipment. There's 
a hotel out there to provide accommodation for the workers when 
they're not working, there's a power plant on the rig----
    Mr. Burgess. But somebody is ultimately in charge of the 
decisions, is there not?
    Mr. Newman. The offshore installation manager is ultimately 
responsible for the maintenance of the rig, for the material 
handling operations of the rig, for the conditions of the hotel 
on the rig. The offshore installation manager cedes decision-
making to the customer representative when it comes to 
decisions that respect the wellbore.
    Mr. Burgess. So when you have got an anomalous result on 
that pressure differential, is it ever appropriate, and really 
Mr. Newman or Mr. McKay, either one of you can answer this, is 
it ever appropriate to seek the advice or permission, what is 
the role of the Minerals Management Service when something like 
that occurs?
    Mr. McKay. I don't know in a specific situation like that.
    Mr. Burgess. We're going to override an anomalous result 
and remove the drilling mud, which is the primary protector. 
Even before the blowout protector, it is the primary protector 
of the well blowing out. Would you have ever consulted with any 
regulator at the Federal level or is that just not done?
    Mr. McKay. I can't speculate on when a Federal regulator 
would be contacted, whether that situation would apply or not. 
I don't know. The investigation is going to determine a lot of 
this.
    Mr. Burgess. But I guess that is really a question that is 
going to have to be answered. And Mr. Chairman, you know, it 
just brings us back to where I started this morning. We're 
going to have multiple hearings on this, I suspect, and at some 
point we have got to involve Department of the Interior, 
Department of Homeland Security, Minerals Management Service. 
We have got to involve these individuals. Now the name Carol 
Browner came up, the White House's energy czar; it would be 
very interesting to have her come talk to us as well. We need 
to get the information and it is unfortunately going to involve 
getting the administration to be cooperative with this 
committee for a change.
    So just with that caveat in mind, I'll yield back the 
balance of my time and thank you for and our witnesses for a 
very productive hearing today.
    Mr. Stupak. Thank you, Mr. Burgess.
    As you know, I don't believe in doing one hearing. I will 
get into an issue and we will have further hearings here, and 
the administration, it may be appropriate at another hearing to 
have them here, including the Minerals Management Service, and 
the administration on this issue and all the issues that have 
been before this subcommittee and this Congress has been 
cooperative. Even some document requests you have sent in the 
past have been, was worked out between us. So we will continue 
to work on it.
    Mr. Scalise, any questions?
    Mr. Scalise. Just first, on all of the information that I 
had asked from the panel, if they could get that to the full 
committee as well and----
    Mr. Stupak. Correct, and I would just maybe follow them up 
with written questions, too. As I will say in a few minutes, we 
have 10 days for further follow-up questions.
    Mr. Scalise. I'd be happy to. Thank you, Mr. Chairman.
    Mr. Burgess. Mr. Chairman, could I ask that materials on 
both sides that were actually made available to the committee 
be made available to the committee staff as well?
    Mr. Stupak. Yes. No objection. All information that has 
been available, it has all been shared equally thus far. If 
there is anything further or something you don't think was 
there, please let us know and we will make sure it's there.
    Let me ask one more question, Mr. Moore, if I may. The 
lessons we learned thus far about what worked and what didn't 
work with the BOP, the blowout preventer, do you, the Cameron 
company, do you think the design changes should be made to BOPs 
and should there be modifications to the existing BOPs in 
service now?
    Mr. Moore. I'm not sure, Congressman. I think we need to 
see what happened to that BOP. I think it would be, to change 
something that's not broke, we don't know what happened. We do 
know that we're going to have to look at a lot of different 
things differently going forward in terms of how we move 
forward in this industry.
    Mr. Stupak. Well, look at that design one just so you know, 
you had your communications, your hydraulics and the power, the 
power, seems all three have to be severed before it will work, 
I think one or two before it would work.
    Mr. Moore. Well, the design, as I said, of that was to 
function when you lose the riser from the BOP.
    Mr. Stupak. We didn't lose the riser here.
    Mr. Moore. We didn't lose the riser here. So we learned 
something. And Cameron is committed to make the changes, to 
working with our customers and working with the industry to 
move forward.
    Mr. Stupak. Well, thank you. Thank you to all the 
witnesses. I know it's been a long day, and this is not an easy 
subject and it's just beginning, and we are in the early 
stages. There will be more questions and answers, I'm sure, and 
unfortunately to the people who lost their lives our hearts go 
out to them, their families and co-workers. So I thank you for 
being here.
    That concludes our questioning. I want to thank all of our 
witnesses for coming today and for your testimony. The 
committee rules provide that members have 10 days to submit 
additional questions for the record.
    I ask unanimous consent that contents of our document 
binder be entered in the record provided that the committee 
staff may redact any information that is business proprietary, 
relates to privacy concerns or is law enforcement sensitive. 
Without objection, documents will be entered into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Stupak. That concludes our hearing. The meeting of the 
subcommittee is adjourned.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]
    [The prepared statement of Ms. Schakowsky follows:]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
